i
APPENDIX
TABLE OF CONTENTS
APPENDIX A

Opinion, in the Supreme Court of
Tennessee
(July 2, 2019)………………..App. 1

APPENDIX B

Order in the Chancery Court for
Knox County, Tennessee
(May 31, 2017)…………….App. 56

APPENDIX C

Order in the Chancery Court for
Knox County, Tennessee
(February 9, 2017)………..App. 80

APPENDIX D

Findings of Fact and Conclusions
of Law and Judgment of the
Hearing Panel
(March 9, 2015)…………App. 115

APPENDIX E

Order on Petition for Rehearing,
in the Supreme Court of
Tennessee
(July 22, 2019)………….App. 148

APPENDIX F

Tenn. Sup. Ct. R. 9
(2012), Disciplinary
Enforcement……………App. 150

APPENDIX G

Tenn. Sup. Ct. R. 8, Rules of
Professional
Conduct
(Pertinent
Text)……………………….App. 224

App. 1

_______________
APPENDIX A

_______________
IN THE SUPREME COURT OF TENNESSEE AT
KNOXVILLE
May 31, 2019
Session Heard at Nashville
Issued July 2, 2019
BOARD OF PROFESSIONAL
RESPONSIBILITY OF THE SUPREME COURT
OF TENNESSEE v. LORING EDWIN JUSTICE
Direct Appeal from the Chancery Court for
Knox County No. 189578-1, 189418-3 Robert E.
Lee Davies, Senior Judge
No. E2017-01334-SC-R3-BP
This lawyer-disciplinary proceeding stems
from a Knoxville attorney’s conduct in a federal
personal injury lawsuit where the attorney
represented the plaintiff. The federal district court
imposed a discovery sanction against the corporate
defendant and ordered it to pay the attorney’s fees
and costs the plaintiff had incurred in locating and
deposing a witness the corporate defendant failed to
disclose. When the plaintiff’s lawyer submitted an
itemization of fees and costs to the federal district
court, the lawyer falsely claimed as his own work the
work that a paralegal had performed. The lawyer
also submitted a written declaration along with the

App. 2

itemization falsely claiming that he had kept
contemporaneous records of his time in the case and
attesting to the truth and accuracy of the
itemization. The lawyer also requested in the
itemization “grossly exaggerated and unreasonable”
attorney’s fees of more than $103,000 for work
beyond the scope of the federal district court’s order.
Later, the lawyer testified falsely in a hearing before
the federal district court by reaffirming the truth and
accuracy of the itemization and the written
declaration. A Hearing Panel of the Board of
Professional
Responsibility
(“Hearing
Panel”)
determined that the lawyer had violated four
provisions of the Tennessee Rules of Professional
Conduct (“RPC”)—RPC 1.5(a) (Fees); RPC 3.3(a)
(Candor Toward the Tribunal); RPC 3.4(b) (Fairness
to Opposing Party and Counsel); and RPC 8.4(a) and
(c) (Misconduct). The Hearing Panel found six
aggravating and two mitigating factors and
sanctioned the lawyer with a one-year active
suspension and twelve additional hours of ethics
continuing legal education. The Board of Professional
Responsibility (“Board”) and the lawyer appealed to
the Chancery Court for Knox County. Tenn. Sup. Ct.
R. 9, § 1.3. The trial court affirmed the Hearing
Panel’s findings of fact and conclusions of law but
modified the sanction to disbarment. The trial court
concluded that Standard 5.11 of the ABA Standards
for Imposing Lawyer Sanctions (“ABA Standards”),
which identifies disbarment as the presumptive
sanction, applies and that the aggravating and
mitigating factors do not warrant a lesser sanction
than disbarment. The lawyer appealed, and after
carefully reviewing the record and applicable
authorities, we affirm the trial court’s judgment in

App. 3

all respects, including its modification of the sanction
to disbarment.
Tenn. Sup. Ct. R. 9, § 1.3 (currently Tenn. Sup.
Ct. R. 9, § 33.1(d)) Direct Appeal; Judgment of
the Trial Court Affirmed
CORNELIA A. CLARK, J., delivered the opinion of
the Court, in which JEFFREY S. BIVINS, C.J., and
SHARON G. LEE, HOLLY KIRBY, and ROGER A.
PAGE, JJ., joined.
Linn Guerrero, Knoxville, Tennessee, for the
appellant, Loring E. Justice.
Gerald Morgan and William C. Moody, Nashville,
Tennessee, for the appellee, Board of Professional
Responsibility.
OPINION

I.

Factual and Procedural Background

A. Hearing Panel Proof
Loring Edwin Justice grew up in Oak Ridge,
Tennessee, obtained his undergraduate degree in
1995 from the University of Tennessee, and in 1998,
graduated from Yale University School of Law. That
same year he obtained his license to practice law in
Tennessee, and from 1998-1999, Mr. Justice worked
as a judicial law clerk for a judge of the United
States Court of Appeals for the Sixth Circuit. After
working the next year as an associate at a Nashville
law firm, in 2000, Mr. Justice returned to East
Tennessee and founded Loring Justice PLLC (“the
law firm”), where he has practiced ever since.
From May to September 2009, Mr. Benjamin

App. 4

Kerschberg worked for the law firm. Mr. Justice and
Mr. Kerschberg met while they were both students at
Yale Law School. They remained friends after law
school and both served as judicial clerks for the same
federal circuit court judge. Mr. Kerschberg did not
obtain his Tennessee law license, so he worked as a
contract paralegal for the law firm, and he billed the
law firm for his services by submitting invoices with
narrative entries describing the tasks performed, the
date the services were rendered, and the time he
spent on the tasks, in quarter-hour increments.
During the time Mr. Kerschberg worked for
the law firm, Mr. Justice represented Scotty Thomas
in a personal injury lawsuit (“the Thomas case”) in
the United States District Court for the Eastern
District of Tennessee (“District Court”) against
Lowe’s Home Centers (“Lowe’s”). Mr. Thomas alleged
that, on June 21, 2005, while he was working for a
merchandising company inside a Lowe’s store near
Knoxville, a large stack of metal roofing sheets
collapsed on top of him, causing very serious injuries,
including brain damage. Lowe’s denied liability and
also denied having any knowledge or records
showing that the incident occurred or that the
merchandising company was in the Lowe’s store on
the date of the alleged incident.
Mr. Thomas recalled a female Lowe’s
employee assisting him after the incident, however,
so during discovery Mr. Justice repeatedly asked
Lowe’s to identify this employee. Lowe’s failed to
disclose this employee’s name, even though she was a
human resources manager for Lowe’s, was onsite at
the Lowe’s store the day the incident allegedly
occurred, and made an appointment for Mr. Thomas

App. 5

at a health clinic the day of the incident. In July
2010, Mr. Justice learned her identity from a medical
record he obtained by subpoena from the health
clinic where Mr. Thomas was first treated for his
injuries.
By this time, Mr. Justice had already moved
for a default judgment based on Lowe’s discovery
violations. The District Court held the motion in
abeyance until December 1, 2010, and then referred
it to a federal magistrate judge, who concluded that
Lowe’s had failed to satisfy its discovery obligations
and that “the Plaintiff should be compensated for the
labor and costs incurred in finding [the witness],
because these costs were necessitated by [Lowe’s]
failure to properly investigate the allegations of this
suit.” The magistrate judge also recommended that
Lowe’s “be required to pay all reasonable fees and
expenses incurred in locating and deposing [the
witness], including attorneys’ fees, transcription
costs, court reporter fees, and other costs” and that
Mr. Justice be required “to file an affidavit and/or
documentation evidencing the fees, expenses, and
costs incurred.”
On March 15, 2011, the District Court
adopted
in
part
the
magistrate
judge’s
1
recommendations. The District Court required
Lowe’s to “pay Plaintiff [Mr. Thomas] all reasonable
attorney’s fees and expenses incurred in locating and
deposing [the witness], including attorney’s fees,
The District Court did not accept the magistrate’s
recommendation to bar Lowe’s from presenting evidence at the
trial that would dispute Mr. Thomas’s version of how the
accident occurred.
1

App. 6

transcription costs, court reporter fees, and other
costs” and required Mr. Justice to provide the
District Court by April 8, 2011, “documentation
evidencing the fees, expenses, and costs incurred,
associated with the discovery of [the witness].” The
District Court gave Lowe’s fourteen days thereafter
“to file objections to the reasonableness of the fees
and costs requested,” after which the District Court
would determine “the final amount of the monetary
sanctions.”
Mr. Justice submitted a preliminary
itemization by the initial deadline but obtained an
extension of time and submitted the final itemization
and fee petition (“Itemization”) to the District Court
on April 22, 2011. The Itemization included 288
entries for work and expenses incurred from January
9, 2009 to April 8, 2011, listed 371.5 hours of work
attributed to three lawyers and four assistants, and
sought $106,302.00, which included more than
$103,000 in attorney’s fees. Of the attorney hours,
325.5 were attributed to Mr. Justice and billed at the
rate of $300 per hour. Only eleven hours were
attributed to Mr. Kerschberg and billed at the rate of
$90 per hour. Along with the Itemization, Mr. Justice
submitted a written declaration attesting under
penalty of perjury that he had maintained
contemporaneous records of the work performed on
the Thomas case and that the Itemization was true
and correct.
Questions were raised in the District Court
about the Itemization, in part because several of the
narrative entries purporting to describe Mr. Justice’s
work were identical, or nearly identical, to entries in
the invoices Mr. Kerschberg had submitted to Mr.

App. 7

Justice’s law firm from May to September 2009
describing Mr. Kerschberg’s work.
At a hearing in the District Court on
February 17, 2012, Mr. Justice testified at length, as
did several other witnesses. Upon considering the
proof, the District Court suspended Mr. Justice from
practicing law in the District Court for six months. 2
Mr. Justice appealed his suspension, but the United
States Court of Appeals for the Sixth Circuit
affirmed, and the United States Supreme Court
denied his petition for writ of certiorari.
While the federal proceedings were pending,
a lawyer with whom Mr. Kerschberg had discussed
the matter reported it to the Board. At Mr. Justice’s
request, the Board held its investigation in abeyance
pending disposition of some of the federal
proceedings. Eventually, the Board completed its
investigation and filed a petition for discipline
against Mr. Justice on September 25, 2013. 3 The
Board alleged that Mr. Justice had violated RPC
1.5(a) (Fees), RPC 3.3(a)(1) (Candor Toward the
Tribunal), RPC 3.4(b) (Fairness to Opposing Party
and Counsel), and RPC 8.4(a), (b), (c), and (d)
(Misconduct).This Court revised Tennessee Supreme
Court Rule 9 effective January 1, 2014. This
disciplinary proceeding, however, was initiated prior
2 The District Court never awarded any attorney’s fees and
costs for Lowe’s discovery violation.

This Court revised Tennessee Supreme Court Rule 9 effective
January 1, 2014. This disciplinary proceeding, however, was
initiated prior to January 1, 2014, and it is therefore governed
by the prior version of the rule. See Garland v. Board of
Professional Responsibility, 536 S.W.3d 811, 816 (Tenn. 2017).
Any references herein are to the pre-2014 version of Rule 9.
3

App. 8

to January 1, 2014, and it is therefore governed by
the prior version of the rule. See Garland v. Board of
Professional Responsibility, 536 S.W.3d 811, 816
(Tenn. 2017). Any references herein are to the pre2014 version of Rule 9.
The Hearing Panel convened from January
20-23, 2015. The Board presented no live witnesses.
As for its claim that Mr. Justice violated RPC 1.5(a)
by charging an unreasonable attorney fee, the Board
presented the District Court’s order and Mr. Justice’s
Itemization. The Board asserted that many of the
entries in the Itemization were for work completely
unrelated to locating and deposing the witness, such
as: (1) attending the Tennessee Rule of Civil
Procedure 26(f) discovery conference; (2) preparing
the initial written discovery; (3) preparing an
amended complaint; (4) meeting with his client;
(5) reading hotel reservations; (6) researching
electronic filing rules; (7) talking with the clerk’s
office about electronic filings; (8) practicing a motion
argument in front of his paralegal; (9) locating an
expert witness; and (10) workshopping the case at
the American Association for Justice Deposition
College.
The Board also introduced Mr. Kerschberg’s
deposition upon written questions, his 2009 invoices,
and excerpts of his former testimony in the District
Court to establish that Mr. Justice had claimed Mr.
Kerschberg’s work as his own. In his deposition and
in his testimony in the District Court, Mr.
Kerschberg stated that he had personally performed
the work described in his invoices, that Mr. Justice
had paid the invoices without question, and that he
had no knowledge of Mr. Justice ever recording his

App. 9

own time on the Thomas case or on any other case.
Mr. Kerschberg recognized the possibility that Mr.
Justice could have done work on the Thomas case
without his knowledge that was similar to his own,
and he acknowledged using Mr. Justice’s notes on
occasion to describe his own work in the narrative
invoice entries. But Mr. Kerschberg consistently
testified that the narrative invoice entries described
his own work, not Mr. Justice’s work, and
maintained that, to his knowledge, Mr. Justice had
never kept time on the Thomas case or any other
case.
The Board emphasized as well that seventeen
Itemization entries were virtually identical to entries
in Mr. Kerschberg’s invoices in terms of the dates,
descriptions of the work, and time necessary to
perform the tasks. 4 A side-by-side comparison of the
Itemization and invoice entries appears below.
a.

June 13, 2009
Kerschberg
1.25 Revision of Motion to Have
Requests for Admission Deemed
Admitted.
Justice
1.2
Revision of Motion to Have
Requests for Admission Deemed
Admitted

b.

June 14, 2009

Mr. Kerschberg recorded his time in quarter hour increments
and used the initials “LJ” or “Loring” to refer to Mr. Justice. Mr.
Justice recorded his time in tenth of an hour increments.
4

App. 10

Kerschberg
2.25 Added Loring edits to Motion to
Deem
Requests
for
Admissions
admitted. Added section about Letter
to Clint Woodfin and Motion to
Supplement. Researched electronic
filing rules for the E.D. Tenn.
Researched proper procedure for filing
Amended Complaint (Local Rules;
Scheduling Order; FRCP).
Justice
2.2 Edits to Motion to Deem Requests
for Admissions admitted. Added
section about Letter to Clint Woodfin
and Motion to Supplement. Researched
electronic filing rules for the E.D.
Tenn.
c.

June 16, 2009
Kerschberg
2.5 All final preparations of Amended
Complaint and Motion to Deem
Requests For Admissions Deemed
Admitted. Preparation of all PDF
exhibits. Compilations of files. Filing
with E.D. Tenn. via ECF. Hard copies
of everything for file.
Justice
2.5 All final preparations of Amended
Complaint and Motion to Deem
Requests for Admissions Deemed
Admitted. Preparation of all PDF
exhibits. Compilation of files. Filing

App. 11

with E.D. Tenn. via ECF. Hard copies
of everything for file.
d.

June 16, 2009
Kerschberg
3.0
Edited Motion to Compel
Discovery and Memorandum In
Support thereof prepared by Juliane
Moore.
Justice
3.0
Preparation and editing of
Motion to Compel Discovery and
Memorandum In Support partially
prepared by legal assistant

e.

June 17, 2009
Kerschberg
1.0 Talked to Angela Brush at district
court to correct misunderstandings re
our filings. Second conversation with
LJ about Consent Motion To Amend
with Clint Woodfin. Drafted Consent
Motion for review by Clint Woodfin.
Justice
1.0
Talked to Angela Brush at
district court to correct
misunderstandings re our filings

f.

June 17, 2009
Kerschberg
4.0
Continued to revise and rewrite
Motion to Compel Discovery.

App. 12

Justice
4.0
Continued to research, revise
and rewrite Motion to Compel
Discovery
g.

June 18, 2009
Kerschberg
4.5

Motion to Compel Discovery.

Justice
4.5
Continued research, revision and
refinement of Motion to Compel
Discovery
h.

June 19, 2009
Kerschberg
.5
Letter to Bob Davies regarding
additional materials needed from MSG.
Justice
.5
Letter to Bob Davies regarding
additional materials needed from MSG
about the project

i.

July 16, 2009
Kerschberg
.25
Reviewed Loring’s notes from
meeting with Clint Woodfina [sic] and
calendared follow-up call to Cory re:
Clint’s call.
Justice
.2
Reviewed notes from meeting
with Clint Woodfin and calendared

App. 13

follow-up call to Cory Kitchen re:
Clint’s call
j.

July 22, 2009
Kerschberg
5.0 Drafted and typed memo for trip to
Alabama.
Justice
5.0 Drafted and typed memo for trip to
Florence, Alabama to meet with
Plaintiff’s MSG co-workers. This memo
summarized the liability issues in the
case and listed important questions to
ask to try to understand whether it
was plausible Lowe’s could lack notice
and to prove Lowe’s indeed had notice
and to gain physical descriptions of
individuals of interest

k.

July 27, 2009
Kerschberg
4.5 Reviewed all notes from our trip to
Alabama and compiled Master To-Do
List for Loring and BG. Drafted
Affidavits of Kitchen, Yeates, and
McBride. Online research re: Teresa
Beavers (Lowe’s Manager). 5

5 The Board also introduced an entry from Mr. Justice’s
preliminary Itemization in which Mr. Justice referred to
himself in the third person as “Loring.” This entry stated in
relevant part, “Reviewed all notes from our trip to Alabama to
meet with the MSG witnesses and compiled Master To-Do List
for Loring and B. Griffith, summer clerk.” The Board alleged
that this reference resulted from Mr. Justice copying Mr.

App. 14

Justice
4.5 Reviewed all notes from our trip to
Alabama to meet with the MSG
witnesses and compiled Master To-Do
List. Drafted Affidavits of Kitchen,
Yeates, and McBride. Online research
re: Teresa Beavers (Lowe’s Manager)
l.

July 29, 2009
Kerschberg
.25 Revisions of Affidavits of Kitchen,
Yeates, and McBride.
Justice
.2 Revisions of Affidavits of Kitchen,
Yeates, and McBride

m.

August 8, 2009
Kerschberg
4.0 Coordinated with Debi Dean to
make sure that Randy, Bradley and
Corey will sign Affidavits and get them
back to us notarized. Prepared final
versions with LJ edits. Two versions
for Bradley and Cory—one with and
one
without
Teresa
Beavers.
Researched FRCP and EDTN Rules re:
timeliness of Notice of Filing with
respect to Hearing Date. Drafted
Notice of Filing. Drafted Memorandum

Kerschberg’s invoice. This third-person reference was omitted
from Mr. Justice’s final Itemization.

App. 15

to accompany Notice of Filing for filing
with the court this week.
Justice
3.0 Coordinated with Debi Dean of
Alabama Head Injury Foundation to
make sure that Randy, Bradley, and
Corey will sign Affidavits and get them
back to us notarized. Reviewed legal
assistant’s research of FRCP and
EDTN Rules re: timeliness of Notice of
Filing with respect to Hearing Date.
Drafted Notice of Filing. Drafted
Memorandum to accompany Notice of
Filing for filing with the court this
week.

n.

August 10, 2009
Kerschberg
.5 Coordination of all Affidavit
signings, etc. with Debi Dean.
Justice
.5 Coordination of all Affidavit
signings, etc. with Debi Dean

o.

August 27, 2009
Kerschberg
5.0 Reviewed file and all FRCP related
to discovery to look at options
and
obligations for supplementation before
the September 14 hearing, as well as
the possibility of fee shifting.
Justice

App. 16

5.0 Reviewed file and all FRCP related
to discovery to look at options
and
obligations for supplementation before
the September 14 hearing, as well as
the possibility of fee shifting and
sanctions

p.

August 31, 2009
Kerschberg
2.0 Prepared outline for Loring as to
action plan before September 14
hearing.
Researched
Lowe’s
Loss/Safety
Prevention
Manager.
Drafted proposed Interrogatory re:
iinformation [sic] on who held that
position at the time of the accident.
Revised and prepared cover letters to
Clint Woodfin and Clerk’s office.
Justice
2.0 Prepared outline as to action plan
before
September
14
hearing.
Researched
Lowe’s
Loss/Safety
Prevention Manager. Drafted proposed
Interrogatory re: information on who
held that position at the time of the
accident. Revised and prepared cover
letters to Clint Woodfin and Clerk’s
office

q.

September 9, 2009
Kerschberg
1.25 Reviewed our initial disclosures
and discovery responses to see what
needs to be supplemented. Reviewed

App. 17

all supplemental materials provided by
Clint Woodfin. Detailed email to Loring
reviewing
thoughts
on
the
supplemental documents and possible
RFPs. Google search for the two other
female managers mentioned by Clint
Woodfin. Results in email to LJ. Email
to Mike Conley on Listserv re:
obtaining the good information he has
re falling products litigation.
Justice
1.2 Detailed email to file and staff after
reviewing supplemental documents of
defendant and possible RFPs. Google
search for the two
other female
managers mentioned by Clint Woodfin.
The Board additionally offered into evidence
an April 11, 2011 email by which Mr. Justice
transmitted the initial Itemization to Mr. Kerschberg
for review. 6 This email stated:
Thanks for the email Kersch. I billed a
lot of time for my reading your work
rather than you doing it so you won’t
have to testify if it comes to that. Hope
you are not mad about that. I really
appreciate you. Tell me what you think
of this. What a war.
The Board pointed out that the Itemization did not
include a single entry for time Mr. Justice spent
The record does not support Mr. Justice’s assertion that this email was marked for identification but not received into
evidence.
6

App. 18

“reading” Mr. Kerschberg’s work.
By agreement, the Board and Mr. Justice
introduced excerpts of Mr. Justice’s former
testimony from the District Court hearing. The
Board presented Mr. Justice’s testimony denying
that he had wrongly attributed Mr. Kerschberg’s
work to himself in the Itemization, reaffirming the
accuracy of the Itemization, and maintaining that
he had contemporaneously recorded the time he
spent working on the federal case. The Board also
introduced the written declaration Mr. Justice had
submitted along with the Itemization, in which he
reaffirmed that he had performed the work claimed
in the Itemization, that he had contemporaneously
recorded his time for the work claimed in the
Itemization, and that the Itemization was true and
accurate—all claims that the Board alleged were
false.
When the Board closed its proof, Mr. Justice
moved for involuntary dismissal, but the Hearing
Panel denied his motion. Mr. Justice then presented
his proof, which consisted of written exhibits,
including excerpts of testimony given in the District
Court hearing, as well as the in-person testimony of
Chad Rickman, an associate with Mr. Justice’s law
firm, and Mr. Justice’s own in-person testimony.
Mr. Rickman testified that the law firm is
contingency-fee based, does not have a billing
system, and does not typically require employees
and lawyers to record time. Mr. Rickman did not
work at the law firm when Mr. Kerschberg worked
there and first worked on the Thomas case in July
2010. But, Mr. Rickman recalled Mr. Justice
instructing all law firm employees and lawyers to

App. 19

record their time on the Thomas case. Mr. Rickman
had recorded his time either on handwritten notes
or in emails. Clerical staff used the notes and emails
to enter his time into a Word document that
included the time of all law firm personnel on the
Thomas case. As an example of his own time
records, Mr. Rickman produced an April 2011 email
reporting his time. But this email was sent after the
District Court filed its order awarding the discovery
sanction, and Mr. Rickman could not produce any
email or note predating the District Court’s order by
which he had reported time on the Thomas case.
As for the Word document containing all of
the time records for personnel of the law firm on the
Thomas case, Mr. Rickman stated that it became
the Itemization that Mr. Justice filed in the District
Court. But Mr. Rickman had not seen the Word
document in any format other than the Itemization,
and he had first seen the Itemization only after the
District Court awarded the discovery sanction.
Mr. Rickman acknowledged that he had
reviewed the Itemization before it was filed to
eliminate confidential work product and to ensure
that the entries were appropriate and not
duplicative. But Mr. Rickman neither reviewed Mr.
Kerschberg’s invoices nor compared the Itemization
to any other time records. As for the scope of the
Itemization, Mr. Rickman disagreed with the
Board’s assertion that the Itemization sought
unreasonable fees by listing tasks that were
beyond the scope of the District Court’s order. Mr.
Rickman, like Mr. Justice, interpreted the District
Court’s order as awarding “all fees and expenses
associated with all the extra work that had to be

App. 20

done since the initial disclosure because of Lowe’s
discovery abuse.” Mr. Rickman said that he and
Mr. Justice never really considered interpreting the
District Court’s order narrowly as authorizing only
fees associated with finding and deposing the
witness because that interpretation “seemed pretty
inconsistent with what the [magistrate judge] and
[the District Court] had said.” Mr. Rickman
maintained that Mr. Justice had intended to give
any monetary sanction awarded to Mr. Thomas. Mr.
Rickman believed that federal law generally
requires paying discovery sanctions to clients, and
he interpreted the District Court’s order as
requiring Lowe’s to pay the sanction to Mr. Thomas.
In general, both in the District Court and
before the Hearing Panel, Mr. Justice testified
consistently with Mr. Rickman. Mr. Justice agreed,
for example, that ordinarily neither he nor anyone
else at the law firm records time. Mr. Justice said
that the Thomas case was the exception and that he
began keeping contemporaneous time records on the
Thomas case and requiring all other law firm
personnel to do so around the discovery conference
on December 10, 2008, because he believed Lowe’s
blanket denials would eventually result in a
discovery sanction. Mr. Justice stated that he
recorded his own time either by personally entering
it into the Word document or by giving clerical staff
his handwritten time records to enter into the Word
document. But Mr. Justice was unable to produce
any handwritten note or email recording his own
time on the Thomas case, and he could not recall the
name of the Word document. Like Mr. Rickman, Mr.
Justice said that all time records on the Thomas
case were entered into the Word document. He

App. 21

explained that the Word document was either
emailed around the law office or saved to portable
drives and copied to various law firm computers for
various personnel to enter time. He testified that
the Word document had been overwritten each time
data was entered and that earlier versions of the
document had not been saved. According to Mr.
Justice, the Word document eventually became the
Itemization that was filed in the District Court.
Mr. Justice attempted to locate earlier
versions of the Word document after questions were
raised about the Itemization in the District Court.
He had instructed the law firm’s in-house
technology staff to search for earlier versions of it.
He also engaged an outside computer consultant to
search the law firm’s computers for earlier versions
of the Word document. Eventually, four versions of
the Word document were located, but none predates
the District Court’s order awarding the discovery
sanction.
Mr. Justice opined that no earlier version of
the Word document was located because it was
overwritten each time data was entered and because
the law firm computers used a “defragmenting”
process. According to Mr. Justice, this process made
it difficult or impossible to recover earlier versions
of Word documents. Mr. Justice said that he had
turned off this process after the Itemization was
questioned in the District Court. Mr. Rickman
corroborated Mr. Justice’s testimony on this point,
saying that he remembered Mr. Justice frantically
going to each computer in the office to turn off the
defragmenting process.
Concerning

the

seventeen

Itemization

App. 22

entries,
Mr.
Justice
denied
copying
Mr.
Kerschberg’s invoices and again maintained, as he
had in the District Court, that he had personally
performed the work described in the Itemization
and that he had contemporaneously recorded his
time, meaning within seven-to-ten days of
completing the work. Mr. Justice offered various
explanations for the similarities between his
Itemization entries and Mr. Kerschberg’s invoice
entries. He posited that Mr. Kerschberg may have
copied his notes when creating the invoice entries,
and, as support for this theory, pointed to Mr.
Kerschberg’s acknowledgment that he had
occasionally used Mr. Justice’s notes to create his
own invoice entries. Mr. Justice speculated that law
firm personnel, including Mr. Rickman, may have
mistakenly entered or incorrectly assigned time
when preparing the Itemization. Mr. Justice also
implied that Mr. Kerschberg may have gained
unauthorized access to the firm’s computers and
manipulated the Itemization. To support this
suggestion, Mr. Justice described Mr. Kerschberg’s
father as a nationally known computer expert and
said that the law firm’s technology staff had
discovered oddities in the law firm’s computer
system during the federal proceedings, including the
forwarding of emails from Mr. Kerschberg’s
deactivated account to another email address
associated with Mr. Kerschberg.
Mr. Justice emphasized as well that,
although he had not copied Mr. Kerschberg’s invoice
entries, doing so would not have been improper
because he had actually performed the tasks
described in the Itemization entries. Mr. Justice
reaffirmed the truth and accuracy of the Itemization

App. 23

and his assertion that he and Mr. Kerschberg had
performed the same or similar work (including
clerical tasks), on the same date, and for exactly, or
almost exactly, the same amount of time.
Mr. Justice agreed that the law firm had paid
Mr. Kerschberg in 2009 without questioning the
charges or the entries describing his work. When
asked by the Hearing Panel to review Mr.
Kerschberg’s invoices and point out errors, Mr.
Justice identified only typos and misnomers and
nothing substantial. When asked the meaning of his
April 11, 2011 email to Mr. Kerschberg stating that
he had billed “a lot of time” for “reading” Mr.
Kerschberg’s work, Mr. Justice explained that this
statement merely reflected the “Chamberlain”
principle that he had followed when preparing the
Itemization. Mr. Justice said that, under this
Chamberlain principle, which he purportedly
derived from Chamberlain Mfg. Corp. v. Maremont
Corp., 92-C-0356, 1995 WL 769782, at 1 (N.D. Ill.
Dec. 29, 1995), any duplicative work he and Mr.
Kerschberg performed could be billed at the higher
attorney rate. 7 By ascribing this meaning to the
email, Mr. Justice also implicitly answered the
question of why the Itemization had not included
any entries for Mr. Justice “reading” Mr.
Kerschberg’s work.
With respect to the Board’s assertion that the
Itemization sought unreasonable fees for tasks far
exceeding the scope of the District Court’s order, Mr.
As explained more fully herein, contrary to Mr. Justice’s
argument, Chamberlain does not stand for the proposition that
an attorney can charge a higher rate when duplicating a
paralegal’s work. 1995 WL 769782, at *9.
7

App. 24

Justice asserted that the Lowe’s discovery violation
had impacted the entire case, causing much more
work than otherwise would have been necessary.
Mr. Justice maintained that the Itemization had
been conservative and had included only a portion of
the time for the extra work necessitated by Lowe’s
discovery violation. As did Mr. Rickman, Mr. Justice
interpreted the District Court’s order as broader
than its literal language and as encompassing fees
for any and all extra work stemming from Lowe’s
discovery violation. Like Mr. Rickman, Mr. Justice
stated that federal law requires paying discovery
sanctions to clients, and as a result, Mr. Justice
claimed that he had no financial incentive to inflate
the fees sought by the Itemization. Mr. Justice also
claimed that even if he had not been required to do
so by federal law, he would have given the sanction
to Mr. Thomas because Mr. Thomas needed the
money more than the law firm.

B. Hearing Panel’s Decision
At the conclusion of the proof, the Hearing
Panel took the matter under advisement and allowed
the parties to submit post-hearing proposed findings
of fact and conclusions of law. The Hearing Panel
issued its twenty-five-page written decision on
March 9, 2015. The Hearing Panel concluded that
Mr. Justice had violated RPC 1.5(a) (Fees); 8 RPC
3.3(a) (Candor Toward the Tribunal); 9 RPC 3.4(b)
8 “A lawyer shall not make an agreement for, charge, or collect
an unreasonable fee or an unreasonable amount for expenses.”
Tenn. Sup. Ct. R. 8, RPC 1.5(a).

“A lawyer shall not knowingly make a false statement of fact
or law to a tribunal . . . .” Tenn. Sup. Ct. R. 8, RPC 3.3(a)(1).

9

App. 25

(Fairness to Opposing Party and Counsel); 10 and
RPC 8.4(a) and (c) (Misconduct). 11 Although the
Board’s prehearing brief had listed ABA Standards
5.11 and 6.11, 12 both of which identify disbarment as
the applicable presumptive sanction, the Hearing
“A lawyer shall not . . . falsify evidence [or] counsel or assist a
witness to offer false or misleading testimony . . . .” Tenn. Sup.
Ct. R. 8, RPC 3.4(b).
10

11 “It is professional misconduct for a lawyer to (a) violate or
attempt to violate the Rules of Professional Conduct, knowingly
assist or induce another to do so, or do so through the acts of
another” or “(c) engage in conduct involving dishonesty, fraud,
deceit, or misrepresentation.” Tenn. Sup. Ct. R. 8, RPC 8.4(a),
(c).
12

ABA Standard 5.11 provides:
Disbarment is generally appropriate when:
a. a lawyer engages in serious
conduct a necessary element
incudes intentional interference
administration of justice, false
misrepresentation,
fraud,
misappropriation, or theft . . .

criminal
of which
with the
swearing,
extortion,

or
b. a lawyer engages in any other intentional
conduct involving dishonesty, fraud, deceit, or
misrepresentation that seriously adversely
reflects on the lawyer’s fitness to practice.
ABA Standard 6.11 provides:
Disbarment is generally appropriate when a lawyer,
with the intent to deceive the court, makes a false
statement, submits a false document, or improperly
withholds material information, and causes serious or
potentially serious injury to a party, or causes a
significant or potentially significant adverse effect on
the legal proceeding.

App. 26

Panel failed to reference any ABA Standard
establishing a presumptive sanction. Rather the
Hearing Panel discussed aggravating and mitigating
factors, found six aggravating and two mitigating
factors, and imposed a sanction of one-year active
suspension and twelve additional hours of ethics
continuing legal education. The Hearing Panel found
that:

(1)

Mr. Kerschberg’s invoices described
work he had done;

(2)

Mr. Justice’s testimony that he had
worked the time in the seventeen
matching entries was not credible, and
Mr. Justice’s explanations for why the
entries were nearly identical were
implausible;

(3)

Mr. Justice’s April 11, 2011 email to
Mr. Kerschberg was actually an
acknowledgment that Mr. Justice had
claimed time on the Itemization for
himself for work Mr. Kerschberg had
actually performed, and Mr. Justice’s
assertion that it merely advised of his
use of the Chamberlain principle was
implausible;

(4)

The credibility of Mr. Justice’s
testimony concerning his work was
“further called into question by his
demeanor on the witness stand”
because Hearing Panel questions were
“often met with lengthy periods of
silence prior to answering the
question” and Mr. Justice’s answers to

App. 27

Hearing Panel questions about the
Itemization were “often evasive;”

(5)

Regarding the seventeen nearly
identical entries, Mr. Justice knew he
was representing to the District Court
that he had performed work that
actually had been performed by
another;

(6)

By claiming to have performed work
performed by Mr. Kerschberg, Mr.
Justice gave a false statement under
oath;

(7)

Mr. Justice knowingly testified falsely
before the District Court by testifying
that he worked the time attributed to
him in the Itemization and by
testifying
that
he
kept
a
contemporaneous record of his time;

(8)

By claiming in the Itemization to have
performed work actually performed by
Mr. Kerschberg, Mr. Justice made a
false statement of fact to a tribunal in
violation of RPC 3.3(a)(1) (Candor
Toward the Tribunal);

(9)

By testifying falsely before the District
Court that he made no false
statements
in
the
Itemization,
personally worked the time attributed
to him, and kept a contemporaneous
record of his time, Mr. Justice made
false statements of fact to a tribunal in
violation of RPC 3.3(a)(1) (Candor
Toward the Tribunal);

App. 28

13

(10)

Numerous entries in the Itemization
were unrelated to locating and
deposing [the witness] and exceeded
the scope of the District Court’s order;

(11)

By including numerous items
exceeded the scope of the
Court’s order, the fee
requested an unreasonable
violation of RPC 1.5(a);

(12)

By adopting work as his own that was
actually performed by Mr. Kerschberg,
Mr. Justice falsified evidence in
violation of RPC 3.4(b) (Fairness to
Opposing Party and Counsel);

(13)

By violating the foregoing ethical rules,
Mr. Justice violated RPC 8.4(a) and (c)
(Misconduct);

(14)

The proof established the following
aggravating factors: (a) a dishonest or
selfish motive; (b) a pattern of
misconduct; (c) multiple offenses; (d)
submission of false evidence; (e) false
statements or other deceptive practices
during the disciplinary process; (f)
refusal to acknowledge wrongful
nature of conduct; and (g) substantial
experience in the practice of law;[ 13]

(15)

The proof established the following two
mitigating factors—(a) absence of a
prior disciplinary record and (b) the
imposition of other penalties or

See ABA Standard 9.22.

that far
District
petition
fee in

App. 29

sanctions (the six-month suspension
from the practice of law by the District
Court);[ 14]

(16)

The proper sanction, after weighing
aggravating and mitigating factors, is a
one-year active suspension and twelve
additional hours of continuing legal
education in ethics.

C. Trial Court Proceedings
Both Mr. Justice and the Board appealed
from the Hearing Panel’s decision. Mr. Justice raised
many issues, but the Board argued only that the
Hearing Panel erred by suspending rather than
disbarring Mr. Justice. The trial court affirmed the
Hearing Panel’s findings of fact but modified the
sanction to disbarment. In doing so, the trial court
emphasized that the Hearing Panel had failed to
begin its analysis with any ABA Standard that
identified the presumptive sanction for the factual
circumstances. The trial court determined that ABA
Standard 5.11(b), which identifies disbarment as the
presumptive
sanction,
applies
in
these
15
circumstances. After considering the aggravating
and mitigating factors, the trial court imposed the
presumptive sanction, finding no basis to impose a
lesser sanction. In explaining its decision in an order
filed February 2, 2017, the trial court stated:
This Court is reluctant to impose the
14

See ABA Standard 9.32.

The trial court concluded that ABA Standard 6.11 does not
apply in these circumstances, although it also identifies
disbarment as the presumptive sanction.
15

App. 30

sanction of disbarment upon a lawyer
with no prior disciplinary offenses. The
comments to ABA Standard 5.11 state
“in imposing final discipline in such
cases, most courts impose disbarment of
lawyers who are convicted of serious
felonies.” However, the intentional
deceit by [Mr.] Justice on the opposing
party, [and the federal judges], along
with the refusal to acknowledge the
wrongful nature of his conduct and the
total lack of remorse leaves this Court
with no alternative.
Mr. Justice then moved to alter or amend the
judgment, challenging, among other things, the trial
court’s modification of the sanction to disbarment. In
a fifteen-page order filed May 31, 2017, the trial
court addressed and rejected each of Mr. Justice’s
claims. With respect to the sanction, the trial court
stated:
Although the Court believed the
sanction of disbarment was justified in
this case, the Court acknowledges it was
reluctant to impose such a severe
sanction on Mr. Justice. However, any
lingering doubt as to the disbarment of
Mr. Justice has been obliterated by his
motion to alter or amend. [Mr.] Justice
blames everyone and everything for his
predicament, other than his own
misconduct.

II. Standard of Review
This Court recently reaffirmed the familiar

App. 31

standard of review that applies in lawyerdisciplinary appeals, stating:
The Tennessee Supreme Court is
the final arbiter of the professional
conduct of all lawyers practicing in
Tennessee, Sneed v. Bd. of Prof’l
Responsibility, 301 S.W.3d 603, 612
(Tenn. 2010), and the source of
authority of the Board and all its
functions, Long v. Bd. of Prof’l
Responsibility, 435 S.W.3d 174, 178
(Tenn. 2014) (citing Brown v. Bd. 0f
Prof’l Responsibility, 29 S.W.3d 445, 449
(Tenn. 2000)). Attorneys charged with
disciplinary violations have a right to an
evidentiary hearing before a hearing
panel, which determines whether a
violation has occurred and, if so, the
appropriate sanction for the violation.
Bd. of Prof’l Responsibility v. Daniel,
549 S.W.3d 90, 99 (Tenn. 2018) (citing
Maddux v. Bd. of Prof’l Responsibility,
409 S.W.3d 613, 621 (Tenn. 2013)).
Either party dissatisfied with the
hearing panel’s decision may appeal to
the circuit or chancery court, where
review is conducted upon “the transcript
of the evidence before the hearing panel
and its findings and judgment.” Tenn.
Sup. Ct. R. 9, § 1.3 (currently § 33.1(d)).
Either party dissatisfied with the trial
court’s decision may appeal directly to
this Court, which will resolve the appeal
based “upon the transcript of the record
from the circuit or chancery court,

App. 32

which shall include the transcript of
evidence before the hearing panel.” Id.
This Court applies the same standard of
review as the trial court, Daniel, 549
S.W.3d at 100, and determines whether
the hearing panel’s findings, inferences,
conclusions, or decisions are:
in
violation
of
constitutional or statutory
provisions; (2) in excess of
the panel’s jurisdiction; (3)
made
upon
unlawful
procedure; (4) arbitrary or
capricious or characterized
by abuse of discretion or
clearly
unwarranted
exercise of discretion; or (5)
unsupported by evidence
which is both substantial
and material in the light of
the entire record.

(1)

Id. § 1.3 (currently 33.1(b)). In
determining whether substantial and
material evidence supports a hearing
panel’s decision, this Court evaluates
whether the evidence “furnishes a
reasonably sound factual basis for the
decision being reviewed.” Sneed, 301
S.W.3d at 612 (quoting Threadgill v. Bd.
of Prof’l Responsibility, 299 S.W.3d 792,
807 (Tenn. 2009), overruled on other
grounds by Lockett v. Bd. of Prof’l
Responsibility, 380 S.W.3d 19, 27–28
(Tenn. 2012)); see also Sallee v. Bd. of

App. 33

Prof’l Responsibility, 469 S.W.3d 18, 36
(Tenn. 2015).
We review questions of law de
novo but do not substitute our judgment
for that of a hearing panel as to the
weight of the evidence on questions of
fact. Daniel, 549 S.W.3d at 100 (citing
Maddux, 409 S.W.3d at 622); see also
Tenn. Sup. Ct. R. 9, § 33.1(b) (2018)
(stating that in determining the
substantiality of evidence, the court
shall not substitute its judgment for
that of the hearing panel as to the
weight of the evidence on questions of
fact).
Finally, this Court’s review of
attorney
disciplinary
appeals
is
conducted in light of our inherent power
to promulgate and enforce disciplinary
rules and to ensure that these rules are
enforced in a manner that preserves
both the integrity of the bar and the
public trust in our system of justice. See
Hughes v. Bd. of Prof’l Responsibility,
259 S.W.3d 631, 647 (Tenn. 2008).
Green v. Bd. of Prof’l Responsibility of Supreme
Court of Tennessee, 567 S.W.3d 700, 712–13 (Tenn.
2019) (footnote omitted). With these principles in
mind, we evaluate Mr. Justice’s claims. 16
Mr. Justice lists seventeen issues in the appropriate section
of his brief but also advances many others in the argument
portion of his brief. We decline to separately address each issue
raised because many have not been properly preserved and

16

App. 34

III. Analysis
A. Rulings on the Admissibility of Evidence
Mr. Justice challenges the Hearing Panel’s
rulings on certain evidence. As the challenger, Mr.
Justice bears the burden of establishing that the
Hearing Panel abused its discretion. Bd. of Prof’l
Responsibility of Supreme Court of Tennessee v.
Sheppard, 556 S.W.3d 139, 146 (Tenn. 2018). A
hearing panel abuses its discretion by applying an
incorrect legal standard or reaching a decision that is
against logic or reasoning and which causes an
injustice to the party complaining. Id. Under this
deferential standard of review, if reasonable minds
can disagree about the propriety of a hearing panel’s
decision, this Court will uphold the ruling. Id.
Mr. Justice argues that the Hearing Panel
erred by excluding the written declaration of Yalkin
Demirkaya, the independent computer consultant he
engaged to search the law firm’s computers for the
Word document. Because the Board introduced
excerpts of Mr. Justice’s testimony from the District
Court hearing, Mr. Justice claims that the rule of
completeness embodied in Tennessee Rule of
Evidence 106 entitled him to introduce Mr.
Demirkaya’s written declaration, which was
admitted into evidence in the District Court hearing
by agreement of the parties. The Board argues that
Rule 106 does not entitle Mr. Justice to introduce a
others are too outlandish to dignify with discussion. For
example, at oral argument, Mr. Justice argued through counsel
that he should receive a new hearing because the trial judge’s
given name illustrates bias. Not only is this argument without
merit, it is absurd.

App. 35

writing prepared by another person. The Board is
correct.
Tennessee Rule of Evidence 106 provides:
When a writing or recorded statement
or part thereof is introduced by a party,
an adverse party may require the
introduction at that time of any other
part or any other writing or recorded
statement which ought in fairness to be
considered contemporaneously with it.
Tenn. R. Evid. 106. This evidentiary rule:
reflects a concern for fairness and is
designed to let the jury assess related
information at the same time rather
than piecemeal. This should help the
jury avoid being misled by hearing only
partial information about a writing or
recorded statement. Moreover, it will
assist the jury in assessing the weight
to be given to the written or recorded
statement by permitting the jury to
consider at the same time other
relevant writings and recordings.
Neil P. Cohen, Sarah Y. Sheppeard, and Donald F.
Paine, Tennessee Law of Evidence § 1.06[2][a] (6th
Ed. 2011 LexisNexis Matthew Bender) (footnotes
omitted). Applied in this case, Rule 106 means
that when the Board introduced excerpts of Mr.
Justice’s testimony in the District Court, then Mr.
Justice could have introduced any other parts of his
own testimony that “ought in fairness to be
considered contemporaneously with it.” Tenn. R.
Evid. 106; see also State v. Keough, 18 S.W.3d 175,

App. 36

182 (Tenn. 2000) (explaining how Rule 106 applies in
criminal cases). The Hearing Panel appropriately
allowed Mr. Justice to introduce other parts of his
District Court testimony. Rule 106 did not authorize
Mr. Justice to introduce the testimony or proof other
persons provided in the District Court. The Hearing
Panel thus did not abuse its discretion by excluding
Mr. Demirkaya’s written declaration.
Also without merit is Mr. Justice’s assertion
that the Hearing Panel erred by admitting Mr.
Kerschberg’s testimony by written deposition.
Tennessee Rule of Civil Procedure 32.01 provides:
At the trial or upon the hearing of a
motion or an interlocutory proceeding,
any part or all of a deposition, so far as
admissible under the Tennessee Rules
of Evidence applied as though the
witness were then present and
testifying, may be used against any
party who was present or represented
at the taking of the deposition or who
had reasonable notice thereof . . . .
Tenn. R. Civ. P. 32.01. Mr. Justice initiated Mr.
Kerschberg’s deposition and obviously had notice of
it. Additionally, the record belies his assertion that
the Hearing Panel and trial court improperly limited
his opportunity to impeach Mr. Kerschberg on
grounds of Mr. Kerschberg’s mental health. As the
trial court pointed out, Mr. Justice failed to proffer
redirect questions after he was served with the
Board’s cross-examination questions, and this was
the proper procedure for initiating redirect when a
witness is deposed upon written questions. See Tenn.
R. Civ. P. 31.01 (describing the procedure for

App. 37

depositions upon written questions and stating that
“[w]ithin 10 days after being served with cross
questions, a party may serve redirect questions upon
all other parties” and “[w]ithin 10 days after being
served with redirect questions, a party may serve
recross questions upon all other parties”). This issue
is without merit.

B. Interference with Decision to Testify
Mr. Justice argues that the Hearing Panel
deprived him of the ability to make an intelligent
choice about testifying when it delayed ruling on
whether it could draw an adverse inference from his
invocation of his constitutional privilege against selfincrimination in his prehearing deposition. This
argument, too, is without merit.
On the first day of the hearing, January 20,
2015, the Hearing Panel ruled that Akers v. Prime
Succession of Tennessee, Inc., 387 S.W.3d 495 (Tenn.
2012) applies to attorney-disciplinary proceedings.
Under Akers, “the trier of fact may draw a negative
inference from a party’s invocation of the Fifth
Amendment privilege in a civil case only when there
is independent evidence of the fact to which a party
refuses to answer by invoking his or her Fifth
Amendment privilege.” Id. at 506–07. The Hearing
Panel reserved its ruling on whether it would
actually draw an adverse inference based on Mr.
Justice’s invocation of the privilege at his prehearing
deposition until after the Board presented its proof
so that it could determine whether the requirements
of Akers had been satisfied.
As already noted, the Board did not call Mr.
Justice as a witness at the hearing, but it introduced

App. 38

excerpts of his former testimony in the District Court
and also the transcript of his deposition. Mr. Justice
also introduced excerpts of his former testimony in
the District Court. 17 When the Board closed its proof,
Mr. Justice moved for an involuntary dismissal,
arguing that the Board had failed to prove its case.
The Hearing Panel denied this motion. Mr. Justice
then asked for permission to delay the presentation
of his proof until the next day so that he would have
the opportunity to decide overnight, after
consultation with his attorney, whether to testify in
his own behalf. The Hearing Panel granted this
request. When the proceedings resumed the next
day, Mr. Justice chose to testify, although he
asserted before doing so that the Hearing Panel had
erred by ruling that Akers applies to lawyer
disciplinary proceedings. In its written ruling, the
Hearing Panel expressly declined to draw an adverse
inference against Mr. Justice for his invocation of the
right against self-incrimination and explicitly based
its decision on the evidence presented at the hearing.
The trial court affirmed the Hearing Panel’s decision.
As the foregoing recitation illustrates, the
Hearing Panel ruled before the hearing began on
whether it could draw an adverse inference from Mr.
Justice’s prehearing invocation of his privilege
against self-incrimination. After the Board presented
its proof, the Hearing Panel allowed Mr. Justice
another evening to consult with his attorney and
For reasons not clear from the record, Disciplinary Counsel
apparently agreed not to argue that Mr. Justice had implicitly
waived his right to invoke the privilege against selfincrimination in the disciplinary proceeding by testifying in the
District Court.
17

App. 39

decide whether he would testify. The Hearing Panel
did not interfere with or hinder Mr. Justice from
intelligently deciding whether to testify. 18

C. Procedural Challenges
1. Questioning by the Hearing Panel
Mr. Justice argues that the Chair of the
Hearing Panel erred by extensively questioning him
and Mr. Rickman. We disagree. As this Court has
stated in another attorney-disciplinary proceeding
where the hearing panel chair questioned the
attorney: “The Tennessee Rules of Evidence apply to
attorney disciplinary proceedings, Tenn. Sup.Ct. R.
9, § 23.3, and Tennessee Rule of Evidence 614 allows
the Panel to interrogate witnesses.” Bd. of Prof’l
Responsibility v. Reguli, 489 S.W.3d 408, 419 (Tenn.
18 Because the Hearing Panel expressly declined to draw an
adverse inference from Mr. Justice’s prehearing invocation of
his privilege against self-incrimination, we need not address
Mr. Justice’s assertion that the Hearing Panel erred by ruling
that an adverse inference may be drawn from an attorney’s
invocation of the privilege in a lawyer-disciplinary proceeding.
See People v. Robnett, 859 P.2d 872, 875 (Colo. 1993) (“We need
not resolve the question whether the fact finder in an attorney

disciplinary proceeding may draw a negative inference from an
attorney-respondent’s invocation of the Fifth Amendment
privilege against self-incrimination, however, because there is
no indication that the hearing board below drew any such
inference.”). We reserve decision on this issue of first
impression for another day. We note that courts in Georgia,
New York, and Wisconsin have allowed an adverse inference to
be drawn in such circumstances in attorney-disciplinary cases.
See In re Meier, 334 S.E.2d 212, 213 (Ga. 1986); In re Snyder,
897 N.Y.S.2d 398, 399–400 (N.Y. App. Div. 2010); In re
Muraskin, 731 N.Y.S 2d 458 (N.Y. App. Div. 2001); State v.
Postorino, 193 N.W.2d 1, 3 (Wis. 1972).

App. 40

2015).

2. Insufficient Findings and Conclusions
Mr. Justice argues that the Hearing Panel
and the trial court failed to make sufficient written
findings of fact and conclusions of law. We disagree.
Both the Hearing Panel and the trial court rendered
thorough written decisions setting out facts and
conclusions. Adjudicators are not required to address
every issue that lacks merit. See Hodge v. Provident
Life & Accident. Ins. Co., 664 S.W.2d 297, 300 (Tenn.
Ct. App. 1983) (stating that a trial court need not
“treat separately each fact or question at issue so
long as [its] findings as a whole cover all relevant
facts necessary to a determination of the case”);
Adkins v. Bluegrass Estates, Inc., 360 S.W.3d 404,
415 (Tenn. Ct. App. 2011) (same).

3. Insufficient Fraud Allegation
We also reject Mr. Justice’s argument that
the Board failed to plead fraud with sufficient
specificity. The Board’s petition for discipline clearly
states which Rules of Professional Conduct Mr.
Justice allegedly violated and the facts alleged to
constitute the violations. Mr. Justice filed a response
to the petition, but after doing so he moved to
dismiss the petition and in the alternative requested
a more definite statement, citing Tennessee Rule of
Civil Procedure 12.05. 19 Because he had filed a
Tennessee Rule of Civil Procedure 12.05 provides that “[i]f a
pleading to which a responsive pleading is permitted is so vague
or ambiguous that a party cannot reasonably be required to
frame a responsive pleading, the party may move for a more
definite statement before interposing a responsive pleading.”
Tenn. R. Civ. P. 12.05.
19

App. 41

response, Rule 12.05 technically did not apply, but
the Hearing Panel nonetheless granted his motion in
part and required the Board to identify the
Itemization entries that it alleged were false. The
Board then identified the seventeen entries, quoted
herein, that it alleged were copied from Mr.
Kerschberg’s invoices. Thus, contrary to Mr. Justice’s
assertions, the Board provided him with very specific
notice of the allegations of fraud and the claims
against him. This issue is without merit.

4. Service of Process
Mr. Justice next argues that: (i) the Hearing
Panel’s decision was not properly served on him; (ii)
he was not properly served with the Board’s petition
for writ of certiorari; and (iii) the summons with
which he was served was defective.
Mr. Justice’s claim that he was not properly
served with the Hearing Panel’s decision is without
merit. Tennessee Supreme Court Rule 9, section 8.3
provides that “[t]he Board shall immediately serve a
copy of the findings and judgment of the hearing
panel upon the respondent and the respondent’s
counsel of record.” Tennessee Supreme Court Rule 9,
section 12.2 provides that “[s]ervice of any other
papers or notices required by these Rules shall,
unless otherwise provided by these Rules, be made in
accordance with Rule 5.02, Tennessee Rules of Civil
Procedure.” Tennessee Rule of Civil Procedure 5.02
says, in relevant part, that, “[w]henever . . . service is
required . . . to be made on a party represented by an
attorney, the service shall be made upon the attorney
unless service upon the party is ordered by the
court.” (Emphasis added.) Here, the Board served
Mr. Justice by mailing a copy of the Hearing Panel’s

App. 42

judgment to him in the care of his attorney on March
9, 2015. The Board therefore complied fully with the
requirements of Tennessee Supreme Court Rule 9,
sections 8.3 and 12.2 when it served Mr. Justice’s
attorney with a copy of the Hearing Panel’s
judgment.
Mr. Justice’s claim that he was not properly
served with the Board’s petition for writ of certiorari
also is without merit. The petition was mailed to the
Clerk and Master of the Chancery Court for Knox
County on April 9, 2015, and filed on April 13, 2015.
Before mailing the petition, the Board contacted Mr.
Justice’s attorney to inquire whether he would accept
service on Mr. Justice’s behalf. Mr. Justice’s attorney
responded on April 28, 2015, that he would not
accept service. The Board then wrote the Clerk and
Master requesting issuance of a summons for service
on Mr. Justice. This summons was issued on April
30, 2015, only seventeen days after the filing of the
Board’s petition for writ of certiorari. This summons
was served on May 5, 2015, but because someone
other than Mr. Justice had actually signed the
summons, the Board requested issuance of an alias
summons. This alias summons was personally served
on Mr. Justice by a private process server on July 23,
2015. This chronology refutes Mr. Justice’s claim
that the Board intentionally delayed issuance of the
summons and failed to properly serve him with the
petition for writ of certiorari.
Mr. Justice’s next claims that, because the
alias summons incorrectly listed $4,000 as the
personal exemption, the Board’s petition should be
dismissed. In Sneed v. Board of Professional
Responsibility, 301 S.W.3d 603, 613 (Tenn. 2010),

App. 43

this Court held that “[u]nder Tennessee Supreme
Court Rule 9, section 1.3, the purported unlawful
procedure must have resulted in prejudice to the
petitioner.” Here, as in Sneed, no prejudice has been
shown, so dismissal is not appropriate. 20

D. Substantial and Material Evidence
Mr. Justice asserts that the Hearing Panel’s
decision is not supported by substantial and material
evidence. In determining whether substantial and
material evidence supports the Hearing Panel’s
decision, this Court “take[s] into account whatever in
the record fairly detracts” from the weight of the
evidence, but this Court does “not substitute its
judgment for that of the [Hearing Panel] as to the
weight of the evidence on questions of fact.” Tenn.
Sup. Ct. R. 9, § 1.3. Mr. Justice argues that the
evidence against him was entirely circumstantial,
and as a result, does not rise to the level of
substantial and material evidence. He asserts that
circumstantial evidence has less probative value
As he did in the trial court, in his brief to this Court, Mr.
Justice insinuates that he has been targeted by the Board, the
Hearing Panel, and the trial court for reasons outside this
record. As an example, Mr. Justice claims that the trial judge
and the attorney for the Board engaged in inappropriate ex
parte communication during a chance encounter in a hotel lobby
at approximately 8:45 a.m. on the morning of the hearing before
the trial judge. The record belies this claim and establishes that
the trial judge and the Board’s lawyer discussed only a
scheduling matter, in particular, the time the hearing would
begin. The Board’s lawyer promptly notified Mr. Justice and his
attorney of this chance meeting and conversation and in their
presence texted the trial judge the start time of the hearing.
The trial court and the Board’s conversation about scheduling
did not constitute inappropriate ex parte communication. See
Tenn. Sup. Ct. R. 10, RJC 2.9(A)(1).
20

App. 44

than direct evidence. Despite Mr. Justice’s
protestations to the contrary, in evaluating the
evidence, we do not differentiate between direct and
circumstantial evidence. Tennessee law draws no
distinction between the probative value of direct and
circumstantial evidence. See State v. Dorantes, 331
S.W.3d 370, 381 (Tenn. 2011) (stating that a criminal
conviction may be based solely on circumstantial
evidence and that the prosecution need not disprove
alternative theories of guilt when relying on
circumstantial evidence alone); Hindman v. Doe, 241
S.W.3d 464, 468 (Tenn. Ct. App. 2007) (stating that
“the law does not distinguish between the probative
value of direct evidence and the probative value of
circumstantial evidence”). This Court determines
whether the evidence “furnishes a reasonably sound
factual basis for the decision being reviewed.” City of
Memphis v. Civil Serv. Comm’n of Memphis, 216
S.W.3d 311, 317 (Tenn. 2007) (quoting Jackson
Mobilphone Co., Inc. v. Tenn. Pub. Serv. Comm’n,
876 S.W.2d 106, 111 (Tenn. Ct. App. 1993)). We
conclude, based on our review of the record on
appeal, that the evidence, as already recounted
herein, furnishes an eminently sound factual basis
for the Hearing Panel’s decision. 21
21 The questions Mr. Justice has continued to raise in his brief
about the completeness and accuracy of the record on appeal
are without merit. This Court remanded the matter to the trial
court in accordance with Tennessee Rule of Appellate Procedure
24(e), which provides that “[a]ny differences regarding whether
the record accurately discloses what occurred in the trial court
shall be submitted to and settled by the trial court regardless of
whether the record has been transmitted to the appellate
court.” The trial court held a hearing and acknowledged that he
had shredded the record, believing it to be a courtesy copy. The
trial court reviewed the replacement copy that was provided,

App. 45

The proof in the record on appeal establishes
that the Itemization included seventeen entries
purporting to describe Mr. Justice’s work on the
Thomas case that were either identical or nearly
identical to entries on Mr. Kerschberg’s invoices that
described Mr. Kerschberg’s work on the Thomas
case. In his preliminary itemization, Mr. Justice
referred to himself in the third person, which the
Board asserted illustrated that he had copied Mr.
Kerschberg’s invoices. Mr. Kerschberg testified that
the invoices described his work on the Thomas case,
not Mr. Justice’s work, and that, to his knowledge,
Mr. Justice “did not ever document his work on the
Thomas case or any other case.” The record
establishes that Mr. Justice paid Mr. Kerschberg for
the time claimed on the invoices without question
more than a year before he submitted the
Itemization. The record contains Mr. Justice’s April
11, 2011 email stating that Mr. Justice had billed a
lot of time for “reading” Mr. Kerschberg’s work. Yet,
the Itemization did not include any entry for Mr.
Justice “reading” Mr. Kerschberg’s work. Mr. Justice
testified that this email was simply a reference to the
Chamberlain principle that allowed him to charge
the higher attorney rate for work that both he and
Mr. Kerschberg’s performed, but the problem with
this claim is twofold. The email does not mention
Chamberlain, and Chamberlain actually does not
support that proposition. Chamberlain, 1995 WL
resolved the disputes concerning its accuracy and authenticity,
certified the record for appeal, and denied Mr. Justice’s
subsequent attempts to raise new issues. “Absent extraordinary
circumstances, the determination of the trial court is
conclusive.” Tenn. R. App. P. 24(e). Mr. Justice has failed to
establish extraordinary circumstances.

App. 46

769782, at *9. Indeed, the Chamberlain opinion
commends the “judicious” use of paralegals and other
such resources as a way to “lower overall fees.” Id.
Other decisions citing Chamberlain also do not
interpret the opinion as Mr. Justice does. One of
those opinions actually makes the opposite point by
stating that, when an attorney does a paralegal’s
work, his fee should be reduced to a paralegal’s rate
because the work is nonlegal in nature. J.H. v. Bd. of
Educ. of Pikeland Coummunity [sic] Unit Sch. Dist.
#10, No. 13-CV-3388, 2014 WL 1716564, at *3 (C.D.
Ill. May 1, 2014). 22 Thus, the record supports the
Hearing Panel’s interpretation of the email as a
confirmation that Mr. Justice claimed Mr.
Kerschberg’s work as his own. The Hearing Panel
found that Mr. Justice gave only implausible
explanations for why the Itemization entries were
identical or nearly identical to Mr. Kerschberg’s
invoice entries. The Hearing Panel did not believe
Mr. Justice’s testimony that he had performed the
same administrative tasks, on the same date, and for
the same amount of time as work Mr. Kerschberg
had done and been compensated for more than a year
before the Itemization was submitted. This Court
does not second-guess the Hearing Panel’s credibility
findings.
Furthermore, no other proof in the record on
appeal casts doubt on the Hearing Panel’s credibility
Nor is Chamberlain a landmark case as Mr. Justice has
implied. Chamberlain is an unreported federal district court
decision from the Seventh Circuit applying Illinois law, and
according to Westlaw, it has only been cited in twenty-five
cases: twenty-three times by Illinois federal courts, once by a
Minnesota federal court, and once by the Tennessee federal
court ordering Mr. Justice’s suspension.
22

App. 47

findings. For example, even though Mr. Justice
testified that neither he nor anyone else at the law
firm ordinarily records time, he failed to keep a
single document showing that he had in this one
unusual circumstance contemporaneously recorded
his time on the Thomas case. Although Mr. Rickman
produced an email by which he had reported his
time, this email was dated after the District Court’s
order awarding the sanction. Nor could Mr. Justice
locate a version of the Word document containing all
the time records that predated the District Court’s
order awarding the sanction. He also could not recall
the name of the Word document.
Mr. Justice asserts that the Hearing Panel’s
decision lacks substantial and material evidentiary
support because Mr. Kerschberg recanted his
original allegations of misconduct. This assertion is
simply
incorrect.
While
Mr.
Kerschberg
acknowledged occasionally using Mr. Justice’s
handwritten comments to create some of the
narratives for his invoices, he unequivocally and
consistently testified that these narrative entries
described his own work not Mr. Justice’s. Mr.
Kerschberg recognized the possibility that Mr.
Justice could have done work similar to his own on
the Thomas case without Mr. Kerschber’s knowledge,
but Mr. Kerschberg reiterated that, “When I created
these invoices, however, I was documenting only my
own work. As far as I know, Loring Justice did not
ever document his work on the Thomas case, or any
other case.” (Emphasis added).
We also disagree with Mr. Justice’s assertion
that the Hearing Panel and the trial court ignored
and “manipulated” his testimony and that of Mr.

App. 48

Rickman. The Hearing Panel considered the
testimony in context and noted that Mr. Rickman
had not worked for the law firm when Mr.
Kerschberg worked there; did not know what Mr.
Justice did or did not do before he began working at
the law firm; did not compare the Itemization to Mr.
Kerschberg’s invoices; and did not see the Word
document until after the District Court awarded the
discovery sanction. The record fully supports the
Hearing Panel’s findings and the trial court’s
conclusion that Mr. Rickman “was in no position to
determine the accuracy of [Mr.] Justice’s entries.”
The Hearing Panel considered but rejected
Mr. Rickman’s and Mr. Justice’s broad interpretation
of the District Court’s order, concluding that it was
inconsistent with the clear text of the order. The
Hearing Panel also considered but rejected Mr.
Justice’s and Mr. Rickman’s testimony that they
intended to give the attorney’s fees to Mr. Thomas
and described this testimony as “unbelievable” and
as “post-conduct rationale.” The Hearing Panel and
the trial court neither ignored nor manipulated Mr.
Rickman’s and Mr. Justice’s testimony.
Mr. Justice argues that the Hearing Panel’s
decision that he violated RPC 1.5(a), which provides
that “[a] lawyer shall not make an agreement for,
charge, or collect an unreasonable fee or an
unreasonable amount for expenses” is not supported
by substantial and material evidence. Specifically,
Mr. Justice asserts that he did not charge an
unreasonable fee because the sanction would have
been paid to his client not the firm and because he
never received any fee after the proceedings began in
the District Court. The Hearing Panel disbelieved

App. 49

Mr. Justice’s testimony that any fee collected would
have been given to Mr. Thomas. As already noted,
this Court does not second-guess the Hearing Panel’s
credibility determinations.
Additionally, we note that courts in other
states have held that a lawyer may “charge” an
unreasonable fee without actually collecting it. For
example, in Iowa Supreme Court Board of
Professional Ethics & Conduct v. Hoffman, 572
N.W.2d 904, 907 (Iowa 1997), the Iowa Supreme
Court considered whether a lawyer had violated an
ethical rule that prohibited lawyers “from entering
into an agreement for, charging, or collecting an
illegal or clearly excessive fee.” The lawyer in
Hoffman argued that his actions in filing the fee
application with an Iowa administrative worker’s
compensation judge did not violate the disciplinary
rule “because he never actually received the amount
requested.” Id. The Iowa Supreme Court rejected this
argument, stating that the lawyer’s actions in
seeking the fee “fit within the legal definition of
charge: ‘to create a claim against property; to assess;
to demand.’” Id. at 908 (quoting Black’s Law
Dictionary 232 (6th ed.1990)); see also Comm. on
Prof’l Ethics & Conduct v. Zimmerman, 465 N.W.2d
288, 291–92 (Iowa 1991) (stating that a lawyer’s
application for excessive and duplicative fees violated
a disciplinary rule prohibiting lawyers from charging
an excessive fee).
Having carefully and fully considered the
record on appeal, we conclude that ample substantial
and material evidence supports the Hearing Panel’s
findings of fact, which the trial court adopted.

E. Appropriateness of the Sanction

App. 50

To assess the appropriateness of the
disciplinary sanction in a given case, this Court
begins with the ABA Standards. See Tenn. Sup. Ct.
R. 9, § 8.4 (currently § 15.4); Daniel, 549 S.W.3d at
100. The ABA Standards are “guideposts” rather
than rigid rules for determining appropriate and
consistent sanctions for attorney misconduct. Id.
(quoting Maddux III, 409 S.W.3d at 624).
[T]he standards are not designed
to propose a specific sanction for each
of the myriad of fact patterns in cases
of lawyer misconduct. Rather, the
standards
provide
a
theoretical
framework to guide the courts in
imposing sanctions. The ultimate
sanction imposed will depend on the
presence of any aggravating or
mitigating factors in that particular
situation. The standards thus . . . are
guidelines which give courts the
flexibility to select the appropriate
sanction in each particular case of
lawyer misconduct.
ABA Standards, Theoretical Framework. The
presumptive sanction in each case may be identified
by considering:
(1) the ethical duty the lawyer
violated—whether to a client, the
public, the legal system, or duties as a
professional; (2) the lawyer’s mental
state; and (3) the extent of the actual
or potential injury caused by the
lawyer’s misconduct.” Next, any
aggravating
or
mitigating

App. 51

circumstances must be considered in
determining whether to increase or
decrease the presumptive sanction in a
particular case.
Daniel, 549 S.W.2d at 100 (citations omitted).
As already noted, the Hearing Panel failed to
consider the ABA Standards identifying the
presumptive sanction. The trial court concluded ABA
Standard 5.11(b) applies in these circumstances, and
it provides:
Disbarment is generally appropriate
when . . . a lawyer engages in any other
intentional
conduct
involving
dishonesty,
fraud,
deceit,
or
misrepresentation
that
seriously
adversely reflects on the lawyer’s
fitness to practice.
In light of the Hearing Panel’s findings that Mr.
Justice gave a false statement under oath, knowingly
testified falsely in the District Court, and sought an
unreasonable fee in the Itemization, we conclude
that the trial court correctly identified ABA Standard
5.11(b) as establishing the presumptive sanction. The
trial court also correctly concluded that the
substantial and material evidence supports the
Hearing Panel’s findings of the six aggravating
factors—a dishonest or selfish motive, a pattern of
misconduct, multiple offenses, submission of false
evidence, false statements during the disciplinary
process, refusal to acknowledge wrongful nature of
conduct, and substantial experience in the practice of
law—and the two mitigating factors of the District
Court’s prior six-month suspension for the same

App. 52

conduct and Mr. Justice’s lack of a prior disciplinary
record.
Mr. Justice asserts that the trial court also
should have considered as a mitigating factor the
delay in this matter, pointing out that the alleged
misconduct occurred in 2011 and the hearing was not
held until 2015. While this argument is appealing in
theory, in fact it is not persuasive because most of
this delay is attributable to Mr. Justice’s request that
the Board hold its investigation in abeyance pending
the disposition of the federal proceedings. So, we
cannot say that the Hearing Panel and the trial court
erred by declining to consider delay as a mitigating
factor.
We also disagree with Mr. Justice that his
good record and lack of ethical violations in the
ensuing years should be viewed as mitigating factors.
Lawyers are professionally obligated to comply with
the Rules of Professional Conduct, and compliance is
the norm and expectation. It does not mitigate a
lawyer’s previous failure to fulfill his professional
obligation.
Mr. Justice also asserts that the Hearing
Panel did not err by imposing a sanction less severe
than the presumptive sanction of disbarment
because in Daniel, this Court changed “controlling
legal authority” and held that it is not error for a
hearing panel to consider sanctions less than the
presumptive sanction. 549 S.W.3d at 102. Although
Mr. Justice is correct as to the holding of Daniel, his
characterization of the decision as a change in
controlling legal authority is not correct. Daniel
simply applied prior decisions of this Court that had
described the ABA Standards as “‘guideposts.’”

App. 53

Daniel, 549 S.W.3d at 100 (quoting Maddux III, 409
S.W.3d at 624). More importantly, Daniel is factually
distinct from this case. Here, the Hearing Panel did
not consider and reject the presumptive sanction of
disbarment. It simply failed to consider any ABA
Standard identifying presumptive sanctions.
We agree with the Board that the trial court’s
modification of the sanction was appropriate,
considering the Hearing Panel’s lack of analysis of
the presumptive sanction under the ABA Standards,
the imbalance of aggravating and mitigating factors,
and the nature of Mr. Justice’s misconduct, which
evidenced his utter disregard for the fundamental
obligation of lawyers to be truthful and honest
officers of the court. Culp v. Bd. of Prof’l
Responsibility, 407 S.W.3d 201, 211 (Tenn. 2013)
(denying reinstatement to an attorney convicted of
extortion and stating that the attorney had engaged
in “egregious conduct,” conduct striking “at the heart
of our system of justice” and “threatening the very
core of a legal system based on probity and honor”);
Murphy v. Bd. of Prof’l Responsibility, 924 S.W.2d
643, 647 (Tenn. 1996) (finding that the conduct of
lying to a grand jury and trying to convince another
witness to lie to the grand jury “strikes at the very
heart and soul of the judicial system and without
question would have a detrimental impact on the
integrity and standing of the bar, the administration
of justice and the public interest”). Recognizing that
the sanction of disbarment is not to be imposed
lightly, the trial court conscientiously and carefully
analyzed the issues and ultimately concluded, as do
we, that Mr. Justice’s conduct in claiming Mr.
Kerschberg’s work as his own, in submitting the false
Itemization and written declaration, and in testifying

App. 54

falsely in the District Court strikes at the very heart
of the legal profession and merits the presumptive
sanction of disbarment.
Mr. Justice argues that Napolitano v. Bd. of
Prof’l Responsibility, 535 S.W.3d 481 (Tenn. 2017)
illustrates that disbarment is too harsh a
punishment here. In Napolitano, the hearing panel
found that the attorney had committed trust account
violations and lied under oath when answering
discovery deposition questions in a lawsuit over a fee
dispute with a client. Id. at 503. The hearing panel
suspended the attorney for five years but ordered
only one year of active suspension. Id. at 494. This
case bears some factual resemblance to Napolitano,
but it is distinct in at least two important respects.
First, this Court found that the record in Napolitano
did not support a finding that the attorney gave false
testimony “with the intent to deceive a court.” Id. at
503. Additionally, unlike Mr. Justice, Mr. Napolitano
called a number of lawyers and judges to testify to
his good professional and personal character. Id. at
487–89. Each attorney disciplinary appeal is
evaluated “in light of its particular facts and
circumstances.” Maddux, 148 S.W.3d at 40.
In another recent case factually similar to this
one, Board of Prof’l Responsibility v. Barry, 545
S.W.3d 408 (Tenn. 2018), this Court upheld the trial
court’s modification of the sanction to disbarment. In
Barry, the hearing panel imposed an eighteen-month
suspension, with sixty days active suspension. Id. at
411–412. The trial court modified the sanction to
disbarment, and this Court affirmed. Id. at 412 In
Barry, as here, the hearing panel had failed to
consider the ABA Standards regarding presumptive

App. 55

sanctions. Id. at 420. In Barry, as here, the hearing
panel found that the attorney’s misconduct was
“knowing.” Id. at 425. The trial court’s decision
modifying the sanction in this case from suspension
to disbarment is consistent with Barry. See also
Hornbeck v. Bd. of Prof’l Responsibility, 545 S.W.3d
386, 387 (Tenn. 2018) (disbarring an attorney based
upon multiple acts of professional misconduct,
“including knowing conversion of client funds with
substantial injury to clients, submitting false
testimony, falsifying documents in court proceedings,
engaging in the unauthorized practice of law,
violating Supreme Court orders, and defrauding
clients”).

IV. Conclusion
For the reasons stated herein, we affirm the
judgment of the trial court in all respects, including
its modification of the sanction from suspension to
disbarment. Costs of this appeal are taxed to Loring
Edwin Justice for which execution may issue if
necessary.

CORNELIA A. CLARK, JUSTICE

App. 56

_______________
APPENDIX B
___________________
IN THE CHANCERY COURT FOR KNOX
COUNTY TENNESSEE
BOARD OF
PROFESSIONAL
RESPONSIBILITY
Plaintiff,
v.
LORING E.
JUSTICE
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Docket No.
184818-3

Issued: May 31, 2017
FINAL ORDER
This cause came on to be heard on the 10th
day of May, 2017, before Robert E. Lee Davies,
Senior Judge, upon Loring Justice's Motion to
Alter or Amend pursuant to Rule 59 of the Tenn.
R. Civ. P., the Board's Response, and Justice's
Reply thereto. After argument of counsel, and
consideration of the entire record herein, the
Court hereby finds as follows:
Request for Alternative Findings of Fact
Justice complains the Court did not include
certain findings of fact which he believes exonerate

App. 57

him. He contends the Court should have
emphasized Lowes' conduct in the Federal case;
that Justice kept his own time records; that
Kerschberg was also a computer expert and
therefore could have altered or deleted Justice's
time records; that Kerschberg had an agenda; that
there was no fraudulent intent on behalf of Justice;
that exhibits 44 through 51 support Justice's
contention that he performed the work for some of
the seventeen entries; that Justice deleted
Kerschberg's entries; that the one-sided phone call
between Justice and Kerschberg, testified to by
Rickman, shows Kerschberg was untruthful; that
Ms. Vaughn's time records (exhibit 17) support
Justice's contention that he kept contemporaneous
time records; and that the Panel distorted Justice's
testimony regarding the scope of the discovery
sanction order from Judge Phillips.
These
complaints
indicate
a
misunderstanding of the standard of review
applied by this Court to a decision of a Hearing
Panel. The Trial Court may not substitute its
judgment for the findings of fact by the Hearing
Panel regarding the weight of the evidence. Bd.
of Profl. Responsibility v. Allison, 284 S.W.3d
316, 323 (Tenn. 2009). The Hearing Panel
specifically found that "Justice testified that on
the seventeen time entries at issue, he personally
worked the time reflected in those entries and be
did the work reflected in those time entries." The
Hearing Panel then found "with respect to each
of the seventeen entries, Justice claimed he
worked the amount of time reflected on the fee
petition or more. The Panel finds his testimony
in this regard is not credible." The Panel then

App. 58

went on to articulate facts from the record that
supported its conclusion that Justice did not tell
the truth regarding these seventeen entries. The
Panel found that Justice could not provide any
definitive explanation as to why those seventeen
entries attributed to him were identical (or
nearly identical) to the entries on Kerschberg's
time records. Although Justice contended he and
Kerschberg were performing the same work at
the same time, including clerical tasks such as
making copies, the Panel found this explanation
not to be plausible. Although Justice emphasizes
that Rick.man's testimony exonerates him, the
Panel specifically found it was impossible for
Rickman to determine the accuracy of Justice's
entries since Rickman was not working at Loring
Justice, PLLC in 2009 when these records were
allegedly created, and as the Panel determined
there was not a single independent record of
Justice's time available at the time the fee
petition was drafted. The Panel found with
respect to the seventeen entries at issue, that
Justice knew he was representing to the Federal
Court that he had performed work that was in
fact performed in whole or in part by other
individuals and that he did not perform the work
or did not work the time that was set forth on
the fee petition; that he attributed work to himself
that had actually been performed by Kerschberg
resulting in a much higher compensation rate; and
that the statements made to the Federal Court were
false and that Justice knew they were false. A
comparison
of Justice's time records to
Kerschberg's time records is set forth below:

6/13/09 -Revision of Motion to have
request for
admission deemed admitted. 1.2 hrs.
6/14/09 -Edits to motion to deem
request for admissions admitted. Added
section about letter to Clint Woodfin
and Motion to Supplement.
Researched electronic filing rules
for the E.D. Tenn. 2.2 hrs.

Justice Time Sheet

6/14/09- Added Loring edits to motion
to deem request for admissions
admitted. Added section about letter to
Clint Woodfin and motion to
supplement. Researched electronic
filing rules for the ED Tenn.
Researched proper procedure for filing
amended complaint (local rules;
scheduling
order; FRCP). 2.25 hrs.

6/13/09 - Revision of Motion to Have
Request for Admission Deemed
Admitted. 1.25 hrs.

Kerschberg Time Sheet

App. 59

6/17/09 - Continued to research, revise
and rewrite Motion to Compel
Discovery. 4.0 hrs.

6/16/09 - All final preparations of
Amended Complaint and Motion to
Deem
Requests
For
Admissions
Deemed Admitted. Preparation of all
PDF exhibits. Compilation of files.
Filing with
E.D. Tenn via ECF. Hard copies of
everything for
file. 2.5 hrs.
6/17/09 - Talked to Angela Brush at
district court to correct
misunderstandings re our filings. 1.0
hr.
6/17/09 - Talked to Angela Brush at
district
court
to
correct
misunderstandings re our filings.
Second conversation with LJ about
Consent Motion to Amend with Clint
Woodfin. Drafted Consent
Motion for review by Clint Woodfin. 1.0
hr
6/17/09 - Continued to revise and
rewrite Motion
to Compel Discove ry. 4.0 hrs.

6/16/09 - All final preparations of
Amended Complaint and Motion to
Deem Request for Admissions Deemed
Admitted. Preparation of all PDF
exhibits. Compilation of files. Filing
with
ED Teno via ECF. Hard copies of
everything for file. 2.5 hrs.
App. 60

6/18/09 - Continued
research,
revision
and refinement of
Motion to Compel Discovery. 4.5
hrs.
6/19/09 - Letter to Bob Davies
regarding additional
materials needed from MSG about the
project. .5 hrs.
7/16/09 - Reviewed notes from meeting
with Clint
Woodfin and calendared follow-up call
to Corey Kitchen re: Clint's call. .2
hrs.
7/16/09 - Reviewed Loring's notes from
meeting with Clint Woodfin and
calendared follow-up call
to Cory re: Clint's call. .25 hrs.

6/19/09 - Letter to Bob Davis regarding
additional material needed from MSG. .5
hrs

6/18/09 - Motion to Compel Discovery.
4.5 hrs.

App. 61

7/22/09 - Drafted and typed memo for
trip to Florence, Alabama to meet with
Plaintiff's MSG co-workers. This memo
summarized the liability issues in the
case and listed important questions to
ask to try to understand whether it was
plausible Lowe's could lack notice and to
prove Lowe's indeed had notice and to
gain physical descriptions
of individuals of interest. 5.0 hrs.
7/27/09 - Reviewed all notes from our
trip to Alabama to meet with the MSG
witnesses and compiled Master To-Do
List. Drafted affidavits of Kitchen,
Yeates, and McBride . Online research
re:
Teresa Beavers (Lowe's Manager). 4.5
hrs.
7/27/09 - Reviewed all notes from our
trip to Alabama and compiled Master
To-Do List for Loring and BG. Drafted
Affidavits of Kitchen, Yeates, and
McBride. Online research re: Teresa
Beavers (Lowe's Manager). 4.5 hrs.

7/22/09 - Drafted and typed memo for
trip to Alabama. 5.0 hrs.

App. 62

8/10/09 - Coordination of all affidavits
signings, etc. with Debi Dean. .5 hrs.

8/8/09 - Coordinated with Debi Dean of
Alabama Head Injury Foundation to
make sure that Randy, Bradley, and
Corey will sign affidavits and get them
back to us notarized. Reviewed legal
assistant ' s research of FRCP and
EDTN Rules re: timelines of Notice of
Filing with respect to Hearing Date.
Drafted Notice of Filing. Drafted
Memorandum to accompany Notice of
Filing with the court this week. 3.0 hrs.

7/29/09 - Revisions of affidavits of
Kitchen, Yeates, and McBride. .2 hrs.
7/29/09 - Revisions of Affidavits of
Kitchen, Yeates, and McBride. .25
hrs.
8/8/09 - Coordinated with Debi Dean to
make sure that Randy, Bradley, and
Corey will sign Affidavits and get them
back to us not arized. Prepared final
versions with LJ edits. Two versions for
Bradley and Cory one with and one
without Teresa Beavers. Researched
FRCP and EDTN Rules RE: timelines
of Notice of Filing with respect to Hearing
Date. Drafted Notice of Filing. Drafted
Memorandum to
accompany Notice of Filings for filing
with the court this week. 4.0 hrs.
8/10/09 - Coordination of all Affidavit
signings, etc. with Debi Dean. .5 hrs.

App. 63

8/27/09 - Reviewed file and all FRCP
related to discovery to look at options
and obligations for supplementation
before September 14 hearing, as well as
the possibility of fee shifting and
sanctions.
5.0 hrs.
8/31/09 - Prepared outline as to action
plan before September 14 hearing.
Researched
Lowe's
Loss/Safety
Prevention Manager. Drafted proposed
interrogatory re: information on who
held that position at the time of the
accident. Revised and prepared cover
letters to Clint Woodfin. 1.2
hrs.
8/31/09 - Prepared outline for Loring as
to action plan before September 14
hearing. Researched Lowe's Loss/Safety
Prevention Manager. Drafted proposed
Interrogatory re: information on who
held that position at the time of the
accident. Revised and prepared cover
letters to Clint
Woodfin and Clerk's Office. 2.0 hrs.

8/27/09 - Reviewed file and all FRCP
related to discovery to look at Qptions
and obligations for supplementation
before the September 14 hearing, as
well as the possibility of fee shifting. 5.0
hrs.

App. 64

9/9/09 - Detailed email to file and staff
after
reviewing
supplemental
documents of defendant and possible
RFPs. Google search for the two other
female mangers mentioned by Clint
Woodfin.
1.2 hrs.

9/9/09 - Reviewed our initial disclosures
and discovery responses to see what
needs to be supplemented. Reviewed all
supplemental material provided by
Clint Woodfin. Detailed email to Loring
reviewing
thoughts
on
the
supplemental documents and possible
RFP' s. Google search for the two other
female managers mentioned by Clint
Woodfin. Results in email to LJ. Email
to Mike Conley on Listserv re:
obtaining the god information he bas re
falling products litigation.
1.25 hrs.

App. 65

App. 66

The crucial question is whether the findings of
the Panel are unsupported by evidence which is both
substantial and material in light of the entire record.
The Court does not act as the thirteenth juror. The
Court finds the evidence relied upon by the Panel for
its findings was both substantial and material
considering the entire record, and the Court will not
substitute its judgment for that of the Hearing Panel
as to the weight of the evidence on questions of fact.
Maddux v. Bd. of Prof’l. Responsibility, 409 S.W. 3d
613, 621 (Tenn. 2013).
Testimony of Kerschberg
Justice complains that the Panel abused its
discretion by allowing Kerschberg to testify by written
deposition questions pursuant to Rule 31 T.R.C.P.;
that the Board should not have been allowed to ask
cross questions; that Kerschberg recanted his
testimony; and that Kerschberg was impeached. A
trial court abuses its discretion only when it: "Apply[s]
an incorrect legal standard, or reach[s] a decision
which is against logic or reasoning that cause[s] an
injustice to the party complaining." State v. Shirley, 6
S.W.3d 243, 247 (Tenn. 1999). The abuse of discretion
standard does not permit the appellate court to
substitute its judgment for that of the trial court.
Myint v. Allstate Ins. Co., 970 S.W.2d 920,927 (Tenn.
1998).
Initially, the Court notes that the testimony of
Mr. Kerschberg was initiated by Justice when he
submitted a deposition upon written questions
pursuant to Rule 31 of the Tennessee Rules of Civil
Procedure. Although the Panel had entered an order
that discovery would be completed on or before

App. 67

December 15, 2014, it allowed the deposition of Mr.
Kerschberg to be taken on January 15, 2015. The
deposition of Mr. Kerschberg was delayed as a result
of the witness filing a motion for a protective order
which ultimately was ruled upon by the Chancery
Court for Knox County. The Court denied the
protective order and required Kerschberg to testify.
The Board did not submit its cross questions until the
Chancery Court for Knox County had ruled that Mr.
Kerschberg would be required to give his deposition.
The Panel allowed the Board to submit its cross
questions, and this Court finds no abuse of discretion
by the Panel for this decision.
Another complaint by Justice is that
Kerschberg did not answer the written questions
until January 15, 2015, thus depriving Justice of
submitting redirect questions. This is a
misunderstanding of the application of a Rule 31
deposition. Unlike an oral deposition, a party is not
allowed to ask follow-up questions after a question
is answered. Instead, the Rule requires a party to
serve cross questions within thirty days after the
original written questions are served, and within
ten days after being served with cross questions, a
party may serve redirect questions. In this case, the
Board served its cross questions on December 22,
2014. In the event Justice wished to serve redirect
questions, they would have been required to be
served by January 2, 2015, not after Mr.
Kerschberg answered the questions on January 15,
2015. Justice had adequate time to serve redirect
questions and his failure to do so within the time
allowed rests squarely on his shoulders.
Justice places great emphasis on the phone

App. 68

call between Justice and Kerschberg which was
admitted into evidence through the testimony of
Mr. Rickman, over the Board's objection. Rickman
testified about a time entry on June 17, 2009, from
Kerschberg regarding a telephone call to the Clerk
of the Court. According to Rickman, Kerschberg
indicated that the entry was actually for a series of
phone calls to the clerk that he made rather than
just one. Justice's first response was that the
statement was not being offered for the truth of the
matter asserted, and therefore was not hearsay. If
that was the case, then the conversation would
have had no relevance whatsoever. Justice then
argued its admissibility as a prior inconsistent
statement attacking the credibility of Kerschberg
pursuant to Rule 806 of the Tennessee Rules of Civil
Procedure.
Apparently,
Justice
believed
Kerschberg's acknowledgment that the time entry
for his work was for a series of phone calls to the
Clerk rather than one, was a significant prior
inconsistent statement. Apparently the Panel gave
this little to no weight, as does this Court. What is
significant is that Justice's fee application indicates
he participated in the same conversation(s) as his
paralegal with the Clerk, for one hour. Yet,
Kerschberg's invoice for the same one hour period
includes "second conversation with LJ about
consent motion to amend with Clint Woodfin.
Drafted consent motion for review by Clint
Woodfin." It is obvious from Kerschberg's entry on
June 17, 2009, that his telephone calls with Angela
Brush at the District Court were significantly less
than one hour since his one hour time entry
included a conversation with Justice about a
consent motion and the drafting of the consent

App. 69

motion. Yet, Justice's fee petition is for a one hour
conversation with the district court clerk. The
bottom line is that the Panel found Justice's
explanation for the identical billing entries between
himself and Kerschberg, not to be credible, and the
evidence supports that conclusion.
Fifth Amendment
Justice contends the U.S. Supreme Court's
decision in McKune v. Lile, 536 U.S. 24 (2002)
overrules U.S. v. Stein, 233 Fed. 3d 6 (1st Cir. 2000)
and therefore provides him with complete
immunity. In other words, he argues that the
potential threat of disbarment under the holding
of Spevack v. Klein, 385 U.S. 511, 516 (1967)
provides him with all of the Fifth Amendment
Rights of a criminal defendant, which the Panel
violated by ruling it could take an adverse
inference if Justice did not testify. Justice points
to Sher v. US.Dept. of Veterans Affairs, 488 Fed. 3d
489 (1st Cir. 2007) that an adverse inference can no
longer be drawn from an attorney's refusal to testify
in a disciplinary proceeding.
Sher v. U.S. Dept. of Veterans Affairs, supra,
involved the issue of "Garrity Immunity".1 In Garrity,
the U.S. Supreme Court held that confessions made
by police officers during an investigation into the
fixing of traffic tickets could not be sustained as
voluntary under the Fifth Amendment and could
not be used against the officers in subsequent
criminal prosecutions because the confessions
resulted from a choice between forfeiting their jobs
1

Garrity v. New Jersey. 385 U.S. 493 (1967).

App. 70

or self­ incrimination. Accordingly, Garrity
Immunity applies to government employees and
requires that the employer inform the employee
that his statements to questions are protected by
the Fifth Amendment and that in any type of
administrative proceeding or investigation of
possible criminal conduct, the employee's answers
to questions cannot be used against him in a
subsequent criminal prosecution; however, if he
refuses to answer those questions, he does face
potential loss of employment. In Sher, the First
Circuit Court found that none of the circuits have
held the governmental employer must give notice of
Garrity Immunity to an employee who is
represented by counsel. However, in a footnote the
Court stated the following:
True, we have previously noted
that
a
state
may
compel
incriminating answers to its
questions if the testimony and its
fruits are rendered unavailable for
use
in
subsequent
criminal
proceedings, i.e. through a grant of
immunity. U.S. v. Stein. However,
in light of the considerable amount
of persuasive authority from other
circuits on this issue, we think it
clear that Stein should be read to
mean that testimony compelled by
the threat of adverse employment
action automatically triggers a
grant of immunity under Garrity.
Sher v. U.S. Dept. of Veterans Affairs, 488
Fed. 3d 489, Footnote 12 (First Cir. 2007)

App. 71

The Court disagrees that the above cases
stand for the proposition that an attorney facing a
potential disbarment disciplinary proceeding is
entitled to all of the rights under the Fifth
Amendment to which a defendant in a criminal
prosecution is entitled. The First Circuit in Sher
emphasized that the Garrity Immunity afforded to
a government employee is not "transactional
immunity", that he can never be prosecuted for the
subject matter of the potential crime. Garrity
Immunity only guarantees the state may not use a
defendant's own statements in an administrative
proceeding to prosecute him in a subsequent
criminal proceeding.
Justice cites the Court to Vasquez v. State,
777 So. 2d 1200 (Fl. App. 2001) in support of his
position. In doing so, Justice has misrepresented
the holding of this case. Vasquez was a civil
proceeding regarding the forfeiture of over
$226,000 seized by law enforcement pursuant to
an investigation into a money laundering and drug
trafficking scheme. Mr. Vasquez contended that
the court's requirement of further detail regarding
the source and nature of his alleged ownership of
the currency violated his Fifth Amendment rights.
The Florida Court of Appeals ruled "at the
evidentiary hearing, Vasqez should suffer no
penalty for invoking his Fifth Amendment
Privilege. See Spevack v. Klein, (citations omitted)
but, it must be noted that the trial court may draw
an adverse inference against a party in a civil
action who invokes his privilege against selfincrimination. See Baxter v. Palmigiano (citations
omitted)." Thus, Vasquez is exactly in line with the
approach taken by this Court.

App. 72

The Supreme Court of Georgia has allowed
an adverse inference to be drawn against an
attorney who refused to testify in a disciplinary
proceeding.
Because Redding responded to
requests for admission propounded
by the State Bar by invoking the
Fifth Amendment of the United
States Constitution to some eighteen
requests, and because such a
response in a civil proceeding may
result in an adverse inference being
drawn by the fact finder, which
applies in disciplinary proceedings
(citation omitted), her outright
admissions and her admissions by
virtue of invoking the Fifth
Amendment constitute admission of
the essential allegations of the
charges against her.
In the matter of Redding, 501 S.E. 2d 499 (Ga.
1998).
New York likewise has addressed this issue
and allowed an adverse inference to be drawn from
an attorney's invocation of their Fifth Amendment
right. In the Matter of Saghir, 86 A.D.3d 121 (NY
2011); In the Matter of Bater, 46 A.D.3d 1 (NY
2007); and In the Matter of Muraskin. 286 A.D.2d
18 (NY2001).
While Justice may be entitled to immunity
from a future criminal prosecution, he is not
entitled to immunity from prosecution for any event
or transaction described in the compelled

App. 73

testimony. In the case at bar, Justice invoked the
Fifth Amendment at his deposition and refused to
answer any questions from the Board's attorney. At
trial, he reversed himself and elected to testify. He
is an experienced trial attorney, and he was
represented by an experienced trial attorney at all
stages of the proceedings before the Panel. He was
well aware of the consequences of testifying in this
case.
Delay in the Proceedings
Justice alleges that the delay in the
adjudication of his case is a comment on the
Board's attitude that it does not believe Justice is
a danger to his clients or the practice of law.
Initially the Court notes Justice neither plead nor
argued unjust delay before the Panel. More
importantly, most of the delay in these
proceedings was caused by Justice himself. He
requested
multiple
delays
during
the
investigation phase of this matter; he requested
that he not be required to respond to the complaint
until after the completion of his disciplinary
hearing in Federal District Court (which he then
unsuccessfully appealed to the U.S. Circuit Court
of Appeals and the U.S. Supreme Court); he
requested an extension of time to file his answer
to the complaint; and during the scheduling
conference, his attorney requested a lengthy
period for discovery prior to the hearing date.
While it is true some of the delay occurred after
the Hearing Panel rendered its decision due to the
retirements of Senior Judge Blackwood and
Senior Judge Cantrell, no delay in this matter was
attributable to the Board.

App. 74

The Rule of Completeness
Justice argues the Panel erred in excluding
the affidavit of Yalkin Demirkaya. Mr. Demirkaya
was a computer expert hired by Justice. Mr.
Demirkaya submitted an affidavit in the federal
case before Judge Collier which was admitted into
evidence without objection. In the trial before the
Hearing Panel, Justice sought to introduce Mr.
Demirkaya's affidavit which was objected to by the
Board and sustained by the Panel as hearsay.
Justice contends the (the rule of completeness)
found in Rule 106 Tenn. R. of Evidence allowed him
to submit Mr. Demirkaya's affidavit after the Board
introduced Justice's prior testimony in the District
Court case. Rule 106 reads as follows:
When a writing or recorded
statement or part thereof is
introduced by a party, an adverse
party may require the introduction
at that time of any other part of any
other writing or recorded statement
which ought in fairness to be
considered contemporaneously with
it.
Tenn. R. of Evidence.
All of the Tennessee cases which have
considered this Rule have involved a writing or
recorded statement of the witness who is
testifying. The purpose of the Rule l 06 is to keep
the trier of fact from being misled by hearing only
part of a writing or recorded statement, and that
any other part of that writing or recorded
statement
ought
to
be
considered

App. 75

contemporaneously with it, if fairness so dictates.
Neil P. Cohen, et al, Tenn. Law of Evid. § 106.2.
Justice contends the Rule of Completeness allows
him to introduce the affidavit of Mr. Demirkaya
after Justice's prior testimony was entered as an
exhibit. Justice has not cited a single case to
support the proposition that the writing or
recorded statement of a third person may be
introduced under Rule 106 after the admission of
the written statement of the witness. While the
federal courts disagree whether Rule 106
authorizes the admissibility of evidence that is not
otherwise admissible, the justification for
allowing evidence which should otherwise be
excluded is that by introducing part of a
document, a party can be viewed as waiving an
objection to other items in that same document.
Neil P. Cohen, et al, Tenn. Law of Evid. §
106.3(b). This did not happen here. In this case,
Rule 106 would permit Justice to introduce other
portions of his prior testimony from the federal court
case. It would not allow Justice to introduce portions
of another witness' testimony, especially an affidavit
of a third person, who was not subject to cross
examination.
Request to Reopen the Proof
Justice has moved the Court pursuant to
Rule 59 to allow the introduction of additional
proof which was not submitted to the Hearing
Panel at the trial. Pursuant to Rule 59.04 of the
Tennessee Rules of Civil Procedure, a party may
file a motion to alter or amend a judgment within
thirty days after its entry. The motion should be
granted when the controlling law changes before

App. 76

the judgment becomes final; when previously
unavailable evidence becomes available; or to
correct a clear error of the law or to prevent
injustice. A Rule 59 Motion should not be used to
raise or present new, previously untried or
unasserted theories or legal arguments. In Re: M.
L. D., 182 S.W.3d 890, 895 (Tenn. Ct. App. 2005).
In order to sustain a motion to alter or amend
under Rule 59 based upon newly discovered
evidence, "it must be shown that the new evidence
was not known to the moving party prior to or
during the trial and that it could not have been
known to him through exercise of reasonable
diligence." Seay v. City of Knoxville, 654 S.W.2d
397, 399 (Tenn. Ct. App. 1983). Justice has not
presented any reason which would support the
reopening of proof under Rule 59.04. Accordingly,
this request is denied.
The Sanction of Disbarment
Although the Court believed the sanction
of disbarment was justified in this case, the Court
acknowledges it was reluctant to impose such a
severe sanction on Mr. Justice. However, any
lingering doubt as to the disbarment of Mr. Justice
has been obliterated by his motion to alter or
amend. Justice blames everyone and everything
for his predicament, other than his own
misconduct. He impugns the Panel by suggesting
they were motivated by a desire to curry favor
with the Federal District Court. He impugns the
integrity of the Board by suggesting that this
entire proceeding is a "payback" because he
represented clients who filed a complaint against
an attorney with the Board. He impugns the

App. 77

integrity of the court reporter by suggesting that
she destroyed her audio recording of one of the
hearing days. He has made false assertions in his
pleadings such as "the Board never requested
Justice produce [the hand-written time records]." 2
He has suggested that disciplinary counsel and
the
Court
have
had
inappropriate
communications, which is completely untrue.
Finally, his pleadings demonstrate a complete
lack of respect and distain for the Court and this
disciplinary proceeding. 3
Request number 3 by the Board asks Justice to produce a copy
of any contemporaneous record of your time used in preparation
of any itemized accounting of services filed in the Thomas case.
2

3

In his motion, Justice makes the following statements:

1.

"The Court, in similar fashion claims in its Order
disbarring Justice that Kerschberg's recantation makes
Kerscbberg more credible. This would be laughable if this
were not a case involving Scotty Thomas, who is dead,
and an attorney's potential loss of his livelihood and
ability to feed his family ... the Court's explanation
Kerschberg did not recant is flawed, at best, if not
manipulative." Pg. 9

2.

"The Court's flawed reasoning on this point alone merits
a new trial. ... and now the Court's spin [sic] this
recantation
bolsters
Kerschberg's
credibility
delegitimizes the proceedings. It is one thing to decide
against a party on facts; it is another thing to distort,
minimize or conceal facts adverse to the desired
outcome." Pg. 10

3.

"Disbarments or suspensions of lawyers should rest on
evidence, not selectively ignoring inconvenient evidence
or 'spinning' it to support a desired result. If Justice is to
be sanctioned it ought to be on the finding of cited facts
and conclusions of cited legal authority, as opposed to a
partisan brief, disguised as an order." Pg. 11

App. 78

4.

"The Court's spurious and inflammatory findings the
Panel explicitly found Rickman not credible warrant a
new trial." Pg. 19

5.

"So in the fashion of the so-called 'trials' portrayed in the
works of Orwell and Kafka, the Court pretends this
evidence is not there and writes an Opinion that
effectively represents an official 'myth', as opposed to a
genuine discussion of the proof, for and against all
parties." Pg. 23

6.

"Here, the Court only states in its disbarment Order,
'Lowe's denied Mr. Thomas was injured on its property'.
This is not even the half of it, and the Court knows this.
This is exceptionally misleading . . . . The Court's attempt
to make light of the severity of Lowe's discovery abuse
and its fraud on the District Court and the late Scotty
Thornas's [sic] case is sad." Pg. 24

7.

"It is an ethical violation to ignore United States
Supreme Court rulings on matters of the federal
Constitution. The Court's admission its decision is at
odds with the precedents of the United States Supreme
Court is remarkably disturbing." Pg. 28

8.

"It is ridiculous for the Board and this Court to state that
when Tennessee's Supreme Court held lawyer
disciplinary cases were ' quazi-criminal', it really meant
they were just civil." Pg. 32

9.

"While Judge Robert E. Lee Davies of this Court may
wish to do so, it is not the function of the Chancery Court
of Knox County to re-write hundreds of years' worth of
federal law." Pg. 33

10.

"It would be a farce for this Court to hold the Panel did
not violate the standards governing waiver of the Fifth
Amendment right, given the Court acknowledged the
Panel did so at hearing." Pg. 40

11.

"There is great appearance of bias, where this Court
dodged a 2016 precedent of the United States Court of
Appeals for the Sixth Circuit, and instead relied on a
2000 precedent of the First Circuit that clearly did not
survive the decision in McKune intact, to scrape up a

App. 79

Conclusion
For all of the reasons set forth above, Mr.
Justice's motion to alter or amend is denied.
It is so ORDERED.

rationalization to disbar. An unbiased court at least
acknowledges contrary authority, particularly from the
controlling jurisdiction." Pg. 50
12.

"The Court's red herring here is so red; it is near crimson
... Shockingly, the Court falsely asserted Justice takes
the exact opposite position in its disbarment Order: 'His
position is founded on the premise that an attorney
facing a disciplinary proceeding has the same rights as a
criminal defendant in this state.' A Court should not
construct a straw man to artificially disbar a lawyer." Pg.
51

13.

"If the Court is going to issue a disbarment ruling, it at
least ought to distinguish the issues Justice properly
raises. Otherwise, the appearance - - and the word
appearance is stressed - is that of a frame up." Pg. 77.

14.

"The oddity of the citation by both the Board and this
Court shows what must be admitted if there is to be
integrity here: The Board has no case and the Court's
sanction of disbarment is ludicrous." Pg. 90

15.

"The Court's blatant refusal to follow settled law is
stunning." Pg. 104

16.

"That the Board appealed the Panel's Findings and
Judgment Justice should be suspended for a year and
requested disbarment is peculiar, to say the least, and
that the Court went along with the Board's request on
such shaky, non-existent evidence is, frankly, absurd."
Pg. 109

App. 80

_______________
APPENDIX C

_______________
IN THE CHANCERY COURT FOR KNOX
COUNTY TENNESSEE
BOARD OF
PROFESSIONAL
RESPONSIBILITY
Plaintiff,
v.
LORING E.
JUSTICE
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Docket No.
184818-3

Issued: February 2, 2017
Re-Issued: February 9, 2017
ORDER
This matter came on to be heard on the 15th day
of December, 2016, before R. E. Lee Davies, Senior
Judge, upon the petitions for certiorari filed by the
Tennessee Board of Professional Responsibility

App. 81

(sometimes referred to as "Petitioner") and Loring E.
Justice (sometimes referred to as "Respondent"). The
Court has received a copy of the Hearing Panel
transcripts, the official record with exhibits, and the
briefs filed by each party. After argument of counsel
for Petitioner and Respondent the Court makes the
following findings of fact and conclusions of law.
FACTUAL AND PROCEDURAL HISTORY
Statement of the Case
This case arose out of complaints filed with
the Tennessee Board of Professional Responsibility
as a result of a proceeding in the United States
District Court for the Eastern District of Tennessee
in which Mr. Justice presented a sworn fee petition
for attorney's fees and expenses pursuant to a
discovery sanction issued by Judge Phillips of the
Eastern District for Tennessee.
On September 25, 2013, the Board filed a
Petition for Discipline against Mr. Justice pursuant to
Tennessee Supreme Court Rule 9 (2006). Mr. Justice
responded to the petition on December 3, 2013. Mr.
Justice filed a motion to dismiss which was denied by
order entered February 18, 2014. Mr. Justice filed a
second motion to dismiss and for a more definite
statement and a motion to compel discovery. An order
was entered which granted Respondent's motion in
part by ordering the Board to supplement its response
to interrogatory number 6. Interrogatory number 6
requested the Board to identify each billing or
expense entry in the fee petition that the Board
alleged was fraudulent. The Board filed a
supplemental response in which it set forth
highlighted entries on exhibit B to interrogatory

App. 82

number 4 as being the entries which the Board
contended were false.
On November 19, 2014, Benjamin Kerschberg,
a witness in the case filed a motion for protective
order with the Panel. The Panel denied the motion by
stating it did not have jurisdiction to rule on the
request and informed the attorney for the witness and
the parties that such a motion needed to be filed with
the appropriate court. The witness refiled the motion
for protective order, with the Knox County Chancery
Court. The Chancery Court granted the motion in
part and denied the motion in part. On December 11,
2014, the Board filed a motion to compel Respondent
to give a deposition after Respondent informed the
Board that he intended not to testify and exercise his
right against self-incrimination. On December 2,
2015, Respondent filed a response to the motion to
compel and motion to dismiss on the grounds that the
Board violated Respondent's rights under the United
States and Tennessee Constitutions due to improper
commentary by the Board to the Panel concerning
Respondent's exercise of his right against selfincrimination. On January 5, 2015 the Panel granted
the motion of the Board to compel Respondent to give
his deposition. The Respondent's motion to dismiss
was denied. A hearing was conducted on January 2023, 2015. The Hearing Panel entered its decision on
March 9, 2015. It found Mr. Justice violated Rule
1.5(a), fees; Rule 3.3(a), candor toward the tribunal;
Rule 3.4(a), fairness to opposing party and counsel;
and Rule 8.4(a) (c), misconduct. After finding six
aggravating factors _and two mitigating factors, the
Panel imposed a one year suspension and twelve
additional hours of continuing legal education
approved for ethics.

App. 83

On April 13, 2015, the Board filed its petition
for writ of certiorari. On May 8, 2015, Mr. Justice filed
his petition for writ of certiorari.
Facts
Mr. Justice is an attorney licensed to practice
law in Tennessee since 1998. He was representing a
client named Scotty Thomas in a personal injury case
filed in federal court against Lowes. Lowes denied Mr.
Thomas was injured on its property. After three years
of litigation, Mr. Justice discovered a former Lowes'
employee who actually witnessed the injury to his
client. He filed a motion for sanctions against Lowes
for its failure to disclose the identity of this employee.
The trial judge (Judge Phillips) issued an order
granting the motion and directed Mr. Justice to file a
claim, with supporting documentation, for fees and
expenses incurred in locating and deposing this
witness by the name of Mary Sonner.
In response to the trial court's order, Mr.
Justice filed a preliminary Itemized Accounting of
Services and a final Itemized Accounting of Services
in April 2011. Mr. Justice's affidavit for fees consisted
of a claim for his time at the rate of $300 per hour and
$90 an hour for paralegal services. The total fee
requested by Mr. Justice was $106,302. Lowes
objected to the fee request, and the matter was
referred to Judge Curtis Collier, District Judge for the
Eastern District of Tennessee in Chattanooga
pursuant to a show cause order. Judge Collier
conducted a four day hearing on February 17, 21, 22
and 23, 2012. At this hearing Mr. Justice testified all
of the documentation he had filed with Judge Phillips
were true and that he had kept a contemporaneous
record of all of his time.

App. 84

At the trial before the Hearing Panel, the first
exhibit introduced into evidence was the deposition of
Mr. Justice. In that deposition, Mr. Justice refused to
answer any questions regarding any of the issues
raised by the Board in its petition for discipline. 1
Exhibit 2 was the deposition upon written
questions of Benjamin Kerschberg taken on January
14, 2015 in Virginia. Mr. Kerschberg was a paralegal
working on a contract basis for Mr. Justice. Mr.
Kerschberg attached invoices he created for work he
did for Justice. These invoices were created at the
time he performed the work and were sent to Mr.
Justice every two weeks for payment. Mr. Kerschberg
testified he personally performed all the work set
forth in these invoices. Kerschberg suffers from
depression, anxiety and has been diagnosed as bipolar II. He is under treatment by a psychiatrist who
prescribes medication for his condition.

Some of the questions which Mr. Justice refused to answer
based on the Fifth Amendment are:

1

1.

Do you contend that all of the attorney fees in the
Itemized Accounting of Services filed in Thomas
v. Lowes were reasonably related to locating and
deposing Mary Sonner?

2.

Did you keep a contemporaneous record of the
time that you spent working on Thomas v.
Lowes?

3.

Did you make any false statements while
testifying in In Re: Justice?

4.

Did you adopt any of the work done by Mr.
Kerschberg as if it were your own in making the
Itemized Accounting of Services in Thomas v.
Lowes?

App. 85

The next exhibit introduced by the Board
was the trial testimony of Mr. Justice in U.S. District
Court before Judge Collier. In that hearing, Mr.
Justice denied that he wrongfully attributed to
himself work actually performed· by his paralegal,
Mr. Kerschberg, and denied that he made any false
certification or statements in his fee application.
Instead, he claimed he personally performed all of the
work reflected in the entries shown in his fee
application.
Mr. Justice had a personal injury practice.
He did not record his time and never had any billing
software in his office. He admitted the Thomas v.
Lowes case was the first fee application he had ever
prepared, so when the District Court ordered him to
supply the supporting documents for his fee request,
all Mr. Justice had was Microsoft Word entries. Mr.
Justice testified he kept track of his time
contemporaneously within a week or two of the time
the work was actually performed. He also received
invoices from Kerschberg which Justice kept in his
own file. Because his computers were not networked,
if Mr. Justice wanted to transfer the information from
one computer to another to edit old entries or create a
new entry, he would have been required to use a flash
drive. However, Justice had no specific recollection of
whether he transferred any documents from one
computer to another.· When it was suggested to Mr.
Justice to allow a neutral forensic computer expert to
go through his computer system, he declined,
claiming there were sensitive documents on the
computer that needed protecting. Mr. Justice hired
his own expert to search his computer; however,
neither his expert nor any of his employees were able
to find any of the original time records before they

App. 86

were transformed into an early version of the fee
petition filed with the District Court. When asked by
Judge Collier for the name of the document in his
computer under which he kept his time records, Mr.
Justice could not recall.
Mr. Justice's relationship with Mr. Kerschberg
went back to law school. Mr. Kerschberg stopped
working for Mr. Justice in September 2009. During
the same period of time in April 2011, when Mr.
Justice was compiling and submitting his two
petitions for fees and expenses, he sent an email to
Mr. Kerschberg dated April 11, 2011, in which he
stated:
Thanks for the email Kersch. I billed a
lot of the time for my reading your work
rather than you doing it so you won't
have to testify if it comes to that. Hope
you are not mad about that. I really
appreciate you. Tell me what you think
of this. What a war.
After the show cause order was issued by Judge
Collier, Mr. Justice conducted a search for any emails
that were related to the Thomas v. Lowes case. He
discovered three additional versions of the initial
Word document. He indicated that at times more than
one Word document existed for the time he kept on
this case but was later consolidated into one
document. According to Mr. Justice, he was
attempting to delete overlapping time. He met with
his associate Chad Rickman and legal assistant,
Caroline Vaughn, instructing them to delete any
duplicative entries.
In the hearing before the Panel, Mr. Justice

App. 87

called his associate, Chad Rickman, as his first
witness. Mr. Rickman began working for Mr. Justice
in early 2010. His first work on the Thomas case
began in July 2010 when Justice told him to start
keeping his time. Mr. Rickman recorded his time on a
legal pad which he would turn in to his legal assistant
to enter it into the Word document. The first time Mr.
Rickman ever saw the Word document was after they
received the order from the District Court trial judge
-awarding them fees and expenses in the Thomas v.
Lowe case.
As his last witness, Mr. Justice elected to take
the stand and give his version of the facts before the
Hearing Panel. His testimony was substantially the
same as his testimony in Federal District Court.
The Board alleged seventeen specific time
entries contained in Mr. Justice's fee petition which
were false. The Board contended that on these specific
entries, Mr. Justice claimed work performed by Mr.
Kerschberg as his own. The Hearing Panel found
these seventeen entries were in fact work performed
by Mr. Kerschberg, not Mr. Justice, as he claimed.
The seventeen entries are as follows:
6/13/09

Revision of Motion to Have
Requests for Admission Deemed
Admitted, 1.2

6/14/09

Edits to Motion to Deem Requests
for Admissions admitted Added
section about Letter to Clint
Woodfin
and
Motion
to
Supplement.
Researched
electronic filing rules for the E.D.
Tenn. 2.2

App. 88

6/16/09

All
final
preparations
of
Amended Complaint and Motion
to
Deem
Requests
For
Admissions Deemed Admitted.
Preparation of all PDF exhibits.
Compilation of files. Filing with
E.D. Tenn. via ECF. Hard copies
of everything for file. 2.5

6/16/09

Preparation and editing of
Motion to Compel Discovery and
Memorandum
in
Support
partially prepared by legal
assistant. 3.0

6/17/09

Talked to Angela Brush at
district
court
to
correct
misunderstandings
re
our
filings. 1.0

6/17/09

Continued to research, revise
and rewrite Motion to Compel
Discovery. 4.0

6/18/09

Continued research, revision
and refinement of Motion to
Compel Discovery. 4.5

6/19/09

Letter to Bob Davies regarding
additional materials needed
from MSG about the project. .5

7/16/09

Reviewed notes from meeting
with
Clint
Woodfin
and
calendared follow-up call to
Corey Kitchen re: Clint's call. .2

7/22/09

Drafted and typed memo for trip
to Florence, Alabama to meet

App. 89

with Plaintiffs MSG co-workers.
This memo summarized the
liability issues in the case and
listed important questions to
ask to try to understand
whether it was plausible Lowe's
could lack notice and to prove
Lowe's indeed had notice and to
gain physical descriptions of
individuals of interest. 5.0
7/27/09

Reviewed all notes from our trip
to Alabama to meet with the
MSG witnesses and compiled
Master To-Do List. Drafted
affidavits of Kitchen, Yeates,
and McBride. Online research
re: Teresa Beavers (Lowe's
Manager). 4.5

7/29/09

Revisions
of
affidavits
of
Kitchen, Yeate4s, and McBride.
.2

8/8/09

Coordinated with Debi Dean of
Alabama
Head
Injury
Foundation to make sure that
Randy, Bradley, and Corey will
sign affidavits and get them
back to us notarized. Reviewed
legal assistant's research of
FRCP and EDTN Rules re:
timelines of Notice of Filing with
respect
to
Hearing
Date.
Drafted Notice of Filing. Drafted
Memorandum to accompany
Notice of Filing for filing with

App. 90

the court this week. 3.0
8/10/09

Coordination of all affidavit
signings, etc. with Debi Dean. .5

8/27/09

Reviewed file and all FRCP
related to discovery to look at
options and obligations for
supplementation
before
September 14 hearing, as well as
the possibility of fee shifting and
sanctions. 5.0

8/31/09

Prepared outline as to action plan
before September 14 hearing.
Researched Lowes' Loss/Safety
Prevention Manager. Drafted
proposed
interrogatory
re:
information on who held that
position at the time of the
accident. Revised and prepared
cover letters to Clint Woodfin and
Clerk's office. 2.0

9/9/09

Detailed email to file and staff
after reviewing supplemental
documents of defendant and
possible RFPs. Google search for
the two other female managers
mentioned by Clint Woodfin. 1.2

The Panel cited the April 11, 2011 email
written by Justice to Kerschberg and noted it
contained no acknowledgement that Justice had
performed any of the work. The Panel found
Kerschberg's billing records were sent to Mr. Justice
near the time Kerschberg's time was recorded; that
Justice paid those invoices; and that at the time the

App. 91

invoices were paid, Justice did not question whether
Kerschberg performed the work. The Panel found the
entries on Justice's fee petition were identical or
nearly identical to the Kerschberg bills and that
Justice's explanation was not plausible or credible.
The Panel found that many of the entries on
Mr. Justice's fee petition were not related to the fees
approved in the District Court's order. It found that
the submission of 371.5 hours of time went well
beyond the scope of the order and that Justice knew
he was requesting compensation for time which was
not related to locating and deposing Mary Sonner.
The Panel also found the corroborating testimony of
Chad Rickman not to_ be credible. Specifically with
regard to any potential fee awarded by the Court as a
result of the discovery sanction motion, the Panel did
not believe Rickman's testimony that he and Justice
were required to pay the fee to the client, Mr.
Thomas. Finally, the Panel specifically found that
the statements made by Justice to Judge Collier
were false and that Justice knew they were false.
STANDARD OF REVIEW
When reviewing a Hearing Panel's
judgment, a trial court must consider the transcript
of the evidence before the Hearing Panel and its
findings and judgment. Tenn. Sup. Ct. R9, § 1.3. On
questions of fact, the trial court may not substitute
its judgment for that of the Hearing Panel as to the
weight of the evidence. Bd. of Prof. Responsibility
v. Allison, 284 S.W.3d 316, 323 (Tenn. 2009). Any
modification to a Hearing Panel's decision must be
based on one of the specific factors set forth in
Tenn. Sup. Ct. R9, §1.3. Bd. Of Prof. Responsibility
v. Love, 256 S.W.3d 644, 652 (Tenn. 2008).

App. 92

Under Section 1.3, a trial court has the
discretion to reverse or modify a decision of the
Hearing Panel only if the petitioner's rights have
been
prejudiced
by
findings,
inferences,
conclusions, or decisions that are (1) In violation of
constitutional or statutory provisions; (2) In excess
of the Panel's jurisdiction; (3) Made upon unlawful
procedure; (4) Arbitrary or capricious or
characterized by abuse of discretion or clearly
unwarranted exercise of discretion; or (5)
Unsupported by evidence which is both substantial
and material in light of the entire record. Tenn.
Sup. Ct. Rule 9 § 1.3. This Court reviews questions
of law de novo but does not substitute its judgment
for that of the Hearing Panel as to the weight of the
evidence on questions of fact. Tenn. Sup. Ct. Rule
9 § 1.3; Maddux v. Board of Prof’l Responsibility,
409 S.W. 3d 613, 621 (Tenn. 2013).
ANALYSIS
In his petition for writ of certiorari, Mr.
Justice raises a multitude of issues. For purposes
of appeal, the Court will classify these issues into
three groups: 1) procedural complaints against the
Board and the Panel; 2) complaints about the
sufficiency of the evidence presented by the Board;
and 3) Justice's assertion of his Fifth Amendment
privilege against self-incrimination. The Board
raises one issue. It claims the Panel erred by not
imposing disbarment.
I.
Fifth Amendment Privilege against selfincrimination
On January 20, 2015, a pretrial hearing was

App. 93

held by the Panel to address certain motions in
limine filed by the parties. One of the motions filed
by Justice pertained to the Fifth Amendment
privilege against self-incrimination. In its order
entered February 9, 2015, the Board ruled that it
was entitled to take an adverse inference in an
attorney disciplinary proceeding where an
attorney refused to give testimony on the basis of
the Fifth Amendment. The Panel ruled pursuant to
Akers v. Prime Succession of Tennessee, Inc., 387
S.W.3d 495 (Tenn. 2002) that it was entitled to take
an adverse inference if the elements set forth in
Akers were met but that it would not make any
ruling as to whether it would take an adverse
inference until after the proof was presented.
Justice argues the Panel coerced him to testify. His
position is founded on the premise that an attorney
facing a disciplinary proceeding has the same
rights as a criminal defendant in this state.
Attorney disciplinary proceedings are
"quasi-criminal" in nature. Moncier v. Bd. Prof’l
Responsibility, 406 S.W.3d 139, 155 (Tenn. 2013)
(citing In Re: Ruffalo, 390 U.S. 544, 551, 88 S. Ct.
1222, 20 L. Ed. 2d 117 (1968)). Accordingly, attorneys
who are subject to discipline are entitled to procedural
due process. Moncier, at 156. The question becomes
what approach our Supreme Court will adopt
regarding an attorney's assertion of the Fifth
Amendment privilege against self-incrimination in a
disciplinary proceeding; Thus, the task before this
Court is to analyze this issue using the prior decisions
of our Supreme Court as guidance.
Our Supreme Court has held that attorney
disciplinary proceedings do not give rise to "the full

App. 94

panoply of [due process] rights afforded to an accused
in a criminal case." Hyman v. Bd. of Prof'l
Responsibility, 437 S.W.3d 435, 445 (Tenn. 2014). In
Moncier, the Supreme Court cited with approval, the
holding articulated by the Supreme Court of Colorado
in People v. Harfman, 638 P.2d 745 (Co. 1981).
Harfman argued he was entitled to the same
constitutional safeguards as an accused in a criminal
case. The Colorado Supreme Court held that
disciplinary proceedings, which are sui generis will
not be afforded the same constitutional rights as an
accused in a criminal case, and refused to apply the
exclusionary rule to shield an attorney charged in a
disciplinary complaint. Id. at 747.
Justice points to Spevack v. Klein, 385 U.S.
511 (U.S. 1967) for the proposition that the U.S.
Supreme Court has forbidden the imposition of any
penalty upon an attorney for invoking the Fifth
Amendment privilege in a lawyer disciplinary case.
This Court disagrees. One year after its holding in
Spevack, the Supreme Court stated, "[i]n Spevack,
we ruled that a lawyer could not be disbarred solely
because he refused to testify at a disciplinary
proceeding on the ground that his testimony would
tend to incriminate him." Gardner v. Broderick, 392
U.S. 273, 277 (U.S. 1968). The U. S. Supreme Court
has not ruled whether an adverse inference can be
drawn from an attorney's refusal to testify in a
disciplinary proceeding; however, lower courts have
considered this issue.
In U.S. v. Stein, 233 F.3d 6 (1st Cir. 2000).
The Massachusetts Board of Bar Overseers
(B.B.O.) conducted an investigation of professional
misconduct
against
Attorney
Golenbock.

App. 95

Golenbock' s attorney became concerned about the
possibility of a criminal proceeding and advised her
to assert her Fifth Amendment privilege at a
deposition. Golenbock declined to answer any
questions asserting her Fifth Amendment
privilege. After changing attorneys, Golenbock
changed her position and when she appeared a
subsequent time before the B.B.O., she chose to
forego her Fifth Amendment privilege and testify.
Later, Attorney Golenbock was charged with one
count of bankruptcy fraud and one count of
conspiracy to commit bankruptcy fraud. Golenbock
moved to suppress the statements she made in
front of the B.B.O. contending that she had been
coerced to answer • questions by the threat that
assertion of her Fifth Amendment privilege would
be used against her in the B.B.O. proceeding. On
appeal, the Court of Appeals reviewed the denial of
Golenbock's motion to suppress. Golenbock argued
that her refusal to testify before the B.B.O. would
be subject to an adverse inference as to the matters
at issue in that proceeding, with the result being
her disbarment. The First Circuit Court of Appeals
held "The penalty of adverse inference and possible
disbarment was too conditional to establish a
conclusion that her B.B.O testimony was compelled
in contravention of the Fifth Amendment." The
Court of Appeals acknowledged that the Supreme
Court had made a distinction where the effect of
invoking the Fifth Amendment by itself, would
result in the loss of job or license as distinguished
from where the invocation of the Fifth could result
in damage to one's chances of retaining a job or
license. (citing Lefkowitz v. Cunningham, 431 U.S.
801,806 (U.S. 1977)).

App. 96

The B.B.O.'s own rules and practice
make it plain that Golenbock was not
faced with an automatic sanction. The
B.B.O. makes its decisions based on a
preponderance of the evidence, with
the Bar Counsel bearing the Burden of
Proof ... Nothing in the record suggests
that the B.B.O. has either a formal rule
or an unwritten policy or practice to
disbar or suspend attorneys simply for
invoking Fifth Amendment privileges.
Hence,
the
consequences
of
Golenbock's assertion of the privilege
before the B.B.O. were the same as in
any civil proceeding, in that the factfinder could - but was not required to draw an adverse inference from such an
assertion. (citing Baxter v. Palmigiano,
425 U.S. 308, 317 (U.S. 1976)) …
As said, there is no evidence of any
B.B.O. rule mandating that claiming
one's constitutional right to remain
silent must necessarily result in
disbarment. Golenock could have
asserted her Fifth Amendment privilege
and later argued to the B.B.O. factfinder that the evidence against her, as a
whole, was inadequate to disbarment.
We conclude that [n]either Garrity 2 nor
any of its progeny brings defendant
within the ambit of the coerced testimony
doctrine.
2

Garrity v. New Jersey, 385 U.S. 493 (U.S. 1967}

App. 97

·
U.S. v. Stein at 16.
Our Supreme Court has addressed the issue of
a negative inference resulting from the assertion of a
Fifth Amendment privilege. In Akers v. Prime
Succession of Tennessee, 387 S.W.3d 495 (Tenn. 2012)
the Court recognized the tension between the Fifth
Amendment's protections in a civil trial and the other
party's right to a fair proceeding. "[T]he majority of
jurisdictions, including Tennessee, permit factfinders to draw adverse inferences against parties
who invoke their Fifth Amendment rights in a civil
case." Akers, at 506. However, the Court refused to
allow an adverse inference to be drawn from
invocations of the privilege in every case. Instead, the
Court took a balanced approach holding:
We hold that the trier of fact may draw a
negative inference from a party's
invocation of the Fifth Amendment
privilege in a civil case only when there
is independent evidence of the fact to
which a party refuses to answer by
invoking his or her Fifth Amendment
privilege. In instances when there is no·
corroborating evidence to support the
fact under inquiry, no negative inference
is permitted.
Akers, at 506.
The Court went further by requiring the plaintiff to
present corroborating evidence regarding the specific
fact to which the defendant refuses to answer. Thus,
in determining whether a negative inference is
permissible, the analysis must be on a question-by-

App. 98

question basis. Akers, at 507.
While our Supreme Court has indicated
disciplinary proceedings are quasi-criminal in nature,
these proceedings are civil cases. The punishment for
a violation of the Rules of Professional Conduct range
from reprimands, to suspension, to disbarment. The
practice of law is a privilege, not a right, and there is
nothing in Supreme Court Rule 9 which suggests the
invocation of the Fifth Amendment will result in
disbarment. The ruling of the Hearing Panel that it
could draw a negative inference from Justice's
invocation of his Fifth Amendment privilege is
affirmed.
The prior testimony of Justice in federal court
and the deposition testimony of Mr. Kerschberg and
the exhibits introduced by the Board corroborate the
specific facts to which Justice refused to answer in his
deposition. Thus, the Panel was correct in finding that
the Board met its burden under Akers but that Akers
also left the discretion to the trier of fact whether to
impose the adverse inference, which the Panel
declined to do. Accordingly, Justice's claim that he
was compelled to testify against his will is without
merit.
II.
Procedural Complaints
In his petition and brief, Justice alleges
several procedural errors by the Hearing Panel which
he contends should result in the dismissal of the
Board's petition.
Burden shifting
Justice

contends

the

Hearing

Panel

App. 99

improperly placed an undue burden on him, as the
respondent, by requiring Justice to provide proof he
performed the work detailed in the seventeen time
entries set forth in the Panel's findings of fact and
conclusions of law. The Panel found Justice claimed
he began keeping a record of his time in the Thomas
case on December 10, 2008. He testified he made
those entries on paper and later put them into a Word
document. Although he maintained his time in a
Word document, he could not recall the name of the
document nor did he produce any of the hand-written
time records. Justice was not able to produce a version
of the Microsoft Word document until after the entry
of Judge Phillip's order granting Justice attorney's
fees in the Thomas v. Lowes case on March 15, 2011.
The Panel then compared the seventeen entries on the
Justice fee petition with the Kerschberg invoices. The
Panel considered Justice's explanation regarding
these seventeen entries and found his testimony on
this issue not credible. The Panel then proceeded to
set forth specific examples in the proof which
contradicted Justice's explanation and ended by
commenting on his demeanor on the witness stand.
The Panel observed that questions from the Panel to
Justice were often met with lengthy periods of silence
prior to answering the questions and that his answers
to other questions posed by the Panel regarding the
fee petition were often evasive.
Since July 2009, Rule 52 of the Tennessee
Rules of Civil Procedure requires the trial court to
make specific findings of fact and conclusions of law,
and our appellate courts have found that the failure
to do so, will require reversal. Anil Const., Inc. v.
McCollum, 2014 W.L. 3928726 (Tenn. Ct. App. 2014);
Lake v. Haynes, 2011 W.L. 2361563 at 5 (Tenn. Ct.

App. 100

App. 2011). The Court finds the Panel followed the
general rule in Tennessee that the burden of proof
remained with the Board and did not shift. Stone v.
City of McMinnville, 896 S.W.2d 548, 550 (Tenn.
1995). There is nothing in the Panel's findings to
suggest it shifted the burden of proof to Respondent.
Justice elected to testify in his defense. The Board
found his testimony not to be credible and gave
specific reasons for its findings as required under
Rule 52 Tenn. R. Civ. P.
Trial Transcript
Justice has requested this Court to deem the
transcript of the proceedings before the Panel as
unreliable; and instead, order the audio be produced
and entered into the record. As a practical matter
there is no authority for ordering a court reporter's
audio-recording of a trial to be placed into the record.
Moreover, the affidavit of Ken Gibson (Gibson Court
Reporting) indicates there is no audio for the January
21 day of trial. Rule 24 of the Tennessee Rules of
Appellate Procedure governs this issue. Rule 24 (b)
Tenn. R. App. P. provides that a transcript will be
prepared of a stenographic report or other
contemporaneously recorded evidence. In this case a
transcript was prepared and submitted. No objection
was filed with the clerk of the trial court within
fifteen days after service of notice of the filing of the
transcript. (Rule 24(b) Tenn. R. App. P.)
Rule 24(e) Tenn. R. App. P. provides that any
differences regarding whether the record accurately
discloses what occurred in the trial court shall be
submitted and settled by the trial court, and absent
extraordinary circumstances, the determination of
the trial court is conclusive. Here, the trial court is the

App. 101

Hearing Panel as it is the entity that heard the
evidence and conducted the trial.
In Antip v. Crilley, 688 S.W.2d 451 (Tenn. Ct.
App. 1985) a judgment was entered in favor of the
plaintiff. Defendant decided to appeal. The plaintiff
had engaged the services of a court reporter who had
taped the proceedings but had not transcribed the
proceedings. Appellant's counsel sought to have the
trial court order the tapes turned over to him. The
trial court denied the request. Each party then
submitted competing statements of evidence, and the
trial court rejected appellant's statement. On appeal,
the court stated that stenographers may err, and
tapes can be altered. However, when a dispute arises,
it is the trial judge who is the only one who can
resolve
such
issues
absent
extraordinary
circumstances, such as the death of the trial judge.
Antrip at 453.
Justice failed to timely object pursuant to
Rule 24-Tenn. R. App. P., and never lodged any
objection with the Hearing Panel (Trial Court) as
required. This issue is without merit.
Lack of Specificity in the Pleadings
Justice contends the Panel failed to plead in
its petition for discipline sufficient facts that put
him on notice of the alleged violations. Justice filed
a motion to dismiss or in the alternative for a more
definite statement and to compel. The Panel denied
his motion to dismiss and his motion for a more
definite statement, but granted in part his motion
to compel. Specifically, the Panel ordered the Board
to supplement his response to Respondent's
interrogatory number 6, requiring that it specify

App. 102

the specific time entries it contended were false.
The Board complied with the Panel's order and
identified the seventeen highlighted entries in its
supplemental response. This list was ultimately
admitted as Trial Exhibit 21. The Board correctly
points out that Justice's motion for a more definite
statement pursuant to Rule 12.05 of the Tennessee
Rules of Civil Procedure was moot since Justice had
already filed his answer.
Justice contends the Board failed to comply
with Rule 9.02 Tenn. R. App. P. in that the Board
failed to state with particularity its claim of fraud
against Justice. Supreme Court Rule 9 § 23.3
provides that the Tennessee Rules of Civil
Procedure apply unless otherwise provided for in
Rule 9. Section 8.2 of Rule 9 Tenn. Sup. Ct. R. sets
out the requirements for a petition. It provides that
the petition shall be sufficiently clear and specific
to inform the respondent of the alleged misconduct.
The Court finds Justice's reliance on Rule 9.02
Tenn. R. Civ. P. is misplaced. The Board's petition
for discipline is not a civil complaint alleging fraud.
In its petition, the Board alleged specific violations of
the Rules of Professional Conduct concerning fees,
candor toward the Tribunal, fairness to opposing
party and counsel, and misconduct. These were not
bare allegations. The petition set out the history of
Justice's conduct in the federal court case, Thomas v.
Lowes. The petition attached the Itemized Accounting
of Services filed by Justice that there were entries
which Justice alleged were his that were actually
performed by Kerschberg; that Justice testified
falsely before Judge Collier; that he kept
contemporaneous records of his time; and that his
Itemized Accounting of Services was grossly

App. 103

exaggerated and unreasonable. The Court finds the
petition sufficiently complies with Rule 9 § 8.2 Tenn.
Sup. Ct. R.
Sufficiency of Service
Justice raises three separate issues regarding
service. First he claims the Hearing Panel's findings
of fact and conclusions of law were not properly
served. Rule 9 § 8.3 Tenn. Sup. Ct. R. provides the
Hearing Panel shall submit its judgment to the Board
within fifteen days after the conclusion of its hearing.
The Board shall immediately serve a copy of the
judgment of the Hearing Panel upon the respondent
and the respondent's counsel of record. At the time of
the entry of the judgment, Mr. Pera was Justice's
counsel of record. Rita Web, the Executive Secretary
of the Board mailed a copy to Mr. Pera. Ms. Webb
apparently did not mail a copy directly to Justice.
Justice contends the failure of the Board to mail a
copy of the judgment directly to him requires a
dismissal of his case. Nothing in Rule 9 supports this
outcome. The purpose of requiring service of the
judgment is to make sure a respondent has adequate
notice of the judgment so that he may appeal if he is
dissatisfied. There is no doubt Justice had sufficient
notice of the judgment since he filed his petition for
writ of certiorari within the sixty day time
requirement. Thus, there was no prejudice to Justice.
Justice also contends he was not 'properly
served with the petition for writ of certiorari which
the Board filed. The Board's petition was filed in
Chancery Court on April 13, 2015. The petition
contains a certificate of service certifying it was
mailed to Mr. Pera on April 8, 2015. On that same
date, counsel for the Board emailed Mr. Pera

App. 104

inquiring if he would be accepting service of the
petition. When Mr. Pera did not respond to the April
8, 2015 email, counsel for the Board emailed him
again on April 28, 2015, once again inquiring as to
service. Mr. Pera responded on that day that he would
not accept service. As a result, counsel for the Board
requested the clerk and master on April 28, 2015 to
issue a summons for service on Justice. The summons
was issued on April 30, 2015 and was returned by the
sheriff on May 5, 2015. However, because the
summons was signed by someone other than Justice,
counsel for the Board issued an alias summons which
was personally served on Justice on July 23, 2015.
Justice contends the delay in serving him with
the Board's petition requires dismissal of the Board's
petition, citing Rule 4.01(3) Tenn. R. Civ. P. which
provides that if a party intentionally causes delay of
prompt issuance of a summons, the filing is
ineffective. The Court finds there is no evidence that
counsel for the Board intentionally delayed the
issuance of a summons. This issue is without merit as
is Justice's claim that the second summons form used
by the Board for the alias summons contained the
$4,000 personal exemption rather than the current
$10,000 personal property exemption.
III.
Sufficiency of the Evidence
Justice contends the Hearing Panel's findings of fact
were arbitrary and unsupported by the evidence.
Much of Justice's brief focuses on the testimony of Mr.
Kerschberg who was a paralegal working for Justice.
Mr. Kerschberg testified by deposition upon written
interrogatories. He submitted itemized statements for

App. 105

his services for work performed in the Thomas case
which Justice paid.Kerschberg testified he personally
performed the work itemized
in his invoices.
Although Kerschberg was working for Justice
during
much of the Thomas case, he had no
knowledge of Justice ever documenting the time that
Justice spent on the Thomas case.
Justice contends Kerschberg "recanted" in his
testimony before Judge Collier in the federal
disciplinary proceeding. In support of this position,
Justice cites the following exchange:
QUESTION: On the occasions when he
[Justice] sent you hand written
comments or gave you hand written
comments, did you ever take those hand
written comments and use them to
create the narrative entries on your
invoices?
ANSWER:·Yes. On some occasions, I
did.
Whether Kerschberg may have used hand written
comments from Justice on some occasions in creating
narrative entries on Kerschberg's invoices to Justice
does not come close to a repudiation of Kerschberg's
testimony that he performed all of the work which he
submitted on his invoices and for which he was paid.
Justice's contention that this testimony supports a
conclusion that Kerschberg copied Justice's time
entries on the seventeen entries found by the Panel,
is a non sequitur.
Justice also cites the testimony of
Kerschberg “if Loring Justice did other work that
could also be described by these entries, but without

App. 106

me there, there is no way that I could know that.”
This testimony tends to bolster Kerschberg's
credibility rather than impeach it as contended by
Justice.
Justice contends the testimony of Chad
Rickman completely contradicted Kerschberg. Mr.
Rickman is an attorney who began practicing with
Justice in 2010. He first worked on the Thomas v.
Lowes case beginning in July 2010, when Justice told
Rickman to start keeping his time. Rickman recorded
his time on a legal pad which he then transmitted to
staff members to enter into the Word document.
However, the first time Rickman ever saw the Word
document was after they received the order from the
district court awarding fees and expenses. Rickman
believed the district court order allowed them to
recover fees back to the Rule 26 discovery
conference. He discussed the Chamberlain case
regarding the overlapping of time with Justice and
attempted to delete those entries. Rickman did admit
members of the firm did not keep records of their time
in representation of their clients except on this one
occasion. Rickman also confirmed their intention to
give their client, Mr. Thomas any of the fees which
they expected to receive from the district court.
The Panel correctly observed that Rickman
was not working for Justice in 2009, and there were
no independent records of Justice's time available at
the time the fee petition was drafted. Therefore,
Rickman was in no position to determine the accuracy
of Justice's entries. Although Rickman testified he
personally
worked
on.the
preparation
and
itemization of entries on the fee petition on many
occasions, there is not a single entry claiming

App. 107

Rickman actually worked on the itemized fees and
expenses submitted with the fee petition. Rickman's
testimony regarding the scope of the district court's
order of fees was identical to Justice's. The Panel
concluded nothing contained in Judge Phillip's order
would lead a reasonable attorney to believe that they
were entitled to request Lowes to pay for work such
as attending Rule 26 conferences, drafting initial
discovery, amending the complaint or reviewing hotel
reservations. This Court agrees. Likewise, the Panel
found both Rickman and Justice's testimony that Mr.
Thomas was to receive any fee awarded unbelievable
and illogical.
The findings of the Hearing Panel leave no
doubt that it found Rickman' s testimony not to be
credible. The weight, faith and credit to be given to a
witness' testimony lies with the trial court in a nonjury case where there is an opportunity to observe the
manner and demeanor of the witness during their
testimony. Roberts v. Roberts, 827 S.W.2d 788, 795
(Tenn. Ct. App. 1991). Thus, credibility findings and
the Hearing Panel's weighing of evidence on questions
of fact are binding on a reviewing court unless those
findings are unsupported by the evidence in the
record. Maddox v. Bd. of Prof 1. Responsibility, 409
S.W. 3d 613, 621 (Tenn. 2013). The Court finds the
evidence in this case does not preponderate against
the findings of fact by the Hearing Panel regarding
the testimony of Kerschberg and Rickman.
Justice's next issue is that the Panel erred in
refusing to allow Justice to introduce the declaration
of his computer expert, Yalkin Demirkaya which was
filed in the federal case before Judge Collier. Justice
contends that the Board "opened the door" during its

App. 108

opening statement. Even if evidence is inadmissible,
a party may "open the door" to admission of that
evidence when that party introduces evidence or
takes some action that makes admissible evidence
that would have previously been inadmissible. State
v. Gomez, 367 S.W.3d 237, 246 (Tenn. 2012) (citing 21
Charles Alan Wright, Federal Practice and Procedure
§ 5039 (2nd Ed. 1987). Opening statements are
outlines of what attorneys expect the evidence to be.
These statements are made only to assist the trier of
fact in understanding the evidence that will be
presented. Opening statements are not evidence, and
the Board did not "open the door."
Next, Justice cites the rule of completeness
found in Rule 106 Tenn. R. of Evidence. Rule 106
provides that when a writing or recorded statement or
part thereof is introduced by a party, an adverse party
may require the introduction at that time of any other
part or any other writing or recorded statement which
ought in fairness to be considered contemporaneously
with it. In this case, Respondent sought to introduce
the declaration of his computer expert, Mr.
Demirkaya based upon the Board;s submission of
Respondent's prior testimony in district court. There
are no cases to suggest Rule 106 should be read this
broadly. Moreover, it does not appear Rule 106 will
affect the admissibility of evidence, only the timing of
the evidence. Mr. Demirkaya's declaration is hearsay
and inadmissible. United States v. Kostner, 684 Fed.
2d 370, 373 (6th Cir. 1982). The rule contemplates a
high degree of discretion to be exercised by the trier
of fact. There is no error in the Panel's exclusion of
this evidence.
Finally, Justice claims that the email from

App. 109

Justice to Kerschberg (Exhibit 23) was admitted for
identification only and never received into evidence.
This is a misstatement of the evidence. Initially, the
exhibit was pre-marked for identification purposes.
However, the Chair of the Panel later stated Exhibit
23 was admitted, and there was no objection by
counsel for Justice.
The Hearing Panel found that Justice made
the following statements to Judge Collier in the
federal court proceeding which were false and that
Justice knew they were false:
1.

He did not wrongly attribute any work
to himself in the fee petition that had
actually been performed by
Kerschberg.

2.

He made no false certifications or false
statements· in the fee petition.

3.

He personally worked the time
attributed to him in the fee petition.

4.

He recorded his time and activities in a
Microsoft Word document or on a note
pad from which they were recorded in
that Microsoft Word document later.

5.

He recorded his time and activities
within approximately one week.

This Court finds that the record fully supports
each of the findings of the Hearing Panel which are
affirmed.
The Board's Writ of Certiorari
The Board also appealed the Hearing Panel's
decision. It raised a single issue, whether the sanction

App. 110

of suspension was arbitrary and an abuse of its
discretion. The Panel concluded Justice violated the
following Rules of Professional Conduct:
1.

That the fee petition submitted by
Justice to the district court was
unreasonable and greatly exceeded the
time and labor required to locate and
depose the witness.

2.

That Justice adopted work actually
performed by Kerschberg as work
performed by himself in the fee petition
that was submitted to the federal court
under oath.

3.

That Justice testified falsely in the
show cause hearing before Judge
Collier by a) making false certifications
or statements in his fee petition; b) that
he personally worked the time
attributed to him in the fee petition; c)
that he recorded his time activities in a
Microsoft Word document close in time
to the work being performed.

The Panel then considered aggravating and
mitigating circumstances from which it concluded
that Justice should be suspended from the practice of
law for a period of one year.
The Board argues the Hearing Panel applied
ABA Standards that are not supported by the
evidence and the Panel's findings. 3 Rather than the
suspension issued by the Hearing Panel, the Board
The Hearing Panel failed to articulate any standards in its
Judgment.

3

App. 111

submits that the application of the correct ABA
Standards, along with the aggravating and mitigating
factors, warrants disbarment from the practice of
law. In order to determine the appropriate discipline
in a given case, the Court looks to the ABA Standards
for Imposing Lawyer Sanctions. Maddux, 409 S.W. 3d
at 624. These standards act as·a guide rather than
rigid rules, thereby providing courts with discretion
in determining the appropriate sanction for a lawyer's
misconduct. Maddux, 409 S.W. 3d at 624. The ABA
Standards specify that when imposing a sanction, the
court should consider:
1) What ethical duty did the lawyer violate
(a duty to a client, the public, the legal
system, or the profession?); 2) What was the
lawyer's mental state? (Did the lawyer act
intentionally, knowingly, or negligently?); 3)
What was the extent of the actual or potential
injury caused by the lawyer's misconduct?
(Was there a serious or potentially serious
injury?); and 4) Are there any aggravating or
mitigating circumstances?
Id. (quoting ABA's Standards, theoretical
framework).
In this case, the Hearing Panel never
articulated the particular ABA Standard upon which
it based its sanction of suspension. The standards
which control for violation of duties owed to the public
and duties owed to the legal ystem are found in 5.0
and 6.0 respectfully. ABA Standard 5.11 provides
that:
when:

Disbarment is generally appropriate

App. 112

a.

A lawyer engages in serious
criminal
conduct,
a
necessary
element
of
incudes
intentional
interference
with
the
administration of justice.
false
swearing,
misrepresentation, fraud,
extortion,
misappropriation, or theft
... or

b.

A lawyer engages in any
other intentional conduct
involving dishonesty, fraud,
deceit,
or
misrepresentation
that
seriously adversely reflects
on the lawyer's fitness to
practice.

ABA Standard 6.11 provides that:
Disbarment is generally appropriate
when a lawyer, with the intent to deceive
the court, makes a false statement,
submits a false document, or improperly
withholds material information, and
causes serious or potentially serious
injury to a party, or causes a significant
or potentially significant adverse effect
on the legal proceeding.
The first question is what ethical duty did
Justice violate? The first violation found by the Panel
regarding fees does not apply to ABA Standard 5.11.
However, the Panel went on to find Justice violated

App. 113

Rule 3.3 pertaining to candor toward the tribunal
when he submitted a false fee petition to the federal
court under oath and when he testified falsely in the
show cause hearing before Judge Collier. The Court
finds these violations could fall under ABA Standard
5.11(b). Here, Justice intentionally submitted a false
fee petition in which he represented he was entitled
to be paid for work he did not perform, and he
continued to perpetrate his misrepresentation by
testifying falsely in front of Judge Collier. Whether
ABA Standard 6.11 is applicable is a more difficult
question. Although Justice did intend to deceive both
Judge Phillips and Judge Collier, made false
statements, and submitted a false document, there
was no serious injury to Lowes. In addition, it was
Lowes' misconduct by failing to disclose the identity
of a material witness in the underlying case, that lead
to the discovery sanction in the first place. The Court
finds that ABA Standard 6.11 is not applicable.
Here, the Panel failed to identify the specific
duties violated by Justice and articulate the relevant
ABA Standards. Maddux at 624. Pursuant to
Maddux, the findings by the Panel require a
conclusion that Justice acted intentionally to deceive
both Lowes and the Federal District Court. This type
of conduct by an offi er of the court goes to the
foundation of our system of justice. Therefore, the
presumptive sanction is disbarment pursuant to ABA
Standard 5.1 l(b).
The Panel identified six aggravating factors
and two mitigating factors. The record supports the
six aggravating factors found by the Panel and the
two mitigating factors. This Court is reluctant to
impose the sanction of disbarment upon a lawyer with

App. 114

no prior disciplinary offenses. The comments to ABA
Standard 5.11 state "in imposing final discipline in
such cases, most courts impose disbarment of lawyers
who are convicted of serious felonies." However, the
intentional deceit by Justice on the opposing party,
Judge Phillips and Judge Collier, along with the
refusal to acknowledge the wrongful nature of his
conduct and the total lack of remorse, leaves this
Court with no alternative. The Respondent, Loring
Edward Justice shall be disbarred.
CONCLUSION
The findings of fact and conclusions of law by
the Hearing Panel regarding the misconduct of the
Respondent are affirmed. The sanction imposed by
the Hearing Panel is reversed. Mr. Justice is
disbarred from the practice of law.
It is so ORDERED.

App. 115

_______________
APPENDIX D

_______________
IN DISCIPLINARY DISTRICT II
OF THE
BOARD OF PROFESSIONAL RESPONSIBILITY
OF THE SUPREME COURT OF TENNESSEE
IN RE:

Loring Edwin Justice
BPR # 19446, Respondent
An Attorney Licensed to
Practice Law in Tennessee
(Knox County)
Docket No. 2013-2254-2-WM
Issued: March 9, 2015

FINDINGS OF FACT AND CONCLUSIONS OF
LAW AND JUDGMENT OF THE HEARING
PANEL
This matter came to be heard on January
20 through January 23, 2015 before a Hearing
Panel of the Board of Professional Responsibility of
the Supreme Court of Tennessee consisting of
Alyson A. Eberting, Timothy C. Houser and
Michael J. King (Chair). Upon the conclusion of the
testimony on January 23, 2015, the hearing was
adjourned to provide the parties an opportunity to
submit proposed findings of fact and conclusions of
law. The parties submitted their proposals on

App. 116

February 20, 2015 at which time the hearing was
concluded.
The Panel was convened based on a Petition
for Discipline filed by the Board, by and through
disciplinary counsel. The Board alleges that the
Respondent Loring Edward Justice (hereinafter
"Justice") submitted false time entries for a fee
application in the case of Thomas v. Lowes, Inc. in
the United States District Court for the Eastern
District of Tennessee, and that the time entries
were false because Justice misappropriated the
time entries of his paralegal contractor Benjamin
Kerschberg (hereinafter "Kerschberg") as his own.
The Board claims that the submission of these false
entries constitutes a violation of Tennessee Rules of
Professional Conduct 3.3(a) (1), 3.4(b), 8.4(a), and
8.4(c). The Board also alleges that Justice made a
false written representation to the court in Thomas
concerning the time records kept by his firm and
that Justice falsely testified in a federal lawyer
disciplinary proceeding arising out of the fee
application. The Board contends these actions are
in violation of Tennessee Rules of Professional
Conduct 3.3(a)(l), 3.4(b), 8.4(a), and 8.4(c). Finally,
the Board alleges that fees requested by Justice in
the Thomas fee application were unreasonable
because they greatly exceeded the scope of the
court's order that awarded fees as a discovery
sanction. The Board alleges this claim for fees
constitutes a violation of Tennessee Rules of
Professional Conduct 1.5(a) and 8.4(a).
I.

STATEMENT OF THE CASE
1.

The Petition for Discipline was filed in
this matter on September 25, 2013.

App. 117

2.
Respondent, through his counsel,
timely filed a Motion for Extension to Respond or
for Alternative Relief on October 15, 2013.
Petitioner filed a response to this Motion on
October 15, 2013 and the Motion was granted by
the Chair of the Board of Professional
Responsibility on the same date pem1itting the
Respondent up and through November 29, 2013 to
file a response.
3.
The
Respondent
filed
an
Answer/Response to the Petition and a Motion to
Dismiss or in the Alternative to Stay the
Proceedings on December 3, 2013. The Board filed
a response to the Respondent's Motion to Dismiss
or in the Alternative to Stay on December 9, 2013.
The Panel denied Respondent's Motion to Dismiss
or in the Alternative to Stay.
4.
On June 6, 2014 the Petitioner filed a
Motion to Dismiss Petition for Discipline or, in the
Alternative, for a More Definite Statement and to
Compel and for Protective· Order. On June 16, 2014
the Board filed a Response to said Motion. The
Panel denied the Motion to Dismiss, Motion for
More Definite Statement and Motion for Protective
Order. The Panel granted Respondent's Motion to
Compel in part and ordered the Board to
supplement
its Response to Respondent's
Interrogatory No. 6 by October 15, 2014 specifying
the time entries it contended were false entries.
5.
On November 19, 2014 Benjamin
Kerschberg, a witness in the case filed a Motion for
Protective Order with the Panel. The Panel denied
the motion by stating it did not have jurisdiction to
rule on the request and informed the attorney for

App. 118

the witness and the parties that such a motion
needed to be filed with the appropriate Court. The
witness refiled the Motion for Protective Order,
with the Knox County Chancery Court. The
Chancery Court granted the motion in part and
denied the motion in part.
6.
On December 11, 2014 the Board filed
a Motion to Compel Respondent to give a deposition
after Respondent informed the Board that he
intended not to testify and exercise his right
against self-incrimination. On December 22, 2015
Respondent filed a Response to the Motion to
Compel and Motion to Dismiss on the grounds that
the Board violated Respondent's rights under the
United States and Tennessee Constitutions due to
improper commentary by the Board to the Panel
concerning Respondent's exercise of bis right
against self-incrimination. On January 5, 2015 the
Panel granted the Motion of the Board to compel
Respondent
to
give
his
deposition. The
Respondent's Motion to Dismiss was denied.
7.
Both the Board and the Respondent
filed various Motions in Limine regarding the
introduction of testimony and exhibits. The rulings
on those Motions are found in the Record.
8.
The case was tried before the hearing
Panel commencing on January 20, 2015 and
adjourning on January 23, 2015. The parties were
directed to submit proposed findings of fact and
conclusions of law by not later than February 20,
2015.
II.

FACTS
A.

BACKGROUND

App. 119

9.
Justice is an attorney licensed to
practice law in Tennessee since 1998. At all times
material hereto, Justice practiced law as Loring
Justice, PLLC. Justice employed Benjamin
Kerschberg as a contract paralegal between May
and September of 2009. Kerschberg submitted biweekly invoices from BK Advisory Group, LLC to
Loring Justice, PLLC for his work on behalf of
Justice.
10. Justice represented the plaintiff,
Scotty Thomas ("Thomas") in the case of Thomas v.
Lowe's, Inc. in the United States District Court for
the Eastern District of Tennessee. Justice was
representing the plaintiff for a contingency fee. On
June 21, 2005, Thomas was employed by a
contractor and was working on the premises of a
Lowe's, Inc. ("Lowe's") store, when a large bay of
metal roofing sheets collapsed on his head, causing
various injuries. Lowe's denied liability. In
addition, Lowe's denied any knowledge of Thomas'
presence in the store, denied having any knowledge
or records regarding the incident on its premises,
and denied knowledge of the remerchandising
project on which Thomas was working. Three years
into the litigation, Justice and his staff found a
former Lowe's Hum.an Resources Manager, Mary
Sonner, who was present when the incident
occurred. She remembered the incident, confirmed
that it occurred, remembered Thomas and his
injuries, and remembered that she transported him
to an urgent-care clinic.
11. Justice filed a motion for sanctions
asserting that Lowe's had engaged in misconduct
regarding its discovery obligations. A memorandum

App. 120

and order was entered by Judge Thomas W. Phillips
on March 15, 2011 which provided that Lowe's
would pay the plaintiff all reasonable attorney’s
fees and expenses incurred in locating and deposing
Mary Sonner. Specifically, the Order provided:
Defendant shall pay Plaintiff all
reasonable
attorney's
fees
and
expenses incurred in locating and
deposing Ms. Sonner, including
attorney's fees, transcription costs,
court reporter fees, and other costs.
Plaintiff must provide documentation
evidencing the fees, expenses, and
costs incurred, associated with the
discovery of Ms. Sonner.
12. On April 11, 2011 Justice submitted a
preliminary fee petition to the Court. Included with
the fee petition was an Itemized Accounting of
Services wherein he set out, under penalty of
perjury, the fees and expenses being sought by
Loring Justice, PLLC.
13. On April 22, 2011, Justice submitted
the final version of the fee petition which included
an Itemized Accounting of Services wherein he set
out in amended fashion, and again under penalty of
perjury, the fees and expenses being sought by
Loring Justice, PLLC.
14. Justice sought an award in the
amount of $106,302.00 for fees and expenses. The
fee petition included 325.5 hours at the rate of $300
per hour for the services of Justice and 11.3 hours
at the rate of $90 per hour for the services of

App. 121

Kerschberg.
15. With respect to both the original April
11, 2011 fee petition and the revised April 22, 2011
fee petition, Justice asserted to the Federal Court,
under oath, that he maintained records for the
work performed on behalf of the plaintiff.
16.
As a result of Mr. Justice's fee
petition, a show cause hearing was held before the
Hon. Curtis Collier, Chief Judge of the United
States District Court for the Eastern District of
Tennessee, beginning on February 17, 2012, Mr.
Justice testified at that hearing under oath. During
the hearing, Justice claimed he did not wrongly
attribute work done by Kerschberg to himself, he
made no false certifications or false statements in
the fee petition; he personally worked the time
attributed to him in the fee petition; he recorded his
time and activities in a Microsoft Word document
or on a notepad from which they were subsequently
recorded in that Microsoft Word document; and
that he recorded his time and activities within
approximately one week of the time the work was
performed.
B.

TIME RECORDING PRACTICES
AT LORING JUSTICE, PLLC

17.
Loring Justice, PLLC does almost all
contingency fee work, rarely bills hourly, and does
not employ a more formal legal billing or
timekeeping program.
18.
Justice testified that at approximately
the time of the Rule 26(f) discovery conference on
December 10, 2008 he began keeping a record of his

App. 122

time and activities in the Thomas case. 1 Justice
testified he sometimes -wrote the entries on paper
and later put them into the Word document. Justice
did not produce any of the hand-written time
records he purports to have made.
19.
Justice testified that around the time
of the Rule 26(f) conference, he directed all
employees of Loring Justice, PLLC to maintain a
record of their time and activities performed in
Thomas.
20.
Justice testified that he maintained
his time in a Word document. Justice does not recall
the name of the document.
21.
Justice testified that Microsoft Word
was also used to record time and activities of other
employees of Loring Justice, PLLC.
22.
In responding to the show cause order,
Justice caused his office computers to be searched
for earlier versions of the fee petition. One version
of the document was located by Mr. Justice which
originated in April of 2011. (Exhibit 7) Three
additional versions were located by an outside
computer consultant. These three versions also
originated in April of 2011. (Exhibits 8-10) No version
of the Microsoft Word document existing before Judge
Phillips' March 15, 2011 memorandum and order was
produced.
C.

COMPARISON OF FEE PETITION

The references to Justice's testimony come from his testimony
at the hearing before the panel on January 23, 2015 unless
otherwise noted.
1

App. 123

AND KERSCHBERG INVOICES
23. The Board alleged that seventeen
specific time entries contained on Justice's fee petition
were false. The Board asserts that on the specified
entries, Justice claimed work performed by his
paralegal Kerschberg as his own. The 17 entries on
the fee petition where Justice claims to have
performed the work are identical or nearly identical to
the entries on the bills submitted by Kerschberg to
Justice for work Kerschberg performed;
24.

25.

June 13, 2009:
a.

Kerschberg billed Justice for 1.25
hours for "Revision of Motion to
Have Requests for Admission
Deemed Admitted."

b.

Justice's Itemized Accounting of
Services contains a billing entry
for Justice for 1.2 hours for
"Revision of Motion to Have
Requests for Admission Deemed
Admitted."

June 14, 2009:
a.

Kerschberg billed Justice for 2.25
hours for 'Added Loring edits to
Motion to Deem Requests for
Admissions admitted. Added
section about Letter to Clint
Woodfin
and
Motion
to
Supplement.
Researched
electronic filing rules for the E.D.
Tenn.
Researched
proper
procedure for filing Amended
Complaint
(Local
Rules;

App. 124

Scheduling Order; FRCP)."
b.

26.

Justice's Itemized Accounting of
Services contains a billing entry
for Justice for 2.2 hours for
''Edits to Motion to Deem
Requests
for
Admissions
admitted. Added section about
Letter to Clint Woodfin and
Motion
to
Supplement
Researched electronic filing
rules for the E.D."

June 16, 2009:
a.

Kerschberg billed Justice for
2.5 hours for "All final
preparations
of
Amended
Complaint and Motion to Deem
Requests
for
Admissions
Deemed
Admitted.
Preparation
of
all
PDF
exhibits. Compilation of files.
Filing with E.D. Tenn. via
ECF. Hard copies of everything
for file."

b.

Justice's Itemized Accounting
of Services contains a billing
entry for Justice for 2.5 hours
for "All final preparations of
Amended
Complaint
and
Motion to Deem Requests for
Admissions Deemed Admitted.
Preparation
of
all
PDF
exhibits. Compilation of files.
Filing with E.D. Tenn. via

App. 125

ECF. Hard copies of everything
for file."
27.

28.

29.

June 16, 2009:
a.

Kerschberg billed Justice for
3,0 hours for "Edited Motion to
Compel
Discovery
and
Memorandum
in
Support
thereof prepared by Juliane
Moore."

b.

Justice's Itemized Accounting
of Services contains a billing
entry for Justice for 3.0 hours
for "Preparation and editing of
Motion to Compel Discovery
and Memorandum in Support
partially prepared by legal
assistant."

June 17, 2009:
a.

Kerschberg billed Justice for
4.0 hours for "Continued to
revise and rewrite Motion to
Compel Discovery."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 4.0 hours for
"Continued to research, revise
and rewrite Motion to Compel
Discovery."

June 17, 2009:
a.

Kerschberg billed Justice for
1.0 hours for "Talked to Angela
Brush at district court to

App. 126

correct misunderstandings re
our
filings.
Second
conversation with LJ about
Consent Motion to Amend with
Clint
Woodfin.
Drafted
Consent Motion for review by
Clint Woodfin.”
b.

30.

31.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 1.0 hours for "Talked
to Angela Brush at district court
to correct misunderstandings re
our filings."

June 18, 2009:
a.

Kerschberg billed Justice for 4.5
hours for ''Motion to Compel
Discovery."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 4.5 hours for
"Continued research, revision
and refinement of Motion to
Compel Discovery."

June 19, 2009:
a.

Kerschberg billed Justice for .5
hours for "Letter to Bob Davies
regarding additional materials
needed from MSG."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for .5 hours for "Letter
to
Bob
Davies
regarding

App. 127

additional materials needed
from MSG about the project."
32.

33.

July 16, 2009:
a.

Kerschberg billed Justice for
.25 hours for "Reviewed
Loring's notes from meeting
with Clint Woodfina (sic) and
calendared follow-up call to
Cory re: Clint's call."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice
for .2 hours for
"Reviewed notes from meeting
with
Clint
Woodfin
and
calendared follow-up call to
Cory Kitchen re: Clint's call."

July 22, 2009:
a.

Kerschberg billed Justice for
July 22, 2009 for 5.0 hours for
"Drafted and typed memo for
trip to Alabama."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 5.0 hours for
"Drafted and typed memo for
trip to Florence, Alabama to
meet with Plaintiffs MSG coworkers.
This
memo
summarized the liability issues
in the case and listed important
questions to ask to try to
understand whether it was
plausible Lowe's could lack

App. 128

notice and to prove Lowe's
indeed had notice and to gain
physical
descriptions
of
individuals of interest."
34.

July 27, 2009:
a.

Kerschberg billed Justice for
4.5 hours for "Reviewed all
notes from our trip to Alabama
and compiled Master To-Do
List for Loring and BG. Drafted
Affidavits of Kitchen, Yeates,
and McBride. Online -research
re: Teresa Beavers (Lowe's
Manager)."

b.

Justice's preliminary Itemized
Accounting
of
Services
contains an entry for Justice
for 4.5 hours for "Reviewed all
notes from our trip to Alabama
to meet with the MSG witnesses
and compiled Master To-Do List
for Loring and B. Griffith,
summer
clerk.
Drafted
Affidavits of Kitchen, Yeates,
and McBride. Online research
re: Teresa Beavers (Lowe's
Manager)."

c.

Justice's
final
Itemized
Accounting of Services contains
an entry for Justice for 4.5 hours
for "Reviewed all notes from our
trip to Alabama to meet with the
MSG witnesses and compiled

App. 129

Master To-Do List. Drafted
Affidavits of Kitchen, Yeates,
and McBride. Online research
re: Teresa Beavers (Lowe's
Manager)," and deleting “for
Loring and B. Griffith, summer
clerk."
35.

36.

July 29, 2009:
a.

Kerschberg billed Justice for .25
hours for "Revisions of Affidavits
of
Kitchen,
Yeates,
and
McBride."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for .2 hours for "Revisions
of Affidavits of Kitchen, Yeates,
and McBride."

August 8, 2009:
a.

Kerschberg billed Justice for 4.0
hours for "Coordinated with Debi
Dean to make sure that Randy,
Bradley, and Corey will sign
Affidavits and get them back to
us notarized. Prepared final
versions with LJ edits. Two
versions for Bradley and Cozyone with and one without Teresa
Beavers. Researched FRCP and
EDTN Rules re; timeliness of
Notice of Filing with respect to
Hearing Date. Drafted Notice of
Filing. Drafted Memorandum to
accompany Notice of Filing with

App. 130

the court this week."
b.

37.

38.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 3.0 hours for
"Coordinated with Debi Dean of
Alabama
Head
Injury
Foundation to make sure that
Randy, Bradley, and Corey will
sign Affidavits and get them
back to us notarized. Reviewed
FRCP and EDTN Rules re;
timeliness of Notice of Filing
with respect to Hearing Date.
Drafted
Notice
of
Filing.
Drafted
Memorandum
to
accompany Notice of Filing with
the court this week"

August 10, 2009:
a.

Kerschberg billed Justice for .5
hours for "Coordination of all
Affidavit signings, etc. with
Debi Dean."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice
for .5 hours for
"Coordination of all Affidavit
signings, etc. with Debi Dean."

August 27, 2009:
a.

Kerschberg billed Justice for
5.0 hours for “ Reviewed file
and all FRCP related to

App. 131

discovery to look at options and
obligations
for
supplementation before the
September 14 hearing, as well
as the possibility of fee
shifting.”
b.

39.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 5.0 hours for
"Reviewed file and all FRCP
related to discovery to look at
options and obligations for
supplementation before the
September 14 hearing, as well
as the possibility of fee shifting
and sanctions."

August 31, 2009:
a.

Kerschberg billed Justice for
2.0 hours for "Prepared outline
for Loring as to action plan
before September 14 hearing.
Researched Lowe's Loss/Safety
Prevention Manager. Drafted
proposed Interrogatory re:
iinformation (sic) on who held
that position at the time of the
accident.
Revised
and
prepared cover letters to Clint
Woodfin and Clerk's office."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice for 2.0 hours for
"Prepared outline as to action

App. 132

plan before September 14
hearing. Researched Lowe's
Loss/Safety
Prevention
Manager. Drafted proposed
Interrogatory re: information on
who held that position at the
time of the accident. Revised
and prepared cover letters to
Clint Woodfin and Clerk's
office.''
40.

September 9, 2009:
a.

Kerschberg billed Justice for
1.25 hours for "Reviewed our
initial
disclosures
and
discovery responses to see what
needs to be supplemented.
Reviewed all supplemental
materials provided by Clint
Woodfin. Detailed email to
Loring reviewing thoughts on
the supplemental documents
and possible RFPs."

b.

Justice's Itemized Accounting of
Services contains an entry for
Justice
for 1.2 hours for
"Detailed email to file and staff
after reviewing supplemental
documents of defendant and
possible RFPs. Google search for
the two other female managers
mentioned by Clint Woodfin.”

41. Justice testified that on the 17 time
entries at issue, he personally worked the time

App. 133

reflected in those entries and he did the work
reflected in those time entries. Justice testified
that he typically documented his time within
seven to ten days of the work being performed.
D.

JUSTICE'S TESTIMONY
REGARDING THE TIME ENTRIES
IS NOT CREDIBLE

42. With respect to each of the seventeen
entries, Justice claimed he worked the amount of
time reflected on the fee petition or more. The Panel
finds his testimony in this regard is not credible.
43. Justice wrote Kerschberg acknowledging
he had claimed time on the fee petition for himself
that was work Kerschberg had actually done.
Specifically, on April 11, 2011, Justice wrote an
email to Kerschberg, that stated, "I billed a lot of
the time for my reading your work rather than you
doing it so you won't have to testify if it comes to
that." (Exhibit 23). None of the time entries on the
fee petition describe activities where Justice "read '
Kerschberg's work.
44.
Justice testified that the email to
Kerschberg reflects the "Chamberlain" principle
that Justice applied to entries on the fee petition
where multiple attorneys or paralegals worked on
the same task. For the most part, where two or
more persons performed the same task, Justice
claimed the amount placed on the fee petition was
based on the "highest billing attorney, lowest
amount spent by anyone on a duplicative project."
Justice's claim that this email was his way of telling
Kerschberg
that
he
was
applying
the
"Chamberlain" principle is not plausible.

App. 134

45. The
email
contains
no
acknowledgement that Justice had performed the
work. The email did not reference Chamberlain.
Kerschberg had graduated from Yale Law School
with Justice and clerked for Judge Gilbert Meritt
on the Sixth Circuit Court of Appeals. Time entries
reference Kerschberg spent time to "moot'' Justice
in preparation for hearings and performing
complicated legal work. If Justice intended to
communicate to Kerschberg, a knowledgeable and
well-trained paralegal an intention to apply a legal
principle such as "Chamberlain", he would not have
told Kerschberg that Justice billed for ''reading”
Kerschberg's work.
46. Justice
provides
different
and
contradictory reasons why the entries on the fee
petition and Kerschberg bills were identical. He
asserts that Kerschberg may have copied Justices
entries. He asserts that his staff may have mistakenly
entered the time. He asserts that the persons
assisting in preparing the fee petition made mistakes,
including his associate, Chad Rickman. ("Rickman")
He asserts that errors on the petition may have
resulted from inadvertent computer errors. In short,
while offering numerous theories, Justice cannot
provide any definitive explanation as to why entries
attributed to him are identical (or nearly identical) to
the entries on Kerschberg' s time records.
47. Justice claims that it was not improper
for his office to copy Kerschberg' s language from the
Kerschberg invoices on to the fee petition. Specifically,
Justice argues if the time in Justice's entries was
worked by Justice and the tasks described in them
were performed by Justice, then similarity of

App. 135

language is no ethics violation. Justice further asserts
if a lawyer in Justice's position had intentionally
copied another timekeeper's language used in time
entries (and Justice has testified that he did not), that
conduct would violate no ethics rule, if the copying
lawyer worked the time and did that task described.
The panel agrees with these assertions.
48. However, Kerschberg's billing records
were sent to Loring Justice PLLC at or near the
time Kerschberg's time was recorded. Loring
Justice PLLC paid the invoices. At the time the
invoices were paid, Justice did not question
whether Kerschberg performed the work. The
Panel finds that based on the evidence presented,
Kerschberg actually performed the work set forth on
his invoices.
49. With respect to the same descriptions
and time entries being placed on the fee petition
and credited to Justice, there is no independent
proof that Justice also performed the same work for
the same amount for time.
50. Justice was asked whether any of the
17 identical or nearly identical entries on the
Kerschberg bills were incorrect or inaccurate. With
minor exceptions, Justice did not find Kerschberg' s
entries were incorrect or inaccurate. Instead,
Justice asserted he and Kerschberg were
performing the same or similar work at the same
time including clerical tasks such as making copies.
This explanation is also not plausible.
51.
Justice testified that Rickman was
"primarily” responsible for the itemization of
entries on the fee petition. Given that Rickman was

App. 136

not working at Loring Justice, PLLC in 2009 and
there were no independent records of Justice's time
available at the time the fee petition was drafted,
Rickman could not determine the accuracy of
Justice's entries. Moreover, entries on the fee
petition itself claim Justice worked on the
itemizations on the fee petition. There is not a
single entry claiming Rickman actually worked on
the itemized fees and expenses submitted with the
fee petition.
52.
Justice testified the document that
later became the fee petition evolved over time and
that various timekeepers input their time into the
document. Rickman testified that while Justice told
him that Justice was keeping time, the first time
Rickman saw the document that later became the
fee petition was after the order from the Court
awarding fees was issued in March 2011.
53. The credibility of Justice's testimony
regarding his work is further called into question
by his demeanor on the witness stand. Questions
from the panel to Justice were often met with
lengthy periods of silence prior to answering the
question. Justice's answers to other questions
posed by the Panel regarding the fee petition were
often evasive.
E.

MANY OF THE ENTRIES ON THE
FEE PETITION DO NOT RELATE
TO THE FEES APPROVED IN
THE COURT'S ORDER.

54. Judge Phillips' order provided the basis
for the recovery of fees against Lowe's due to discovery
abuse. The Order permitted plaintiff to recover "all

App. 137

reasonable attorney's fees and expenses incurred in
locating and deposing Ms. Sonner. . ." and required
Plaintiff "provide documentation evidencing the fees,
expenses, and costs incurred, associated with the
discovery of Ms. Sonner."
55. The Panel finds the Order was specific
and clear regarding the fees, costs, and expenses that
should be submitted by Justice. Only fees, costs, and
expenses that could be shown to relate to locating and
deposing of Ms. Sonner should have been submitted.
Even the most liberal reading of the Order required
that any fees, costs, and expenses submitted on the fee
petition must bear a relationship to the task of finding
Ms. Sonner and deposing her.
56.
Justice's Itemized Accounting of
Services contains numerous entries that did not relate
to locating or deposing the witness Mary Sonner.
Numerous additional entries do not explain how they
relate to locating or deposing Mary Sonner.
57.
Justice asserts that Justice and
Rickman each interpreted Judge Philips' order to
encompass more than just physically locating Ms.
Sonner and this interpretation was a reasonable one,
even if ultimately rejected by the court. Justice points
to the language of Magistrate Judge Guyton' s Report
and Recommendation that states, "The court finds
that the plaintiff should be compensated for the labor
and costs incurred in finding Ms. Sonner, because
these costs are necessitated by the defendant's failure
to properly investigate the allegations of the suit."
Both Justice and Rickman testified that when
reviewing both Judge Guyton's Report and
Recommendation and Judge Phillips' Order together,
they were permitted to submit fees beyond time spent

App. 138

locating and deposing Ms. Sonner.
58.
The Panel does not find that Judge
Guyton's Report and Recommendation changed,
modified or added anything to Judge Phillips'
Order. Moreover, nothing contained in Judge
Guyton's Report and Recommendation would lead
a reasonable attorney to believe that they were
entitled to request Lowe’s pay for tasks such as
attending Rule 26 conferences, drafting initial
discovery, amending the complaint or reviewing
hotel reservations.
59.
The Panel finds that the submission
of 371.50 hours of time and $106,302.00 of fees goes
well beyond the scope of the order and that Justice
knew he was requesting compensation for time not
related to "locating and deposing Mary Sonner."
60. The Panel further finds that with respect
to the 17 entries at issue, Justice knew that he was
representing to the Court that he had performed
work that was in fact performed in whole or in part
by other individuals and that he (a) did not perform
the work or (b) did not work the time that was set
forth on the fee petition.
61. In the fee petition, Justice attributed
work to himself that had actually been performed
by Kerschberg resulting in Justice requesting
compensation at the rate of $300 per hour instead
of $90 per hour.
62.
Justice gave a false statement under
oath in the fee petition in Thomas v. Lowe's, Inc. by
claiming that work actually performed by
Kerschberg was performed by himself.
63.

Justice claims he intended to give

App. 139

their client, Thomas, any fee awarded by the Court
as a result of the sanction motion. Justice provides
two reasons for giving any fee awarded to Thomas.
First, Justice testified case law prohibits him from
collecting a contingency fee and the fees awarded
by the Court as a result of the discovery sanction.
Second, Thomas needed it more.
64.
Rickman claimed that the Court's
order required that any fee awarded was required
to be paid to Thomas.
65.
The Panel finds this post-conduct
rationale that Thomas was to receive any fee award
as a basis for requesting in excess of $100,000 for
locating and deposing Ms. Sonner unbelievable.
The Order awarded Plaintiff "all reasonable
attorney's fees and expenses incurred." If the Order
was to be read literally (as Rickman purports to do),
Thomas would not be entitled to any.attorney fees.
Because the case was being handled on a contingent
fee, Justice recovered no fees unless he prevailed or
settled the case. At the time of the fee petition,
Justice had neither prevailed nor settled the case.
Accordingly, Thomas had not incurred any attorney
fees. 2
66.
Justice's assertion that he could not
keep any fees awarded by the Court because he was
working for Thomas pursuant to a contingency fee
contract is illogical. Nothing prevented Justice from
deducting the fees awarded by the Court from any fee
Justice collected if he prevailed or settled the matter.
The Panel acknowledges that Justice had advanced expenses
on behalf of Thomas. Justice testified that he intended to keep
any expenses awarded.

2

App. 140

67. Justice provided no proof (other than
the post-conduct testimony of Justice and Rickman)
evidencing an agreement or intent to give the fee
awarded by the Court to Thomas.
68.
For the same reasons set forth supra,
Justice's testimony regarding his intent to give the
fee award to Thomas is not credible.
69.
As. a result of Justice's fee petition, a
show cause hearing was held before the Hon. Curtis
Collier, Chief Judge of the United States District
Court for the Eastern District of Tennessee,
beginning on February 17, 2012, Justice testified at
that hearing under oath.
70.

Justice testified at that hearing to the
following:
a.

He did not wrongly attribute any
work to himself in the fee petition
that had actually been performed
by Kerschberg.

b.

He made no false certifications or
false statements in the fee
petition.

c.

He personally worked the time
attributed to him in the fee
petition.

d.

He recorded his time and
activities in a Microsoft Word
document or on a notepad from
which they were recorded in that
Microsoft Word document later.

e.

He recorded his time and
activities within approximately

App. 141

one week.
71. The Panel finds these statements made
to Judge Collier in the federal court proceeding were
false and that Justice knew they were false.
III.

CONCLUSIONS OF LAW

Pursuant to Tenn. S. Ct. R. 9, Section 3, the
license to practice law in this state is a privilege
and it is the duty of every recipient of that privilege
to conduct himself at all times in conformity with
the standards imposed up n members of the Bar as
conditions for the privilege to practice law. Acts or
omissions by an attorney which violate the Rules of
Professional Conduct ("RPC") of the State of
Tennessee shall constitute misconduct and be
grounds for discipline. The Board must prove the
allegations against Justice by a preponderance of
the evidence, Tenn. S. Ct. R. 9, Section 15.201).
The Board alleges the fees requested by
Justice in the fee application were unreasonable
because they greatly exceeded the scope of the
court’s order in violation of Tennessee Rule of
Professional Conduct l.5(a) and 8.4(a). The Board
claims the submission of false entries in the fee
petition constitutes violations of Tennessee Rules of
Professional Conduct 3.3(a)(l), 3.4(b), 8.4(a), and
8.4(c). The Board also alleges that Justice made a
false written representation to the court in Thomas
concerning the time records kept by his firm and
that Justice falsely testified in a federal lawyer
disciplinary proceeding arising out of the fee
application. The Board contends these actions
violate Tennessee Rules of Professional Conduct
3.3(a)(l), 3.4(b), 8.4(a), and 8.4(c).

App. 142

A.
a.

RULE 1.5: FEES
A lawyer shall not make an
agreement for, charge, or collect
an unreasonable fee or an
unreasonable
amount
for
expenses.

The Panel finds that the Board has proven
by a preponderance of the evidence that the fee
petition submitted by Justice to the District Court
requested an unreasonable fee. The fee sought
greatly exceeded the time and labor required to
locate and depose Ms. Sonner. By including
numerous items in the fee petition that far
exceeded the scope of the order awarding fees
reasonably incurred in locating and deposing Mary
Sonner, Justice charged an unreasonable fee in
violation of RPC l.5(a), Fees.
B.
a.

RULE 3.3: CANDOR TOWARD THE
TRIBUNAL
A lawyer shall not knowingly:
(1)

Make
a
false
statement of fact
or
law
to
a
tribunal…

The Panel finds that the Board has proven
by a preponderance of the evidence that Justice's
actions, including adopting work actually
performed by Kerschberg as work performed by
himself as set forth in the fee petition that was
submitted to the federal court under oath,
constitutes making a false statement of fact to a
tribunal in violation of RPC 3.3(a)(l), Candor
Toward the Tribunal.

App. 143

In addition, by testifying falsely in the show
case hearing before Judge Collier that he made no
false certifications or false statements in the Fee
Petition, personally worked the time attributed to
him in the Fee Petition, recorded ·his time activities
in a Microsoft Word document or on a notepad from
which they were recorded in the Microsoft Word
document later and that he recorded his time and
activities within approximately one week of the work
being performed constitute false statements of fact to
a tribunal in violation of RPC 3.3(a)(l), Candor Toward
the Tribunal.
C.

RULE
3.4:
FAIRNESS
TO
OPPOSING PARTY AND COUNSEL

A lawyer shall not:
a.

Falsify evidence, counsel or assist
a witness to offer a false or
misleading testimony...

The Panel finds that Board has proven by a
preponderance of the evidence that Justice's actions in
adopting work actually performed by Kerschberg as
work performed by himself was the falsification of
evidence and constitutes a violation of RPC 3.4(6),
Fairness to Opposing Party and Counsel.
D.

RULE 8.4: MISCONDUCT

It is professional misconduct for a
lawyer to:
a.

violate or attempt
to violate the Rules
of
Professional
Conduct,
knowingly assist or

App. 144

induce another to
do so, or do so
through the acts of
another;
c.

engage in conduct
involving
dishonesty, fraud,
deceit, or
misrepresentation.

The Panel finds the Board has proven by a
preponderance of the evidence that Justice's actions
including adopting work actually performed by
Kerschberg as work performed by himself, making
false statements in the fee petition, testifying falsely
at the show cause hearing and including numerous
items in the fee petition that far exceeded the scope
of Judge Phillip's order constitute violations of RPC
8.4(a) and (c), Misconduct.
E.

ADVERSE INFERENCE

The Board requested the Panel take an
adverse inference against Justice due to his
assertion of his right not to testify pursuant to the
5th Amendment of the United States Constitution
during his deposition. Justice objected to both the
Panel being informed that Justice was exercising
his 5th Amendment rights and the Board's request
that the Panel take an adverse inference.
While recognizing that the Tennessee
Supreme Court had called attorney disciplinary
proceedings "quasi-criminal" in nature, the Tennessee
Supreme Court and Tennessee Supreme Court Rule 9
recognize that these proceedings are civil cases. The
Tennessee Supreme Court outlined the parameters

App. 145

for when the trier of fact may draw an adverse
inference from a party's invocation of his Fifth
Amendment privilege in civil cases. In Akers v. Prime
Succession of Tennessee, Inc., 387 S.W.3d 495 (Tenn.
2012) the Court held:
[T]he trier of fact may draw a
negative inference from a party's
invocation of the Fifth Amendment
privilege in a civil case only when
there is independent evidence of the
fact to which a party refuses
to·answer by invoking his or her Fifth
Amendment privilege. In instances
when there is no corroborating
evidence to support the fact under
inquiry, no negative inference is
permitted.
In this case, the Board met its burden under
Akers that would have permitted the Panel to take
an adverse inference with respect to the questions
asked during the deposition. Nevertheless, the
Panel declines to take the adverse inference
requested by the Board. The Panel finds the Board
met its burden of proof based upon the exhibits, the
testimony of Justice and Rickman at the hearing
before the Panel, the testimony of Justice during
the federal show cause hearing and Kerschberg' s
deposition.
F.

AGGRAVATING AND MITIGATING
CIRCUMSTANCES

When

disciplinary

violations

are

App. 146

established by a preponderance of the evidence,
the appropriate discipline is to be determined
upon application of the ABA Standards for
Imposing Lawyer Sanctions ("ABA Standards"),
pursuant to Section 8.4, Rule 9 of the Rules of the
Supreme Court. The Panel finds the following
aggravating factors are present in this case:
1.

A dishonest or selfish motive;

2.

Pattern of Misconduct;

3.

Multiple offenses;

4.

Submission of false evidence, false
statements, or other deceptive
practices during the disciplinary
process;

5.

Refusal to acknowledge wrongful
nature of conduct; and

6.

Substantial
experience
practice of law.

in

the

The Panel finds the following factors in
mitigation are present:
1.
Absence
record; and

of

a

prior

disciplinary

2.
The imposition of other penalties or
sanctions, in the form of Chief District Court Judge
Collier's Order in the case of In re: Loring Justice
which suspended Respondent from the practice of
law in the United States District Court for the
Eastern District of Tennessee for a period of six (6)
months.
G.

SPECIFICATION OF DISCIPLINE

Pursuant to Rule 9, §8.4 of the Rules of the

App. 147

Supreme Court of Tennessee, having found one
or more grounds for discipline of the Respondent,
the Hearing Panel specifies the following
discipline as appropriate:
1.
That the Respondent, Loring Edwin
Justice, be suspended from the practice of law for a
period of one (1) year with proof of rehabilitation to
be demonstrated in a reinstatement proceeding
pursuant to Rule 9, §4.2 of the Rules of the Supreme
Court of Tennessee.
2.
That the Respondent, Loring Edwin
Justice, be required to complete twelve (12) hours
of continuing legal education approved for ethics, in
addition to any other continuing legal education
requirements, prior to reinstatement.
3.
That the costs of these proceedings be
taxed to the Respondent, Loring Edwin Justice.
IT IS SO ORDERED.

App. 148

_______________
APPENDIX E

_______________
IN THE SUPREME COURT OF TENNESSEE AT
KNOXVILLE
BOARD OF PROFESSIONAL
RESPONSIBILITY OF THE SUPREME COURT
OF TENNESSEE v. LORING EDWIN JUSTICE
Chancery Court for Knox County No. 189578-1,
189418-3
No. E2017-01334-SC-R3-BP

Issued: July 22, 2019
ORDER
On July 2, 2019, this Court filed an opinion
affirming the trial court’s decision disbarring attorney
Loring Edwin Justice. Thereafter, Mr. Justice sought
and obtained an extension of time to file a petition for
rehearing pursuant to Tennessee Rule of Appellate
Procedure 39. Mr. Justice timely filed his petition for
rehearing on July 19, 2019.
After careful consideration, the petition for
rehearing is DENIED. In accordance with Tennessee
Supreme Court Rule 9, section 18.5 (2013), Mr.
Justice’s disbarment shall be effective ten days after
the entry of this order. The provisions of this Court’s

App. 149

July 15, 2019 order granting Mr. Justice an extension
until August 2, 2019, to comply with Rule 9, section
18.1 and until August 7, 2019, to comply with Rule 9,
section 18.8 remain in effect.
It is so ORDERED.
PER CURIAM

App. 150

_______________
APPENDIX F
_______________
Tennessee Supreme Court Rule 9 (2012)
MISCONDUCT
Section 1. Jurisdiction
1.1. Any attorney admitted to practice law in this
State and any attorney specially admitted by a court
of this State for a particular proceeding is subject to
the disciplinary jurisdiction of the Supreme Court, the
Board of Professional Responsibility, the district
committees and hearing panels hereinafter
established, and the circuit and chancery court.
1.2. Nothing herein contained shall be construed to
deny to any court such powers as are necessary for
that court to maintain control over proceedings
conducted before it, such as the power of contempt,
nor to prohibit any bar association from censuring,
suspending or expelling its members from
membership.
Review
1.3.
The
respondent-attorney
(hereinafter
“respondent”) or the Board may have a review of the
judgment of a hearing panel in the manner provided
by Tenn. Code Ann. § 27-9-101 et seq., except as
otherwise provided herein. A petition filed under this
section shall be made under oath or on affirmation
and shall state that it is the first application for the
writ. See Tenn. Code Ann. §§ 27-8-104(a) and 27-8106. The review shall be on the transcript of the

App. 151

evidence before the hearing panel and its findings and
judgment. If allegations of irregularities in the
procedure before the panel are made, the trial court is
authorized to take such additional proof as may be
necessary to resolve such allegations. The court may
affirm the decision of the panel or remand the case for
further proceedings. The court may reverse or modify
the decision if the rights of the petitioner have been
prejudiced because the panel’s findings, inferences,
conclusions or decisions are: (1) in violation of
constitutional or statutory provisions; (2) in excess of
the panel’s jurisdiction; (3) made upon unlawful
procedure; (4) arbitrary or capricious or characterized
by abuse of discretion or clearly unwarranted exercise
of discretion; or (5) unsupported by evidence which is
both substantial and material in the light of the entire
record.
In determining the substantiality of evidence, the
court shall take into account whatever in the record
fairly detracts from its weight, but the court shall not
substitute its judgment for that of the panel as to the
weight of the evidence on questions of fact. Either
party dissatisfied with the decree of the circuit or
chancery court may prosecute an appeal directly to
the Supreme Court where the cause shall be heard
upon the transcript of the record from the circuit or
chancery court, which shall include the transcript of
evidence before the hearing panel. Prior decisions of
this Court holding that appeal of disciplinary
proceedings must be taken to the Court of Appeals
because Tenn. Code Ann. § 16-4-108 so requires are
expressly overruled.
1.4. An appeal from the recommendation or judgment
of a hearing panel must be filed in the circuit or

App. 152

chancery court of the county wherein the office of
respondent was located at the time the charges were
filed with the Board.
1.5. The Chief Justice shall designate a trial judge or
chancellor, regular or retired, who shall not reside
within the geographic boundaries of the chancery
division or circuit court wherein the office of the
respondent was located at the time the charges were
filed with the Board. It shall be this judge's or
chancellor's duty to try the case and enter judgment
upon the minutes of the circuit or chancery court of
the county where the case is heard, and the judgment
shall be effective as if the special judge were the
regular presiding judge of said court. The duty is
imposed upon the clerks and the regular trial judge to
promptly notify the Chief Justice of the filing of an
appeal in disciplinary cases.
1.6. The judgment of the hearing panel may be stayed
in the discretion of the hearing panel, pending any
judicial review pursuant to Section 1.3. Upon the
filing of a petition for review pursuant to Section 1.3,
and in the event the judgment is not stayed by the
hearing panel, the trial court in its discretion may
stay the hearing panel’s judgment upon motion of a
party.
The final judgment of the trial court may be stayed in
the discretion of the trial court, pending an appeal. In
the event the trial court does not issue a stay pending
appeal, the Supreme Court may issue a stay upon
motion of a party.
Section 2. Disciplinary Districts

App. 153

Disciplinary jurisdiction in this State shall be divided
into the following districts:
District I--the counties of Johnson, Carter, Cocke,
Greene, Hancock, Grainger, Jefferson, Sullivan,
Washington, Unicoi, Hawkins, Claiborne, Hamblen
and Sevier.
District II--the counties of Campbell, Anderson,
Roane, Blount, Morgan, Union, Knox, Loudon and
Scott.
District III--the counties of Polk, Hamilton,
Sequatchie, Bledsoe, Meigs, Monroe, Bradley, Marion,
Grundy, Rhea and McMinn.
District IV--the counties of White, Van Buren,
Pickett, Putnam, Overton, Clay, Franklin, Moore,
Bedford, Rutherford, Wilson, Trousdale, Warren,
Fentress, Cumberland, Smith, Jackson, Coffee,
Lincoln, Marshall, Cannon, DeKalb and Macon.
District V--the county of Davidson.
District VI--the counties of Giles, Wayne, Lewis,
Maury, Humphreys, Cheatham, Montgomery,
Robertson, Lawrence, Perry, Hickman, Dickson,
Houston, Stewart, Sumner and Williamson.
District VII--the counties of Henry, Carroll,
Henderson, Hardeman, Hardin, Benton, Decatur,
Chester, Fayette, McNairy and Madison.
District VIII--the counties of Weakley, Lake, Gibson,
Haywood, Tipton, Obion, Dyer, Crockett and
Lauderdale.
District IX--the county of Shelby.
Section 3. Grounds for Discipline

App. 154

3.1. The license to practice law in this State is a
continuing proclamation by the Court that the holder
is fit to be entrusted with professional and judicial
matters, and to aid in the administration of justice as
an attorney and as an officer of the Court. It is the
duty of every recipient of that privilege to act at all
times, both professionally and personally, in
conformity with the standards imposed upon
members of the bar as conditions for the privilege to
practice law.
3.2. Acts or omissions by an attorney, individually or
in concert with any other person or persons, which
violate the Attorney's Oath of Office or the Rules of
Professional Conduct of the State of Tennessee shall
constitute misconduct and shall be grounds for
discipline, whether or not the act or omission occurred
in the course of an attorney-client relationship.
3.3. Conviction of a serious crime shall similarly be
grounds for discipline as set forth in Section 14.
3.4. Adjudication that a lawyer has willfully refused
to comply with a court order entered in a case in which
the lawyer is a party shall be grounds for discipline as
set forth in Section 32.
Section 4. Types of Discipline
4.1. Disbarment; or
4.2. Suspension for an appropriate fixed period of
time, or for an appropriate fixed period of time and an
indefinite period concurrently or thereafter to be
determined by the conditions imposed by the
judgment. A suspension of less than one year shall not
require proof of rehabilitation; a suspension of one
year or more shall require proof of rehabilitation to be
demonstrated in a reinstatement proceeding. No

App. 155

suspension shall be ordered for a specific period less
than thirty days or in excess of five years. All
suspensions regardless of duration shall be public and
shall be subject to the provisions of Section 18. The
imposition of a suspension for a fixed period of time
may be suspended in conjunction with a period of
probation ordered pursuant to Section 8.5;
4.3. Temporary Suspension. On petition of the
Disciplinary Counsel and supported by an affidavit
demonstrating facts personally known to affiant,
showing that an attorney has misappropriated funds
to the attorney's own use, has failed to respond to the
Board or Disciplinary Counsel concerning a complaint
of misconduct, has failed to substantially comply with
a contract entered into with the Tennessee Lawyer
Assistance Program, or otherwise poses a threat of
substantial harm to the public, the Supreme Court
may issue an order with such notice as the Court may
prescribe imposing temporary conditions of probation
on said attorney or temporarily suspending said
attorney, or both.
Any order of temporary probation which restricts the
attorney maintaining a trust account shall, when
served on any bank maintaining an account against
which said attorney may make withdrawals, serve an
injunction to prevent said bank from making further
payment from such account or accounts on any
obligation except in accordance with restrictions
imposed by the Court. Any order of temporary
suspension issued under this rule shall preclude the
attorney from accepting any new cases but shall not
preclude such attorney from continuing to represent
existing clients during the first 30 days after issuance
of such temporary order; however, any fees tendered

App. 156

to such attorney during such 30 period shall be
deposited in a trust fund from which withdrawals may
be made only in accordance with restrictions imposed
by the Court.
The attorney may for good cause request dissolution
or amendment of any such temporary order by
petition filed with the Supreme Court, a copy of which
will be served on the Disciplinary Counsel. Such
petition for dissolution shall be set for immediate
hearing
before
the
Board
of
Professional
Responsibility or a panel of three members, at least
two of whom shall be members of the Board of
Professional Responsibility and one of whom may be a
district committee member from the same disciplinary
district as the respondent, designated by the Chair of
the Board, or, in the Chair's absence, the Vice-Chair.
No more than one non-lawyer Board member may
serve on the panel. The Board or its designated panel
shall hear such petition forthwith and submit its
report and recommendation to the Supreme Court
with the utmost speed consistent with due process.
Upon receipt of the foregoing report, the Supreme
Court shall modify its order if appropriate and
continue such provision of the order as may be
appropriate until final disposition of all pending
disciplinary charges against said attorney;
4.4. Public Censure; or
4.5. Private Reprimand; or
4.6. Private informal admonition.
4.7. Restitution. Upon order of a hearing panel or
court, or upon stipulation of the parties, and in
addition to any other type of discipline imposed, the
respondent may be required to make restitution to

App. 157

persons or entities financially injured as a result of
the respondent's misconduct.
Section 5. The
Responsibility of
Tennessee

Board of Professional
the Supreme Court of

5.1. The Supreme Court shall appoint a twelve
member Board to be known as "The Board of
Professional Responsibility of the Supreme Court of
Tennessee" (hereinafter referred to as the "Board")
which shall consist of:
(a) Three resident lawyers admitted to practice in this
state and one public (non-lawyer) member appointed
for an initial term of three years; and
(b) Three resident lawyers admitted to practice in this
state and one public member appointed for an initial
term of two years; and
(c) Three resident lawyers admitted to practice in this
state and one public member appointed for an initial
term of one year.
Subsequent terms of all members shall be for three
years. No member shall serve for more than two
consecutive three-year terms. Vacancies shall be filled
by the Supreme Court. There shall be one lawyer
member from each disciplinary district. There shall be
one public member from each of the three grand
divisions of the state.
5.2. The Supreme Court shall designate one member
as Chair of the Board and another member as ViceChair.
5.3. The Board shall act only with the concurrence of
seven or more members. Seven members shall
constitute a quorum. Decisions of the Board to appeal

App. 158

from the judgment of a hearing panel or of a trial
judge, as provided in Section 1.3, may be made in
accord with the following procedure. If Disciplinary
Counsel recommends an appeal and time restraints
are such that a regular or special meeting of the Board
is impractical, Disciplinary Counsel shall circulate to
the members of the Board in writing the reasons for
the recommendation supported by a factual report.
Board members may communicate their vote for or
against appeal by telephone, facsimile, telegraph, or
regular mail. Any member of the Board may request
that Disciplinary Counsel convene a telephone
conference of the Board, whereupon such conference
must be convened with at least a quorum so
conferring. An affirmative vote of seven (7) members
of the Board shall be necessary to authorize an appeal.
If an appeal has been authorized by the foregoing
procedure, any member of the Board may demand
that the question of whether or not the appeal should
be dismissed be placed upon the agenda for
consideration at any regular meeting of the Board or
special meeting convened for other business.
5.4. Members shall receive no compensation for their
services but may be reimbursed for their travel and
other expenses incidental to the performance of their
duties.
5.5. The Board shall exercise the powers and perform
the duties conferred and imposed upon it by these
disciplinary rules, including the power and duty:
(a) To consider and investigate any alleged ground for
discipline or alleged incapacity of any attorney called
to its attention, or upon its own motion, and to take
such action with respect thereto as shall be

App. 159

appropriate to effectuate the purposes of these
disciplinary rules.
(b) To adopt written guidelines to ensure the efficient
and timely resolution of complaints, investigations,
and formal proceedings, which guidelines shall be
approved by the Court, and to monitor Disciplinary
Counsel’s and the hearing panels’ continuing
compliance with those guidelines. The Board shall
quarterly file a report with the Court demonstrating
substantial compliance with the guidelines.
(c) To assign members of the district committees
appointed within each disciplinary district to conduct
disciplinary hearings and to review and approve or
modify recommendations by Disciplinary Counsel for
dismissals or informal admonitions.
(d) To review, upon application by Disciplinary
Counsel, a determination by the reviewing member of
a district committee that a matter should be
concluded by dismissal or by private informal
admonition without the institution of formal charges.
(e) To privately reprimand attorneys for misconduct.
(f) To adopt rules of procedure not inconsistent with
these rules.
(g) The Board shall, to the extent it deems feasible,
consult with officers of local bar associations
concerning any appointment it is authorized to make
under these rules.
Section 6. District Committees
6.1. The Supreme Court shall appoint one district
committee within each disciplinary district. Each
district committee shall consist of not less than five
members, nor more than thirty members of the bar of

App. 160

this state who maintain an office for the practice of
law within that district or, if not actively engaged in
the practice of law, reside within that district.
Members of district committees may be recommended
by the Board of Professional Responsibility, or the
president or board of directors of the local bar
associations in each district.
6.2. Terms of members of each district committee
shall be for three years, and such terms shall be
staggered so that one third of the members rotate off
the committee each year; provided that shorter terms
may be designated where necessary to observe the
above rotation practice. Members whose terms have
expired shall continue to serve with respect to any
formal hearing commenced prior to the expiration of
their terms until the conclusion of such hearing,
regardless of whether their successors have been
appointed. A member who has served two consecutive
three-year terms may be reappointed after the
expiration of one year.
6.3. A member of the district committee shall approve
or modify recommendations by Disciplinary Counsel
for dismissals and informal admonitions.
6.4. Formal hearings upon charges of misconduct
shall be conducted by a hearing panel consisting of
three district committee members designated by the
Board pursuant to Section 8.2. Such panel shall
submit its findings and judgment to the Board. Each
hearing panel shall elect its own Chair. The hearing
panel shall act only with the concurrence of a majority
of its members.
6.5. District committee members, whether acting as a
reviewing committee member or as a hearing panel

App. 161

member, shall not take part in any matter in which a
judge, similarly situated, would have to recuse
himself or herself.
Section 7. Disciplinary Counsel
7.1. The Court shall appoint a lawyer admitted to
practice in the state to serve as chief Disciplinary
Counsel, who shall serve at the pleasure of the Court.
Following his or her appointment by the Court, the
chief Disciplinary Counsel shall report to the Board,
which shall conduct regular performance evaluations
of the chief Disciplinary Counsel and report such
evaluations to the Court. Neither the chief
Disciplinary Counsel nor full-time staff Disciplinary
Counsel shall engage in private practice; however, the
Board and the Court may agree to a reasonable period
of transition after appointment.
7.2. Disciplinary Counsel shall have the power and
duty:
(a) With the approval of the Board, to employ and
supervise staff needed for the performance of counsel's
duties.
(b) To investigate all matters involving possible
misconduct.
(c) To dispose of all matters involving alleged
misconduct by either dismissal, informal admonition,
or the prosecution of formal charges before a hearing
panel. Except in matters requiring dismissal because
the complaint is frivolous and clearly unfounded on its
face or falls outside the Board's jurisdiction, no
disposition shall be recommended or undertaken by
Disciplinary Counsel until the accused attorney shall
have been afforded the opportunity to state a position
with respect to the allegations against the attorney.

App. 162

(d) To prosecute in a timely manner all disciplinary
proceedings and proceedings to determine incapacity
of attorneys before hearing panels, trial courts, and
the Supreme Court.
(e) To investigate, file pleadings, and appear at
hearings conducted with respect to petitions for
reinstatement of suspended or disbarred attorneys or
attorneys transferred to inactive status because of
disability, or with respect to petitions for voluntary
surrenders of law licenses, and to cross-examine
witnesses testifying in support of any such petitions,
and to marshal and present available evidence, if any,
in opposition thereto.
(f) To file with the Supreme Court certificates of
conviction of attorneys for crimes.
(g) To maintain permanent records of all matters
processed and the disposition thereof.
(h) To give advisory ethics opinions to members of the
bar pursuant to Section 26.
(i) To implement the written guidelines adopted by the
Board and approved by the Court pursuant to Section
5.5(b), and to file reports with the Board on a monthly
basis
demonstrating
Disciplinary
Counsel’s
substantial compliance with the guidelines.
PROCEDURE
Section 8. Investigation
8.1. All complaints must be submitted in writing. The
Board, however, is authorized to investigate
information coming from a source other than a written
complaint if the Board deems the information
sufficiently credible or verifiable through objective

App. 163

means. The Board shall provide the respondent with
a complete copy of the original complaint.
All investigations, whether upon complaint or
otherwise, shall be initiated and conducted by
Disciplinary Counsel. Upon the conclusion of an
investigation, Disciplinary Counsel may recommend
dismissal, informal admonition of the attorney
concerned, or a private reprimand, public censure or
prosecution of formal charges before a hearing panel.
If the recommended disposition is dismissal or
informal admonition, it shall be reviewed by the
reviewing member of the district committee in the
appropriate disciplinary district who may approve or
modify it. Disciplinary Counsel may appeal to the
Board the action of the district committee member.
If the recommended disposition is private reprimand,
public censure, or prosecution of formal charges before
a hearing panel, the Board shall review the
recommendation and approve or modify it. The Board
may determine whether a matter should be concluded
by dismissal or informal admonition; may recommend
a private reprimand or public censure; or, may direct
that a formal proceeding be instituted before a
hearing panel in the appropriate disciplinary district
and assign it to a hearing panel for that purpose.
A respondent shall not be entitled to appeal an
informal admonition approved by the reviewing
district committee member or imposed by the Board;
similarly, a respondent may not appeal a
recommended private reprimand or public censure by
the Board. In either case, however, the respondent
may, within twenty (20) days of notice thereof,
demand as of right that a formal proceeding be

App. 164

instituted before a hearing panel in the appropriate
disciplinary district. In the event of such demand, the
informal admonition shall be vacated or the
recommended private reprimand or public censure
shall be withdrawn, and the matter shall be disposed
of in the same manner as any other formal hearing
instituted before a hearing panel.
If Disciplinary Counsel’s recommended disposition is
dismissal or informal admonition, and if that
recommended disposition is approved by the
reviewing member of the district committee in the
appropriate disciplinary district, notice of the
disposition shall be provided by Disciplinary Counsel
to the complainant. A complainant who is not satisfied
with the disposition of the matter may appeal in
writing to the Board within thirty (30) days of receipt
of notice of the reviewing member’s approval of the
recommended disposition. The Board may approve,
modify or disapprove the disposition, or direct that the
matter be investigated further.
Formal Hearing
8.2. Formal disciplinary proceedings before a hearing
panel shall be instituted by Disciplinary Counsel by
filing with the Board a petition which shall be
sufficiently clear and specific to inform the respondent
of the alleged misconduct. A petition to initiate a
formal disciplinary proceeding shall not include
allegations of any private discipline previously
imposed against the respondent.
A copy of the petition shall be served upon the
respondent. The respondent shall serve an answer
upon Disciplinary Counsel and file the original with
the Board within 20 days after the service of the

App. 165

petition, unless such time is extended by the Chair. In
the event the respondent fails to answer, the charges
shall be deemed admitted; provided, however, that a
respondent who fails to answer within the time
provided may obtain permission of the Chair to file an
answer if such failure to file an answer was
attributable to mistake, inadvertence, surprise or
excusable neglect. At the time of filing of the answer
to the petition, the respondent shall simultaneously
file a completed Licensing Information Statement in
the form adopted by the Board of Professional
Responsibility.
Following the service of the answer or upon failure to
answer, the matter shall be assigned by the Chair to
a hearing panel. In assigning the members of the
hearing panel, the Chair shall select them on a
rotating basis from the members of the district
committee in the district in which the respondent
practices law; if there is an insufficient number of
committee members in that district who are able to
serve on the hearing panel, the Chair may appoint one
or more members from the district committee of an
adjoining district to serve on the panel.
If there are any issues of fact raised by the pleadings
or if the respondent requests the opportunity to be
heard, the hearing panel shall serve a notice of
hearing upon Disciplinary Counsel and the
respondent, or the respondent's counsel, stating the
date and place of the hearing at least 15 days in
advance thereof. The notice of hearing shall advise the
respondent that the respondent is entitled to be
represented by counsel, to cross-examine witnesses
and to present evidence in the respondent's own
behalf.

App. 166

In a hearing panel’s hearing on the petition,
Disciplinary Counsel may submit evidence of prior
discipline against the respondent, including prior
private discipline, as an aggravating circumstance.
Such evidence may be introduced to the extent it is
otherwise admissible under the Tennessee Rules of
Evidence. Pursuant to Section 25.4, the respondent
may apply for a protective order concerning the
admission of evidence of prior private discipline.
In hearings on formal charges of misconduct,
Disciplinary Counsel must prove the case by a
preponderance of the evidence.
8.3. The hearing panel shall, in every case, submit its
findings and judgment, in the form of a final decree of
a trial court, to the Board within 15 days after the
conclusion of its hearing. The hearing panel's
judgment shall contain a notice that the judgement
may be appealed pursuant to Section 1.3 of this Rule
by filing a petition for writ of certiorari, which petition
shall be made under oath or affirmation and shall
state that it is the first application for the writ. See
Tenn. Code Ann. §§ 27-8-104(a) and 27-8-106. The
Board shall immediately serve a copy of the findings
and judgment of the hearing panel upon the
respondent and the respondent's counsel of record.
Any petition for certiorari therefrom must be filed in
the circuit or chancery court having jurisdiction
within 60 days of the mailing or service of such
judgment.
8.4. If the hearing panel finds one or more grounds for
discipline of the respondent, the panel’s judgment
shall specify the type of discipline imposed:
disbarment (Section 4.1), suspension (Section 4.2), or
public censure (Section 4.4). In the discretion of the

App. 167

hearing panel, the imposition of a suspension for a
fixed period of time (Section 4.2) may be suspended in
conjunction with a period of probation ordered
pursuant to Section 8.5. In addition to imposing one of
the foregoing types of discipline, the hearing panel
may order restitution (Section 4.7). Temporary
suspension (Section 4.3), private reprimand (Section
4.5), and private informal admonition (Section 4.6) are
not available types of discipline following a formal
disciplinary proceeding. In determining the
appropriate type of discipline, the hearing panel shall
consider the applicable provisions of the ABA
Standards for Imposing Lawyer Sanctions.
If the judgment of the hearing panel is that the
respondent shall be disbarred or suspended for any
period of time in excess of three months and no appeal
therefrom is perfected within the time allowed
therefor, or if there is a settlement providing for a
disbarment or suspension for any period of time in
excess of three months, at any stage of disciplinary
proceedings, the Board shall forward a copy of the
judgment or settlement to the Supreme Court of
Tennessee. The Court shall review the recommended
punishment provided in such judgment or settlement
with a view to attaining uniformity of punishment
throughout the state and appropriateness of
punishment under the circumstances of each
particular case. The Court may direct that the
transcript or record of any proceeding be prepared and
filed with the Court for its consideration.
If the Court finds that the punishment appears to be
inadequate or excessive, it shall issue an order
advising the Board and the respondent that it
proposes to increase or to decrease the punishment. If

App. 168

the Court proposes to increase the punishment, the
respondent attorney shall have twenty (20) days from
the date of the order to file a brief and request oral
argument; if the proposal is to decrease the
punishment, the Board shall have twenty (20) days
within which to file a brief and request oral argument.
Reply briefs shall be due within twenty (20) days of
the filing of the brief of the party upon whom the
burden of persuasion rests. If oral argument is
requested it shall be promptly granted. Upon
termination of such proceedings as are requested the
Court may modify the judgment of the hearing panel
or the settlement in such manner as it deems
appropriate.
If the judgment of a hearing panel is appealed to the
circuit or chancery court and the trial court enters a
judgment disbarring or suspending respondent for
any period of time in excess of three (3) months and
no appeal therefrom is perfected within the time
allowed therefor, the trial court shall forward a copy
of its judgment to the office of the clerk of the Supreme
Court in the grand division in which the respondent
maintains or maintained an office for the practice of
law, and this Court shall enter an order of
enforcement of said decree.
All other decrees of hearing panels or trial courts shall
be duly recorded in permanent records to be
maintained by the Board, and shall have the force and
effect of an order of this Court. Should any respondent
fail to fully comply with such decree, the Board shall
immediately forward the decree of this Court for
enforcement together with a report of noncompliance.
8.5. Probation. In the discretion of the hearing panel
or a reviewing court, the imposition of a suspension

App. 169

for a fixed period (Section 4.2) may be suspended in
conjunction with a fixed period of probation. The
conditions of probation shall be stated in writing in
the judgment of the hearing panel or court. Probation
shall be used only in cases where there is little
likelihood that the respondent will harm the public
during the period of rehabilitation and where the
conditions of probation can be adequately supervised.
A probation monitor may be designated to supervise
the respondent’s compliance with the conditions of
probation. The respondent shall pay the costs
associated with probation, including without
limitation a reasonable fee for the probation monitor.
In the event the respondent violates or otherwise fails
to meet any condition of probation, Disciplinary
Counsel is authorized to file a petition to revoke
probation. Upon the filing of such a petition, a
revocation hearing shall be conducted in the same
manner as a hearing on a petition to initiate a formal
disciplinary proceeding filed pursuant to Section 8.2.
The only issue in such a proceeding is whether
probation is to be revoked; the original judgment
imposing the fixed period of probation may not be
reconsidered.
Probation shall terminate upon the expiration of the
fixed period of probation. Probation may be
terminated earlier by the tribunal (hearing panel or
court) which imposed the period of probation upon the
filing of a motion and an affidavit by respondent
showing compliance with all the conditions of
probation and an affidavit by the probation monitor,
if one is designated, stating that probation is no longer
necessary and summarizing the basis for that
statement. Disciplinary Counsel shall file a response

App. 170

to any such motion to terminate probation. The
tribunal may conduct whatever hearings are
necessary to decide the motion to terminate probation.
The tribunal’s ruling on the motion may be appealed
pursuant to Section 1.3.
Section 9. Complaints Against Board Members,
District Committee Members, or Disciplinary
Counsel
9.1. (a) Complaints against Disciplinary Counsel or a
district committee member alleging violations of the
Attorney's Oath of Office or the Rules of Professional
Conduct shall be submitted directly to the Board.
(b) Disagreement with the official decision of
Disciplinary Counsel, a hearing panel, or a district
committee member, taken in the course and scope of
their responsibilities, shall not be grounds for the
filing of a disciplinary complaint.
9.2. (a) Complaints against attorney members of the
Board alleging violations of the Attorney's Oath of
Office or the Rules of Professional Conduct shall be
submitted directly to the Chief Justice of the Supreme
Court.
(b) Disagreement with the official decision of the
Board or a member, taken in the course and scope of
their responsibilities, shall not be grounds for the
filing of a disciplinary complaint.
9.3. Nothing herein contained shall be deemed to
exempt any attorney admitted to practice in the State
of Tennessee from complaints which present a
violation of the Attorney's Oath of Office or the Rules
of Professional Conduct.

App. 171

9.4. The investigations of complaints submitted under
Section 9.2 of Rule 9 against attorney members of the
Board shall proceed in accordance with the procedures
contained in Section 8 of Rule 9, with the following
modifications:
(a) A special Disciplinary Counsel, whom the Chief
Justice shall appoint, shall take the place and perform
all of the functions of Disciplinary Counsel set forth in
Section 8.1 of Rule 9, including all investigations,
whether upon complaint or otherwise. Upon
conclusion of an investigation, special Disciplinary
Counsel may recommend dismissal, informal
admonition of the attorney concerned, or a private
reprimand, public censure, or prosecution of formal
charges before a special hearing panel.
(b) One member of the Court, whom the Chief Justice
shall designate, shall take the place and perform all of
the functions of the Board in all investigations and
proceedings governed by Rule 9, including the review
of recommendations of dismissal or informal
admonition of the attorney concerned, or a private
reprimand, public censure or prosecution of formal
charges, pursuant to section 8.1. The member so
designated shall not participate with the Court in any
subsequent proceedings in the same case.
(1) If special Disciplinary Counsels recommendation
is dismissal or informal admonition, it shall be
reviewed by the designated member of the Court
(reviewing justice), who may approve or modify it. If
the recommendation is approved by the reviewing
justice, notice of the disposition shall be provided by
special Disciplinary Counsel to the complainant. A
complainant who is not satisfied with the disposition
of the matter may appeal in writing to the Chief

App. 172

Justice within thirty (30) days of receipt of notice of
the reviewing justices approval of the recommended
disposition. The Court may approve, modify, or
disapprove the disposition, or direct that the matter
be investigated further.
(2) If the recommended disposition is private
reprimand, public censure, or prosecution of formal
charges before a special hearing panel, the reviewing
justice shall review the recommendation and shall
approve, disapprove, or modify it. The reviewing
justice may determine whether a matter should be
concluded by dismissal or informal admonition; may
approve or impose a private reprimand or public
censure; or may direct that a formal proceeding be
instituted before a special hearing panel.
(3) The respondent shall not be entitled to appeal an
informal admonition approved by the reviewing
justice; similarly, a respondent may not appeal a
private reprimand or public censure approved or
imposed by the reviewing justice. In either case,
however, the respondent may, within twenty (20) days
of notice thereof, demand as of right that a formal
proceeding be instituted before a special hearing
panel. In the event of such demand, the informal
admonition shall be vacated or the recommended
private reprimand or public censure shall be
withdrawn, and the matter shall be disposed of in the
same manner as any other formal hearing instituted
before a hearing panel.
(c) If the recommendation, as approved or modified by
the designated member of the Court, includes the
institution of formal proceedings before a hearing
panel, or if the attorney demands in writing to the
Chief Justice such formal proceedings as of right, then

App. 173

the Chief Justice shall at that time appoint three
persons to act as a special hearing panel. The special
hearing panel shall take the place and perform all of
the functions of the hearing panel as provided in
Sections 6 and 8 of Rule 9. The special Disciplinary
Counsel shall continue to perform the functions of
Disciplinary Counsel and shall proceed in accordance
with the provisions of Rule 9 governing formal
proceedings.
(d) The respondent or special Disciplinary Counsel
may obtain review of the judgment of the special
hearing panel as provided in Sections 1.3, 1.4, 1.5, and
8.3 of Rule 9.
Section 10. Refusal of Complainant to Proceed,
Compromise, etc.
Neither unwillingness nor neglect of the complainant
to sign a complaint or to prosecute a charge, nor
settlement or compromise between the complainant
and the attorney or restitution by the attorney, shall,
in itself, justify abatement of the processing of any
complaint.
Section 11. Matters Involving Related Pending
Civil or Criminal Litigation
Processing of disciplinary complaints shall not be
deferred or abated because of substantial similarity to
the material allegations made in other pending
criminal or civil litigation or because the substance of
the complaint relates to the respondent’s alleged
conduct in pending litigation, unless authorized by
the Board in its discretion, for good cause shown.
Section 12. Service

App. 174

12.1. Service upon the respondent of the petition in
any disciplinary proceeding shall be made by personal
service by any person authorized by the Chair of the
Board, or by registered or certified mail at the address
shown in the most recent registration statement filed
by respondent pursuant to Section 20.5 or other last
known address.
12.2. Service of any other papers or notices required
by these Rules shall, unless otherwise provided by
these Rules, be made in accordance with Rule 5.02,
Tennessee Rules of Civil Procedure.
Section 13. Subpoena Power, Witnesses and Pretrial Proceedings
13.1. Any member of a hearing panel in matters
before it, and Disciplinary Counsel in matters under
investigation, may administer oaths and affirmations
and may obtain from the circuit or chancery court
having jurisdiction subpoenas to compel the
attendance of witnesses and the production of
pertinent books, papers and documents. A respondent
may, similarly, obtain subpoenas to compel the
attendance of witnesses and the production of
pertinent books, papers and documents before a
hearing panel after formal disciplinary proceedings
are instituted.
13.2. Subpoenas shall clearly indicate on their face
that the subpoenas are issued in connection with a
confidential investigation under these Rules and that
it may be regarded as contempt of the Supreme Court
or grounds for discipline under these Rules for a
person subpoenaed to in any way breach the
confidentiality of the investigation. The scope of the
confidentiality of the investigation shall be governed

App. 175

by Section 25. It shall not be regarded as a breach of
confidentiality for a person subpoenaed to consult
with an attorney.
13.3. The circuit or chancery court in which the
attendance or production is required may, upon
proper application, enforce the attendance and
testimony of any witness and the production of any
documents so subpoenaed. Subpoena and witness fees
and mileage shall be the same as in the courts of this
state.
13.4. Any attack on the validity of a subpoena so
issued shall be heard and determined by the court
wherein enforcement of the subpoena is being sought.
13.5. Discovery proceedings by the respondentattorney, prior to institution of proceedings for a
formal hearing, may be had upon the order of the
Chair of the Board for good cause shown.
13.6. A pre-hearing conference shall be held within
sixty (60) days of the filing date of any petition
commencing a formal proceeding. The pre-hearing
conference shall be conducted by the chair of the
assigned hearing panel and at least one other member
of the panel, but it may be conducted via telephone or
video conference. In the pre-hearing conference, the
panel shall schedule deadlines for discovery, the filing
of motions, and the exchange of witness and exhibit
lists, and it also shall set the trial date. The panel may
discuss with and accept from the parties stipulations
of fact and/or stipulations regarding the authenticity
of documents and exhibits, may narrow the issues
presented by the pleadings, and may address any
other matter the panel deems appropriate in the
management of the proceeding. Subsequent pre-

App. 176

hearing conferences may be held in the discretion of
the panel, acting on its own initiative or upon motion
of a party. Within five (5) days of each pre-hearing
conference, the chair of the hearing panel shall file an
order reciting the actions taken by the panel during
the conference, including any deadlines imposed and
the date set for trial.
13.7. With the approval of the hearing panel,
testimony may be taken by deposition or by
interrogatories if the witness is not subject to service
or subpoena or is unable to attend or testify at the
hearing because of age, illness or other infirmity. A
complete record of the testimony so taken shall be
made and preserved, but need not be transcribed
unless needed for appeal or certiorari.
13.8. The subpoena and deposition procedures shall
be subject to the protective requirements of
confidentiality provided in Section 25.
Section 14. Attorneys Convicted of Crimes
14.1. Upon the filing with the Supreme Court of a
certificate demonstrating that an attorney who is a
defendant in a criminal case involving a serious crime,
as defined in Section 14.2 herein, has entered a plea
of nolo contendere or a plea of guilty or has been found
guilty by verdict of the jury, or the trial court sitting
without a jury, the Court shall enter an order
immediately suspending the attorney. Such
suspension shall take place regardless of the
pendency of a motion for new trial or other action in
the trial court and regardless of the pendency of an
appeal. Such suspension shall remain in effect
pending final disposition of a disciplinary proceeding
to be commenced upon such finding of guilt.

App. 177

14.2. The term "serious crime" shall include any
felony under the laws of Tennessee and any other
crime a necessary element of which as determined by
the statutory or common law definition of such crime,
involves improper conduct as an attorney,
interference with the administration of justice, false
swearing, misrepresentation, fraud, willful failure to
file income tax returns, deceit, bribery, extortion,
misappropriation, theft, or an attempt or a conspiracy
or solicitation of another to commit a "serious crime."
14.3. A certificate of a conviction of an attorney for any
crime shall be conclusive evidence of the commission
of that crime in any disciplinary proceeding instituted
against the attorney based upon the conviction.
14.4. Upon the receipt of a certificate of conviction of
an attorney for a serious crime, the Court shall, in
addition to suspending the attorney in accordance
with the provisions of Section 14.1 of this Rule, also
refer the matter to the Board for the institution of a
formal proceeding before a hearing panel in which the
sole issue to be determined shall be the extent of the
final discipline to be imposed, provided that a
disciplinary proceeding so instituted will not be
brought to hearing until all appeals from the
conviction are concluded.
14.5. Upon receipt of a certificate of a conviction of an
attorney for a crime not constituting a serious crime,
the Court shall refer the matter to the Board for
whatever action it may deem warranted, including the
institution of an investigation by Disciplinary
Counsel, or a formal proceeding before a hearing
panel, provided, however, that the Court may in its
discretion make no reference with respect to
convictions for minor offenses.

App. 178

14.6. An attorney suspended under the provisions of
Section 14.1 of this Rule will be reinstated
immediately upon the filing of a certificate
demonstrating that the underlying conviction of a
serious crime has been reversed but the reinstatement
will not terminate any formal proceeding then
pending against the attorney, the disposition for
which shall be determined by the hearing panel and
the Board on the basis of the available evidence.
14.7. The clerk of any court in this state in which an
attorney is convicted of a crime shall within ten days
of said conviction transmit a certificate thereof to this
Court.
14.8. Upon being advised that an attorney subject to
the disciplinary jurisdiction of this Court has been
convicted of a crime, Disciplinary Counsel shall
determine whether the clerk of the court where the
conviction occurred has forwarded a certificate to this
Court in accordance with the provision of Section 14.7
of this Rule. If the certificate has not been forwarded
by the clerk or if the conviction occurred in another
jurisdiction, it shall be the responsibility of the
Disciplinary Counsel to obtain a certificate of the
conviction and to transmit it to this Court.
14.9. An order suspending an attorney from the
practice of law pursuant to this Rule shall not
constitute a suspension of the attorney for the purpose
of Section 18 unless this Court shall so order.
Section 15. Disbarment by Consent of Attorneys
Under
Disciplinary
Investigation
or
Prosecution
15.1. An attorney who is the subject of an
investigation into, or a pending proceeding involving,

App. 179

allegations of misconduct may consent to disbarment,
but only by delivering to the Board an affidavit stating
that such attorney desires to consent to disbarment
and that:
(a) The attorney's consent is freely and voluntarily
rendered; the attorney is not being subjected to
coercion or duress; the attorney is fully aware of the
implications of submitting consent;
(b) The attorney is aware that there is a presently
pending investigation into, or proceeding involving
allegations that there exist grounds for discipline the
nature of which the attorney shall specifically set
forth;
(c) The attorney acknowledges that the material facts
so alleged are true; and,
(d) The attorney consents because the attorney knows
that if charges were predicated upon the matters
under investigation, or if the proceeding were
prosecuted, no successful defense could be made.
15.2. Upon receipt of the required affidavit, the Board
shall file it with this Court and this Court shall enter
an order disbarring the attorney on consent.
15.3. The order disbarring the attorney on consent
shall be a matter of public record. However, the
affidavit required under the provisions of 15.1(a)
above shall not be publicly disclosed or made available
for use in any other proceeding except upon order of
this Court.
Section 16. Discipline by Consent
16.1. An attorney against whom formal charges have
been served may at any stage of the proceedings
before the Board, hearing panel or trial court,

App. 180

thereafter tender a conditional guilty plea to the
petition or to a particular count thereof in exchange
for a stated form of punishment. Such a tendered plea
shall be submitted to Disciplinary Counsel and
approved or rejected by the Board upon
recommendation of the hearing panel if the matter
has been assigned for hearing, or shall be approved or
rejected by the trial court if a petition for certiorari
has been filed; subject, however, in either event, to
final approval or rejection by this Court if the stated
form of punishment includes disbarment, suspension
or public reprimand.
16.2. A continuance in a hearing panel proceeding, or
before a trial court, on the basis of such a tender shall
be granted only with the concurrence of Disciplinary
Counsel. Approval of such a tendered plea by the
Board or trial court and, if required, by this Court
shall divest the hearing panel or trial court of further
jurisdiction. The final order of discipline shall be
predicated upon the petition and an approved
tendered conditional guilty plea.
Section 17. Reciprocal Discipline
17.1. All attorneys subject to the provisions of this
Rule shall, upon being subjected to professional
disciplinary action in another jurisdiction, promptly
inform Disciplinary Counsel of such action. Upon
being informed that an attorney subject to the
provisions of these Rules has been subjected to
discipline in another jurisdiction, Disciplinary
Counsel shall obtain a certified copy of such
disciplinary order and file the same with the Board
and with this Court.

App. 181

17.2. Upon receipt of a certified copy of an order
demonstrating that an attorney admitted to practice
in this State has been disciplined in another
jurisdiction, this Court shall forthwith issue a notice
directed to the attorney containing:
(a) A copy of said order from the other jurisdiction; and
(b) An order directing that the attorney inform the
Court, within 30 days from service of the notice, of any
claim by the attorney predicated upon the grounds set
forth in Section 17.4 hereof that the imposition of the
identical discipline in this state would be
unwarranted and the reasons therefor.
17.3. In the event the discipline imposed in the other
jurisdiction has been stayed there, any reciprocal
discipline imposed in this state shall be deferred until
such stay expires.
17.4. Upon the expiration of 30 days from service of
the notice issued pursuant to the provisions of 17.2
above, this Court shall impose the identical discipline
unless Disciplinary Counsel or the attorney
demonstrates, or this Court finds that upon the face
of the record upon which the discipline is predicated it
clearly appears:
(a) That the procedure was so lacking in notice or
opportunity to be heard as to constitute a deprivation
of due process; or
(b) That there was such an infirmity of proof
establishing the misconduct as to give rise to the clear
conviction that the Court could not, consistent with its
duty, accept as final the conclusion on that subject; or
(c) That the misconduct established warrants
substantially different discipline in this state.

App. 182

Where this Court determines that any of said
elements exist, this Court shall enter such other order
as it deems appropriate.
17.5. In all other respects, a final adjudication in
another jurisdiction that an attorney has been guilty
of misconduct shall establish conclusively the
misconduct for purposes of a disciplinary proceeding
in this state.
Section 18. Notice to Clients, Adverse Parties,
and Other Counsel
18.1. Recipients of Notice; Contents. Within ten days
after the date of the order of this Court imposing
discipline, transfer to disability inactive status, or
interim suspension, a respondent lawyer who has
been disbarred, suspended, transferred to disability
inactive status, or placed on interim suspension
pursuant to Section 4.3 of this rule, shall notify or
cause to be notified by registered or certified mail,
return receipt requested,
(a) all clients being represented in pending matters;
(b) all co-counsel in pending matters; and
(c) all opposing counsel in pending matters, or in the
absence of opposing counsel, the adverse parties, of
the order of the Court and that the lawyer is therefore
disqualified to act as lawyer after the effective date of
the order. The notice to be given to the lawyer(s) for
an adverse party, or, in the absence of opposing
counsel, the adverse parties, shall state the last
known address of the client of the respondent.
18.2. Special Notice. The Court may direct the
issuance of notice to such financial institutions or

App. 183

others as may be necessary to protect the interests of
clients or other members of the public.
18.3. Duty to Maintain Records. The respondent shall
keep and maintain records of the steps taken to
accomplish the requirements of Sections 18.1 and 18.2
and shall make those records available to the
Disciplinary Counsel on request.
18.4. Return of Client Property. The respondent shall
deliver to all clients any papers or other property to
which they are entitled and shall notify them and any
counsel representing them of a suitable time and place
where the papers and other property may be obtained,
calling attention to any urgency for obtaining the
papers or other property.
18.5. Effective Date of Order; Refund of Fees. Orders
imposing disbarment, suspension, or transfers to
disability inactive status are effective on a date ten
days after the date of the order, except where the
Court finds that immediate disbarment, suspension,
or interim suspension is necessary to protect the
public. The respondent shall refund within ten days
after entry of the order any part of any fees, expenses,
or costs paid in advance that has not been earned or
expended, unless the order directs otherwise.
18.6. Withdrawal from Representation. In the event
another lawyer does not become attorney of record on
behalf of the client before the effective date of the
disbarment, suspension, or interim suspension, it
shall be the responsibility of the respondent to move
in the court or agency in which the proceeding is
pending for leave to withdraw. The respondent shall
in that event file with the court, agency, or tribunal
before which the litigation is pending a copy of the

App. 184

notice to opposing counsel or adverse parties,
including the place of residence and all mailing
addresses of the client of the respondent.
18.7. New Representation Prohibited. Prior to the
effective date of the order, if not immediately, the
respondent shall not undertake any new legal
matters. Upon the effective date of the order, the
respondent shall not maintain a presence or occupy an
office where the practice of law is conducted. The
respondent shall take such action as is necessary to
cause the removal of any indicia of lawyer, counselor
at law, legal assistant, law clerk, or similar title.
18.8. Affidavit Filed with Board. Within ten days after
the effective date of the disbarment or suspension
order, order of transfer to disability inactive status, or
interim suspension, the respondent shall file with the
Board of Professional Responsibility an affidavit
showing:
(a) Compliance with the provisions of the order and
with these rules;
(b) All other state, federal, and administrative
jurisdictions to which the lawyer is admitted to
practice;
(c) Place of residence and all addresses where
communications may thereafter be directed; and
(d) Service of a copy of the affidavit upon Disciplinary
Counsel, which shall include proof of compliance with
§ 18.1.
18.9. Reinstatement. Proof of compliance with these
rules shall be a condition precedent to any petition for
reinstatement.

App. 185

18.10. Publication of Notice. The Board shall cause a
notice of the disbarment, suspension, disability
inactive status, or interim suspension to be given to
all state judges, to a newspaper of general circulation
in each county in which the respondent attorney
maintained an office for the practice of law, and in
such other publications as the Board may determine
to be appropriate.
Section 19. Reinstatement
19.1. No attorney suspended for one year or more or
disbarred may resume practice until reinstated by
order of the Supreme Court, except as provided in
Section 20.4. Any attorney suspended for less than
one year and an indefinite period to be determined by
the conditions imposed by the judgment may resume
practice without reinstatement after filing an
affidavit with the Board showing that the attorney
has fully complied with the conditions imposed by the
judgment. Any attorney suspended for less than one
year with no conditions imposed may resume practice
without reinstatement.
19.2. A person who has been disbarred after hearing
or by consent may not apply for reinstatement until
the expiration of at least five years from the effective
date of the disbarment.
19.3. Petitions for reinstatement by a disbarred or
suspended attorney shall be filed under this Rule,
regardless when or under what procedure the
suspension or disbarment occurred. The qualifications
and requirements for reinstatement existing when the
suspension was entered shall apply to any subsequent
reinstatement proceeding. No application for
reinstatement shall be filed more than 90 days prior

App. 186

to the time eligible for reinstatement. Such petitions
shall be filed with the Board and served upon
Disciplinary Counsel promptly. Upon receipt of the
petition, Disciplinary Counsel shall investigate the
matter and file a responsive pleading to the petition.
The Board shall promptly refer the petition to a
hearing panel in the disciplinary district in which the
petitioner maintained an office at the time of the
disbarment or suspension. The hearing panel shall
schedule a hearing at which the petitioner shall have
the burden of demonstrating by clear and convincing
evidence that the attorney has the moral
qualifications, competency and learning in law
required for admission to practice law in this state and
that the resumption of the practice of law within the
state will not be detrimental to the integrity and
standing of the bar or the administration of justice, or
subversive to the public interest. The hearing panel
shall within 30 days file a report containing its
findings and decision and transmit same, together
with the record, to the Board. Either party dissatisfied
with the hearing panel’s decision may obtain review
thereof, as provided in Section 1.3 hereof.
19.4. If it is the decision of the hearing panel that
petitioner be reinstated, the Board shall review the
record and within 60 days either appeal as provided
in Section 1.3 hereof or transmit to this Court the
record of the proceedings before the hearing panel
together with its report approving same. This Court
will take such action upon the record so transmitted
as it deems appropriate. No attorney will be
reinstated except by order of this Court.
19.5. In all proceedings upon a petition for
reinstatement, cross-examination of the respondent-

App. 187

attorney's witnesses and the submission of evidence,
if any, in opposition to the petition shall be conducted
by Disciplinary Counsel.
19.6. Petitions for reinstatement under this Rule shall
be accompanied by an advance cost deposit in an
amount to be set from time-to-time by the Board to
cover anticipated costs of the reinstatement
proceeding. All advance cost deposits collected
hereunder shall be deposited by the Board of
Professional Responsibility with the State Treasurer;
all such funds including earnings on investments and
all interest and proceeds from said funds, if any, are
deemed to be, and shall be designated as, funds
belonging solely to the Board of Professional
Responsibility. Withdrawals from those funds shall
only be made by the Board of Professional
Responsibility to cover costs of reinstatement
proceedings, and reimbursement of advance cost
deposits not expended. Such advance cost deposit
funds shall be maintained, managed, and
administered solely and exclusively by the Board of
Professional Responsibility.
19.7. If the petitioner is found unfit to resume the
practice of law, the petition shall be dismissed. If the
petitioner is found fit to resume the practice of law,
the judgment shall reinstate the petitioner; provided,
however, that the judgment may make such
reinstatement conditional upon the payment of all or
part of the costs of the proceeding, and upon the
making of partial or complete restitution to parties
harmed by the petitioner's misconduct which led to
the suspension or disbarment; and the reinstatement
may be conditioned upon the furnishing of such proof
of competency as may be required by the judgment, in

App. 188

the discretion of the Supreme Court, which proof may
include certification by the Board of Law Examiners
of the successful completion of examination for
admission to practice.
19.8. Successive Petitions. No petition for
reinstatement under this Rule shall be filed within
three years following an adverse judgment upon a
petition for reinstatement filed by or on behalf of the
same person.
Section 20. Periodic Assessment of Attorneys
20.1. Every attorney admitted to practice before this
Court, except those exempt under 20.2, shall pay to
the Board of Professional Responsibility on or before
the first day of the attorney's birth month an annual
fee for each year beginning January 1, 2012.
All funds collected hereunder shall be deposited by the
Board of Professional Responsibility with the State
Treasurer; all such funds including earnings on
investments and all interest and proceeds from said
funds, if any, are deemed to be, and shall be
designated as, funds belonging solely to the Board of
Professional Responsibility. Withdrawals from those
funds shall be made by the Board of Professional
Responsibility only for the purpose of defraying the
costs of disciplinary administration and enforcement
of those rules, and for such other related purposes as
this Court may from time to time authorize or direct.
The annual registration fee for each attorney shall be
$140, payable on or before the first day of the
attorney's birth month, and a like sum each year
thereafter until otherwise ordered by the Court.
20.2 There shall be exempted from the application of
this rule:

App. 189

(a) Attorneys who serve as a justice, judge, or
magistrate judge of a court of the United States of
America or who serve in any federal office in which
the attorney is prohibited by federal law from
engaging in the practice of law.
(b) Retired attorneys.
(c) Attorneys on temporary duty with the armed
forces.
(d) Faculty members of Tennessee law schools who do
not practice law.
(e) Attorneys not engaged in the practice of law in
Tennessee. The term, "the practice of law" shall be
defined as any service rendered involving legal
knowledge or legal advice, whether of representation,
counsel, or advocacy, in or out of court, rendered in
respect to the rights, duties, regulations, liabilities, or
business relations of one requiring the services. It
shall encompass all public and private positions in
which the attorney may be called upon to examine the
law or pass upon the legal effect of any act, document,
or law.
20.3. Any attorney who fails to timely pay the fee
required under 20.1 above shall be summarily
suspended, provided a notice of delinquency has been
forwarded to the attorney by certified mail, return
receipt requested, addressed to the attorney's last
known business address at least 30 days prior to such
suspension, unless the attorney shall have been
excused on grounds of financial hardship pursuant to
procedures to be established by the Board.
20.4. Any attorney suspended under the provisions of
20.3 above shall be reinstated without further order
upon payment of all arrears and a penalty of 20% of

App. 190

the amount due from the date of the last payment to
the date of the request for reinstatement.
20.5. To facilitate the collection of the annual fee
provided for in 20.1 above, all persons required by this
Rule to pay an annual fee shall, on or before the first
day of their birth month, file with the Board of
Professional Responsibility of the Supreme Court of
Tennessee at its central office a registration
statement, on a form prescribed by this Court, setting
forth the attorney's current residence, office, and
email addresses, and such other information as this
Court may from time to time direct. In addition to
such statement, every attorney shall file with the
Board of Professional Responsibility of this Court a
supplemental statement of any change in the
information previously submitted within 30 days of
such change. All persons first becoming subject to
these Rules by admission to the practice of law before
the courts of this state after January 1, 1976 shall file
the statement required by this Rule at the time of
admission; but no annual fee shall be payable for three
months following their admission to the bar.
20.6. Within 30 days of the receipt of a statement or
supplement thereto filed by an attorney in accordance
with the provisions of 20.5 above, the Board, acting
through Disciplinary Counsel, shall acknowledge
receipt thereof, on a form prescribed by this Court in
order to enable the attorney on request to
demonstrate compliance with the requirements of
20.1 and 20.5 above.
20.7. Any attorney who fails to file the statement or
supplement thereto in accordance with the
requirements of 20.5 above shall be summarily
suspended; provided a notice of delinquency has been

App. 191

forwarded to the attorney by certified mail, return
receipt requested, addressed to the attorney's last
known business address at least 30 days prior to such
suspension. The attorney shall remain suspended
until the attorney shall have complied therewith,
whereupon the attorney shall be reinstated without
further order.
20.8. An attorney who claims an exemption under
section 20.2(a), (b), (d), or (e) shall file with the Board
of Professional Responsibility an application to
assume inactive status and discontinue the practice of
law in this state. In support of the application, the
attorney shall file an affidavit stating that the
attorney is not delinquent in paying the privilege tax
imposed on attorneys by Tenn. Code Ann. § 67-4-1702,
is not delinquent in meeting any of the reporting
requirements imposed by Rules 9, 21, and 43, is not
delinquent in the payment of any fees imposed by
those rules, and is not delinquent in meeting the
continuing legal education requirements imposed by
Rule 21. The Board shall approve the application if the
attorney qualifies to assume inactive status under
section 20.2 and is not delinquent in meeting any of
those obligations, the Board shall notify the applicant
of the delinquency and shall deny the application
unless, within ninety (90) days after the date of the
Board's notice, the applicant demonstrates to the
Board's satisfaction that the delinquency has been
resolved. Upon the date of the Board's written
approval of the application, the attorney shall no
longer be eligible to practice law in Tennessee. The
Board shall act promptly on applications to assume
inactive status and shall notify the applicant in
writing of the Board's action. If the Board denies an
application to assume inactive status, the applicant

App. 192

may request the Supreme Court's administrative
review by submitting a petition to the Chief Justice
within thirty (30) days of the Board's denial. The
Court's review, if any, shall be conducted on the
application, the supporting affidavit, and any other
materials relied upon by the Board in reaching its
decision.
An attorney who assumes inactive status under an
exemption granted by section 20.2(a), (d), or (e) shall
pay to Board of Professional Responsibility, on or
before the first day of the attorney's birth month, an
annual inactive-status fee set at one-half of the
annual registration fee assessed under section
20.1. Such attorney shall file annually with the Board
of Professional Responsibility at its central office a
registration statement, on a form prescribed by the
Board, setting forth the attorney's current residence,
office, and email addresses, and such other
information as the Board may direct. In addition to
such statement, such attorney shall file with the
Board a supplemental statement of any change in the
information previously submitted within 30 days of
such change.
An attorney who assumes inactive status under the
exemption granted by section 20.2(e) and who is
licensed to practice law in another jurisdiction shall
not be eligible to provide any legal services in
Tennessee pursuant to Tenn. Sup. Ct. R. 8, RPC 5.5(c)
or (d).
20.9. Upon the Board's written approval of an
application to assume inactive status, the attorney
shall be removed from the roll of those classified as
active until and unless the attorney requests and is
granted reinstatement to the active rolls.

App. 193

Reinstatement shall be granted unless the attorney is
subject to an outstanding order of suspension or
disbarment or has been in inactive status for five
years or more, upon the payment of any assessment
in effect for the year the request is made and any
arrears accumulated prior to transfer to inactive
status. Attorneys who have been suspended or on
inactive status for over five years before filing a
petition for reinstatement to active status may be
required, in the discretion of this Court, to establish
proof of competency and learning in law which proof
may include certification by the Board of Law
Examiners of the successful completion of an
examination for admission to practice subsequent to
the date of suspension or transfer to inactive status.
20.10. The courts of this state are charged with the
responsibility of insuring that no suspended attorney
be permitted to file any document, paper or pleading
or otherwise practice therein.
20.11. Every lawyer who is required by section 20.5 to
file an annual registration statement with the Board
of Professional Responsibility is requested to also
voluntarily file a pro bono reporting statement,
reporting the extent of the lawyer's pro bono legal
services and activities during the previous calendar
year. In reporting the extent of the lawyer's pro bono
legal services and activities, the lawyer is requested
to state whether or not the lawyer made any voluntary
financial contributions pursuant to Tenn. Sup. Ct. R.
8, RPC 6.1(c), but the lawyer shall not disclose the
amount of any such contributions.
The pro bono reporting statement shall be provided to
the lawyer by the Board of Professional Responsibility
with the lawyer's annual registration statement. The

App. 194

lawyer is requested to complete the pro bono reporting
statement and file it with his or her annual
registration statement.
The pro bono reporting statement shall be provided to
the lawyer by the Board of Professional Responsibility
in substantially the following format:
Many attorneys freely give their time and talents to
improve our profession, our system of justice, and our
communities. Gathering information about volunteer
work done by attorneys is essential to efforts to obtain
and to maintain funding for civil and criminal legal
services for the indigent and for promoting the image
of the legal profession. The Supreme Court of
Tennessee requests that you estimate and voluntarily
report the extent of your pro bono activities in the
preceding calendar year. For further description of
the categories described below, see Tenn. Sup. Ct. R.
8, RPC 6.1.
(1) I estimate that I worked the following hours in
[year]
_____ Hours Providing Legal Services to Persons of
Limited Means Without a Fee or at a Substantially
Reduced Fee;
_____ Hours Providing Legal Services to Non-Profit
Organizations Serving Persons of Limited Means
Without a Fee;
_____ Hours Providing Legal Services to Groups or
Organizations at a Reduced Fee when Payment of
Standard Fees would create a Financial Hardship;
and
_____ Hours Providing Legal Services to Improve the
Law, the Legal System, or the Legal Profession.

App. 195

(2) I voluntarily contributed financial support to
organizations that provide legal services to persons of
limited means:
_____ Yes; (Please do not disclose the amount.)
_____ No.
The Board of Professional Responsibility may
promulgate such forms, policies and procedures as
may be necessary to implement this rule.
The individual information voluntarily provided by
lawyers in the pro bono reporting statements filed
pursuant to this section shall be confidential and shall
not be a public record. The Board of Professional
Responsibility shall not release any individual
information contained in such statements, except as
directed in writing by the Tennessee Supreme Court
or as required by law. The Board, however, may
compile statistical data derived from the statements,
which data shall not identify any individual lawyer,
and may release any such compilations to the public.
[Adopted by Order filed November 2, 2009; amended
by Order filed September 26, 2011; and amended by
Order filed January 25, 2012, effective January 1,
2012.]
DISABILITY
Section 21. Proceedings Where an Attorney Is
Declared to Be Incompetent or Is Alleged to Be
Incapacitated
21.1. Where an attorney has been judicially declared
incompetent or involuntarily committed on the
grounds of incompetency or disability or detained or
placed in the custody of a center for the treatment of
mental illness after a probable cause hearing

App. 196

pursuant to the procedures set forth in Tenn. Code
Ann. § 33-6-103, the Supreme Court, upon proper
proof of the fact, shall enter an order transferring such
attorney to disability inactive status effective
immediately for an indefinite period until the further
order of this Court. A copy of such order shall be
served upon such attorney, the attorney's guardian,
and/or the director of the institution to which the
attorney had been committed in such manner as the
Court may direct.
21.2. Whenever the Board shall petition this Court to
determine whether an attorney is incapacitated from
continuing the practice of law by reason of mental
infirmity or illness or because of addiction to drugs or
intoxicants, or whenever an attorney, with no
disciplinary proceeding or complaint pending, shall
petition to be transferred to disability inactive status,
the Court may take or direct such action as it deems
necessary or proper to determine whether the
attorney is so incapacitated, including the
examination of the attorney by such qualified medical
experts as the Court shall designate or assignment to
a hearing panel for a formal hearing to determine the
issue of capacity. If, upon due consideration of the
matter, the Court concludes that the attorney is
incapacitated from continuing to practice law, it shall
enter an order transferring the attorney to disability
inactive status on the ground of such disability for an
indefinite period and until the further order of this
Court. If the Board files a petition pursuant to this
section while a disciplinary proceeding is pending
against the respondent, the disciplinary proceeding
shall be suspended pending the determination as to
the attorney’s alleged incapacity.

App. 197

21.3. If, during the course of a disciplinary
investigation or proceeding, the respondent contends
that the respondent is suffering from a disability by
reason of mental or physical infirmity or illness, or
because of addiction to drugs or intoxicants, which
disability makes it impossible for the respondent to
respond to or defend against the complaint, such
contention shall place at issue the respondent’s
capacity to continue to practice law. The Court
thereupon shall enter an order immediately
transferring the respondent to disability inactive
status for an indefinite period and until the further
order of this Court. The Court may take or direct such
action as it deems necessary or proper to make a
determination as to the respondent’s capacity to
continue to practice law and to respond to or defend
against the complaint, including the examination of
the respondent by such qualified medical experts as
the Court shall designate or the referral of the matter
to a hearing panel for a formal hearing to determine
the respondent’s capacity to continue to practice law
and to respond to or defend against the complaint.
If the Court or hearing panel shall determine that the
respondent is incapacitated from responding to or
defending against the complaint, the Court or hearing
panel shall take such action as it deems proper and
advisable, including a direction for the suspension of
the disciplinary proceeding against the respondent.
21.4. The Board shall cause a notice of transfer to
disability inactive status to be published in the legal
journal and in a newspaper of general circulation in
each county in which the disabled attorney
maintained an office for the practice of law.

App. 198

21.5. The Board shall promptly transmit a certified
copy of the order of transfer to disability inactive
status to the judges of all of the courts in the counties
in which the disabled attorney maintained a law
practice.
Whenever an attorney has been transferred to
disability inactive status pursuant to either Section
21.1 or 21.3 of this Rule; or, whenever the Board,
pursuant to Section 21.2, petitions this Court to
determine that an attorney is disabled or
incapacitated from continuing the practice of law, the
Board shall request such action under the provisions
of Section 22 as may be indicated in order to protect
the interests of the disabled or alleged disabled
attorney and the attorney's clients.
21.6. No attorney transferred to disability inactive
status under the provisions of this rule may resume
active status until reinstated by order of this Court.
Any attorney transferred to disability inactive status
under the provisions of this Rule shall be entitled to
petition for reinstatement to active status once a year
or at such shorter intervals as this Court may direct
in the order transferring the respondent to disability
inactive status or any modification thereof. The
petition for reinstatement shall be filed with the Court
in the form adopted by the Board. The petitioner shall
serve a copy of the petition upon Disciplinary Counsel,
who shall investigate the matter and file an answer to
the petition; the answer shall include a
recommendation as to whether the petition should be
granted without a hearing or referred to a hearing
panel for a hearing.
Upon the filing of a petition for reinstatement under
this section, the Court may take or direct such action

App. 199

as it deems necessary or proper to a determination of
whether the attorney's disability has been removed,
including a direction for an examination of the
attorney by such qualified medical experts as the
Court shall designate. In its discretion, the Court may
direct that the expense of such an examination shall
be paid by the attorney, and that the attorney
establish proof of competence and learning in law,
which proof may include certification by the Board of
Law Examiners of the successful completion of an
examination for admission to practice. The Court also
may refer the petition to a hearing panel for a hearing
in which the petitioner shall have the burden of proof;
the hearing shall be governed by sections 19.3 - 19.6
of this rule. Such petition shall be granted upon a
showing by clear and convincing evidence that the
attorney's disability has been removed and the
attorney is fit to resume the practice of law.
Pending disciplinary complaints against the attorney,
whether filed before or after the attorney's transfer to
disability inactive status, must be resolved before the
effective date of any reinstatement. Provided,
however, that the Court may order reinstatement
pending the completion of any conditional disciplinary
action (e.g., probation or restitution) imposed upon
the attorney or the final completion of the terms of any
agreement executed by the attorney and the
Tennessee Lawyers Assistance Program.
[Rule 9 § 21.6 changed in its entirety effective July 1,
2008]
21.7. Where an attorney has been transferred to
disability inactive status by an order in accordance
with the provisions of 21.1 above and, thereafter, in
proceedings duly taken, the attorney has been

App. 200

judicially declared to be competent, this Court may
dispense with further evidence that the attorney's
disability has been removed and may direct the
attorney's reinstatement to active status upon such
terms as are deemed proper and advisable.
21.8. In a proceeding seeking a transfer to disability
inactive status under this Section, the burden of proof
shall rest with the Board. In a proceeding seeking an
order of reinstatement to active status under this
Section, the burden of proof shall rest with the
attorney.
21.9. The filing of a petition for reinstatement to
active status by an attorney transferred to disability
inactive status because of disability shall be deemed
to constitute a waiver of any doctor-patient privilege
with respect to any treatment of the attorney during
the period of disability. The attorney shall be required
to disclose the name of every psychiatrist,
psychologist, physician and hospital or other
institution by whom or in which the attorney has been
examined or treated since the transfer to disability
inactive status, and shall furnish to this Court written
consent to each to divulge such information and
records as requested by court appointed medical
experts.
Section 22. Appointment of Counsel to Protect
Clients' Interests When Their Lawyer Has Been
Transferred to Disability Inactive Status,
Placed on Interim Suspension, Suspended or
Disbarred, or Has Disappeared, Abandoned a
Law Practice, or Died, or is Alleged to be
Disabled or Incapacitated Pursuant to Section
21.2

App. 201

22.1. Inventory of Lawyer Files. If a lawyer has been
transferred to disability inactive status, placed on
interim suspension, suspended, or disbarred, and
there is evidence that he or she has not complied with
Section 18 of this Rule; or if a lawyer has disappeared,
abandoned a law practice, or died, or is alleged to be
disabled or incapacitated from continuing the practice
of law pursuant to Section 21.2; and no partner,
executor, or other responsible party capable of
conducting the lawyer's affairs is known to exist, the
presiding judge in the judicial district in which the
lawyer maintained a practice, upon proper proof of the
fact, shall appoint a lawyer or lawyers to inventory the
files of the lawyer, and to take such action as seems
indicated to protect the interests of the lawyer and his
or her clients.
22.2. Protection for Records Subject to Inventory. Any
lawyer so appointed shall not be permitted to disclose
any information contained in any files inventoried
without the consent of the client to whom the file
relates, except as necessary to carry out the order of
the court which appointed the lawyer to make the
inventory.
Section 23. Additional Rules of Procedure
23.1. The transcript of a record shall be made
available to the respondent at respondent's expense
on request made to Disciplinary Counsel. However, if
there is no appeal from the judgment of the hearing
panel, the hearing shall not be transcribed unless
requested by one of the parties, which party shall pay
the expense of transcription. The court reporter shall
preserve the shorthand record of the proceedings until
the time for appeal has expired.

App. 202

23.2. Except as is otherwise provided in these rules,
time is directory and not jurisdictional. Time
limitations are administrative, not jurisdictional.
Failure to observe such directory time intervals may
result in contempt of the agency having jurisdiction
but will not justify abatement of any disciplinary
investigation or proceeding.
23.3. Except as otherwise provided in these Rules, the
Tennessee Rules of Civil Procedure and the Tennessee
Rules of Evidence apply in disciplinary cases.
MISCELLANEOUS PROVISIONS
Section 24. Expenses, Audit, Reimbursement of
Costs
24.1. Expenses. The salaries of Disciplinary Counsel
and staff, their expenses, administrative costs, and
the expenses of the members of the Board and of
members of the district committees shall be paid by
the Board out of the funds collected under the
provisions of Rule 9.
24.2. Accounting. The Administrative Office of the
Courts performs accounting functions for the Board,
either directly or through its oversight and final
approval of transactions performed by Board
personnel.
24.3. Reimbursement of Costs. In the event that a
judgment of disbarment, suspension, public censure,
private reprimand, temporary suspension, disability
inactive status, reinstatement, or denial of
reinstatement results from formal proceedings, the
Board shall assess against the respondent the costs of
the proceedings, including court reporter's expenses
for appearances and transcription of all hearings and
depositions, the expenses of the hearing panel in the

App. 203

hearing of the cause, and the hourly charge of
Disciplinary Counsel in investigating and prosecuting
the matter.
The respondent attorney may petition the Board for
relief from costs within thirty days of receipt of the
final bill of costs or on the termination of any action
upon which the disciplinary proceeding was based,
whichever occurs last. In seeking relief, the
respondent attorney shall have the opportunity to
appear and be heard before the Board or a duly
constituted panel thereof. Having conducted such a
hearing, the Board shall file an order within thirty
days; this order must include the basis for the Board's
decision. An order reflecting the decision shall be
treated as a decree of the circuit or chancery court
and, as such, is appealable to the Tennessee Supreme
Court under Rule 9, § 1.3, Rules of the Supreme Court.
The hourly charges of Disciplinary Counsel on formal
proceedings filed prior to January 27, 1992, shall be
assessed at $20 per hour for investigative time and
$30 per hour for trial time. The hourly charges of
Disciplinary Counsel on formal proceedings filed on or
after January 27, 1992, shall be assessed at $30 per
hour for investigative time incurred prior to the filing
of formal proceedings and $80 per hour in connection
with formal proceedings.
Payment of the costs assessed by the Board pursuant
to this rule shall be required as a condition precedent
to reinstatement of the respondent attorney.
Section 25. Confidentiality
25.1. All matters, investigations, or proceedings
involving allegations of misconduct by or the
disability of an attorney, including all hearings and all

App. 204

information, records, minutes, files or other
documents of the Board, district committee members
and Disciplinary Counsel shall be confidential and
privileged, and shall not be public records, until or
unless:
(a) a recommendation for the imposition of public
discipline, without the initiation of a formal
disciplinary proceeding pursuant to Section 8.2, is
filed with the Supreme Court by the Board; or
(b) a petition to initiate a formal disciplinary
proceeding is filed pursuant to Section 8.2; or
(c) the respondent-attorney requests that the matter
be public; or
(d) the investigation is predicated upon conviction of
the respondent-attorney for a crime; or
(e) in matters involving alleged disability, this Court
enters an order transferring the respondent-attorney
to disability inactive status pursuant to Section 21.
25.2. In disability proceedings referred to in Section
25.1(e), the order transferring the respondentattorney to disability inactive status shall become a
public record upon filing; however, all other
documents relating to the respondent-attorney's
disability proceeding, including any subsequent
petition for reinstatement after transfer to disability
inactive status, shall not be public records and shall
be kept confidential. An order granting a petition for
reinstatement after transfer to disability inactive
status shall become a public record upon filing.
25.3. All work product and work files (including
internal memoranda, correspondence, notes and
similar documents and files) of the Board, district

App. 205

committee members, and Disciplinary Counsel shall
be confidential and privileged and shall not be public
records.
25.4. In order to protect the interests of a
complainant, respondent, witness, or third party, the
Board of Professional Responsibility may, at any stage
of the proceedings, upon application of any person and
for good cause shown, issue a protective order
prohibiting the disclosure of specific information or
documents, or the closure of any hearing, and direct
that the proceedings be conducted so as to implement
the order, including requiring that the hearing be
conducted in such a way as to preserve the
confidentiality of the information that is the subject of
the application. After the initiation of a formal
proceeding, any such application shall be filed with
and decided by the assigned hearing panel.
25.5. All participants in any matter, investigation, or
proceeding shall conduct themselves so as to maintain
confidentiality. However, unless a protective order
has been entered, nothing in this Section or these
Rules shall prohibit the complainant, respondentattorney, or any witness from disclosing the existence
or substance of a complaint, matter, investigation, or
proceeding under these Rules or from disclosing any
documents or correspondence filed by, served on, or
provided to that person.
25.6. In those disciplinary proceedings in which
judicial review is sought pursuant to Section 1.3, the
records and hearing in the circuit or chancery court
and in this Court shall be public to the same extent as
other cases.

App. 206

25.7. The provisions of this rule shall not be construed
to deny access to relevant information to authorized
agencies investigating the qualifications of judicial
candidates; or to other jurisdictions investigating
qualifications for admission to practice; or to law
enforcement agencies investigating qualifications for
government employment; or to prevent the Board
from reporting evidence of a crime by an attorney or
other person to courts or law enforcement agencies; or
to prevent the Board from reporting to the Tennessee
Lawyer Assistance Program evidence of a disability
that impairs the ability of a lawyer to practice or
serve; or to prevent the Board or Disciplinary Counsel
from defending any action or proceeding now pending
or hereafter brought against either of them. In
addition, the Board shall transmit notice of all public
discipline imposed by the Supreme Court on an
attorney or the transfer to inactive status due to
disability of an attorney to the National Discipline
Data Bank maintained by the American Bar
Association.
25.8. Nothing in this Section is intended to limit or
repeal any confidentiality or privilege afforded by
other law.
Section 26. Ethics Opinions
26.1. The Board of Professional Responsibility shall be
divided into three geographic ethics committees with
each being responsible for issuing ethics opinions from
time to time as designated by the Board.
26.2. Each committee shall act under the rules it may
from time to time promulgate, but shall act only with
the concurrence of two or more members.

App. 207

26.3. Members of each ethics committee shall receive
no compensation for their services but may be
reimbursed for their travel and other expenses
incidental to the performance of their duties.
26.4. Each ethics committee shall exercise the powers
and perform the ordinary and necessary duties
usually carried out by ethics advisory bodies. Each
shall:
(a) By the concurrence of a majority of its members
issue and publish Formal Ethics Opinions on proper
professional conduct, either on its own initiative or
when requested to do so by a member of the bar or by
an officer or a committee or any other state or local
bar association, except that an opinion may not be
issued in a matter that is pending before a court or a
pending disciplinary proceeding;
(b) Periodically publish its issued Formal Ethics
Opinions to the legal profession in summary or
complete form;
(c) On request, advise or otherwise help any state or
local bar association in their activities relating to the
interpretation of the Rules of Professional Conduct;
(d) Recommend appropriate amendments to or
clarification of the Rules of Professional Conduct, if it
considers them advisable;
(e) Employ such professional and/or clerical help
necessary to carry out its duties; and
(f) Adopt such rules as it considers appropriate
relating to the procedures to be used in considering
inquiries and expressing opinions, including
procedures for classifying opinions or declining
requests for opinions.

App. 208

26.5. (a) A Formal Ethics Opinion issued and
published by the ethics committee shall bind the
committee, the person requesting the opinion, and the
Board of Professional Responsibility, and shall
constitute a body of principles and objectives upon
which members of the bar can rely for guidance in
many specific situations.
(b) Requests for Formal Ethics Opinions shall be
addressed to the Board of Professional Responsibility
in writing, stating the factual situation in detail,
accompanied by a short brief or memorandum citing
the Rules of Court or Professional Conduct involved
and any other pertinent authorities and shall contain
a certificate with the opinion that the matters are not
pending in any court or disciplinary proceeding.
(c) An advisory ethics opinion may be issued by
Disciplinary Counsel orally when there is readily
available precedent. The opinion shall not be binding
on the ethics committee, the Board of Professional
Responsibility, or the Court and shall offer no security
to the person requesting it.
Section 27. Immunity
27.1. Communications to the board, district
committee members or Disciplinary Counsel relating
to lawyer misconduct or disability and testimony
given in the proceedings shall be absolutely
privileged, and no civil lawsuit predicated thereon
may be instituted against any complainant or
witnesses. Members of the board, district committee
members, Disciplinary Counsel and staff shall be
immune from civil suit for any conduct in the course
of their official duties.

App. 209

Section 28.
Program

Tennessee

Lawyer

Assistance

The Tennessee Lawyers Assistance Program (TLAP)
was established by the Tennessee Supreme Court to
provide immediate and continuing help to lawyers,
judges, bar applicants, and law students who suffer
from physical or mental disabilities that result from
disease, disorder, trauma, or age and that impair their
ability to practice or serve.
28.1. Referrals to TLAP.
(a) Pursuant to Rule 33.07(A) of the Rules of the
Tennessee Supreme Court, the Board of Professional
Responsibility, its Hearing Panels or Disciplinary
Counsel may provide a written referral to TLAP of any
attorney who the BPR, Hearing Panel, or Disciplinary
Counsel (collectively, “the BPR”) determines:
(1) has failed to respond to a disciplinary complaint;
(2) has received three or more complaints within a
period of 12 months;
(3) has received a complaint that includes multiple
failures to appear or to respond or to take any other
action in compliance with established rules or time
guidelines;
(4) has pleaded impairment or disability as a defense
to a complaint;
(5) has exhibited behavior or has engaged in behavior
that, in the BPR’s determination, warrants
consultation and, if recommended by TLAP, further
assessment, evaluation, treatment, assistance, or
monitoring.

App. 210

(6) is seeking readmission or reinstatement where
there is a question of either prior or present
impairment or disability; or
(7) is requesting TLAP's involvement.
(b) The Executive Director of TLAP shall review any
referral by the BPR. If the Executive Director of TLAP
deems that assistance and monitoring of an attorney
is appropriate, the Executive Director will make
reasonable efforts to enter into a Monitoring/Advocacy
Agreement ("Agreement") with the attorney pursuant
to Rule 33.05(E) of the Rules of the Tennessee
Supreme Court. If the Executive Director of TLAP
determines that TLAP assistance is not appropriate,
for whatever reason, the Executive Director shall
report that determination to the BPR, without further
elaboration and without disclosure of information
otherwise confidential under Rule 33.10.
(c) The BPR will provide written notification to the
Executive Director of TLAP that TLAP’s assistance
will be or has been recommended in any matter
pending before the BPR or when TLAP has an ongoing
relationship with an attorney who has a matter
pending before the BPR. The BPR will provide such
notification prior to the date of any hearing and will
further provide notice of any hearing date. The
Executive Director of TLAP or his or her
representative may attend any such hearing.
(d) The BPR will provide written notification to the
Executive Director of TLAP of any provision
concerning the participation of TLAP included in any
proposed order submitted by the BPR to the
Tennessee Supreme Court. The Executive Director of
TLAP will notify the BPR of any requested

App. 211

modification of the order and may decline
involvement. If the Executive Director of TLAP
declines involvement of TLAP, the BPR shall not
include TLAP’s participation in any proposed order
submitted to the Supreme Court.
(e) Pursuant to Rule 33.07 (B) of the Rules of the
Tennessee Supreme Court, TLAP will provide the
BPR with the following information:
(1) TLAP will notify the BPR of a referred attorney’s
failure to establish contact with TLAP or enter into a
recommended Agreement.
(2) If the attorney enters into an Agreement with
TLAP, TLAP will provide a copy of the Agreement to
the BPR. Such Agreement will provide for notification
by TLAP to the BPR of substantial non-compliance
with any of the terms or conditions of the Agreement.
Contemporaneously with any such notification, the
Executive Director of TLAP may make such
recommendation to the BPR as TLAP deems
appropriate.
(3) Upon request of the BPR, TLAP will provide the
BPR with a status report of monitoring and
compliance pursuant to the Agreement. When
appropriate, the BPR will obtain from TLAP’s
Executive Director a recommendation concerning the
attorney’s compliance with any Agreement.
28.2. Autonomy. The BPR and TLAP shall remain
completely independent, and the activities of one shall
in no way be construed to limit or impede the activities
of the other.
Section 29. Detection and Prevention of Trust
Account Violations

App. 212

29.1. Maintenance of Trust Funds in Approved
Financial Institutions; Overdraft Notification.
A. Clearly Identified Trust Accounts in Approved
Financial Institutions Required.
(1) Attorneys who practice law in Tennessee shall
deposit all funds held in trust in this jurisdiction in
accounts clearly identified as "trust" or "escrow"
accounts, referred to herein as "trust accounts," and
shall take all steps necessary to inform the depository
institution of the purpose and identity of the accounts.
Funds held in trust include funds held in any
fiduciary
capacity
in
connection
with
a
representation, whether as trustee, agent, guardian,
executor or otherwise. Attorney trust accounts shall
be maintained only in financial institutions approved
by the Board of Professional Responsibility, provided
however nothing herein shall be construed as limiting
any statutory provisions dealing with the investment
of trust and/or estate assets, or the investment
authority granted in any instrument creating a
fiduciary relationship.
(2) Every lawyer engaged in the practice of law in
Tennessee shall maintain and preserve for a period of
at least five years, after final disposition of the
underlying matter, the records of the accounts,
including checkbooks, canceled checks, check stubs,
vouchers, ledgers, journals, closing statements,
accounting or other statements of disbursements
rendered to clients or other parties with regard to
trust funds or similar equivalent records clearly and
expressly reflecting the date, amount, source and
explanation for all receipts, withdrawals, deliveries
and disbursements of the funds or other property of a
client. The five year period for preserving records

App. 213

created herein is only intended for the application of
this rule and does not alter, change or amend any
other requirements for record-keeping as may be
required by other laws, statutes or regulations.
B.
Overdraft
Notification
Agreement
and
Acknowledgment of Authorization Required.
A
financial institution shall be approved as a depository
for attorney trust accounts if it files with the Board an
acknowledgment of the attorney's constructive
consent of disclosure of their trust account financial
records as a condition of their admission to practice
law, and the financial institution's agreement, in a
form provided by the Board to report to the Board
whenever any properly payable instrument is
presented against an attorney trust account
containing insufficient funds, irrespective of whether
or not the instrument is honored. The Board shall
establish rules governing approval and termination of
approved status for financial institutions, and shall
annually publish a list of approved financial
institutions. No trust account shall be maintained in
any financial institution that does not acknowledge
constructive authorization by the attorney and agree
to so report. Any such acknowledgment and
agreement shall apply to all branches of the financial
institution and shall not be canceled except upon
thirty days notice in writing to the Board.
C. Overdraft Reports. The overdraft notification
agreement shall provide that all reports made by the
financial institution shall be in the following format:
(1) In the case of a dishonored instrument, the report
shall be identical to the overdraft notice customarily
forwarded to the depositor, and should include a copy

App. 214

of the dishonored instrument, if such a copy is
normally provided to depositors;
(2) In the case of instruments that are presented
against insufficient funds but which instruments are
honored, the report shall identify the financial
institution, the attorney or law firm, the account
number, the date of presentation for payment, and the
date paid, as well as the amount of overdraft created
thereby.
D. Timing of Reports. Reports under paragraph C
shall be made simultaneously with, and within the
time provided by law for notice of dishonor, if any. If
an instrument presented against insufficient funds is
honored, then the report shall be made within five
banking days of the date of presentation for payment
against insufficient funds.
E. Consent by Lawyers. Every lawyer practicing or
admitted to practice in this jurisdiction shall, as a
condition thereof, be conclusively deemed, under the
financial records privacy laws, other similar laws, or
otherwise, to have designated the Board of
Professional Responsibility as their agent for the
purpose of disclosure of financial records by financial
institutions relating to their trust accounts;
conclusively deemed to have authorized disclosure of
financial records relating to their trust accounts to the
Board
of
Professional
Responsibility;
and,
conclusively deemed to have consented to the
reporting and production of financial records
requirements contemplated or mandated by Sections
29.1 or 29.2 of this rule.
F. No Liability Created. Nothing herein shall create
or operate as a liability of any kind or nature against

App. 215

any financial institution for any of its actions or
omissions in reporting overdrafts or insufficient funds
to the Board.
G. Costs. Nothing herein shall preclude a financial
institution from charging a particular lawyer or law
firm for the reasonable cost of producing the reports
and records required by this rule.
H. Definitions. For the purpose of this rule:
(1) "Financial institution" includes a bank, savings
and loan association, credit union, savings bank, and
any other business or person that accepts for deposit
funds held in trust by attorneys.
(2) "Properly payable" refers to an instrument which,
if presented in the normal course of business, is in a
form requiring payment under the laws of this
jurisdiction.
(3) "Notice of dishonor" refers to the notice that a
financial institution is required to give, under the
laws of this jurisdiction, upon presentation of an
instrument that the institution dishonors.
29.2. Verification of Bank Accounts.
A. Generally. Whenever Disciplinary Counsel has
probable cause to believe that bank accounts of a
lawyer that contain, should contain or have contained
funds belonging to clients have not been properly
maintained or that the funds have not been properly
handled, Disciplinary Counsel shall request the
approval of the Chair or Vice-Chair of the Board to
initiate an investigation for the purpose of verifying
the accuracy and integrity of all bank accounts
maintained by the lawyer. If the Chair or Vice-Chair

App. 216

approves, counsel shall proceed to verify the accuracy
of the bank accounts.
B. Confidentiality. Investigations, examinations, and
verifications shall be conducted so as to preserve the
private and confidential nature of the lawyer's records
insofar as is consistent with these rules and the
lawyer-client privilege; however, no assertion of
attorney-client privilege or confidentiality will
prevent an inspection or audit of a trust account as
provided in this rule.
Section 30. Diversion of Disciplinary Cases
30.1. Authority of Board. The Board of Professional
Responsibility is hereby authorized to establish
practice and professionalism enhancement programs
to which eligible disciplinary cases may be diverted as
an alternative to disciplinary sanction.
30.2. Types of Disciplinary Cases Eligible for
Diversion. Disciplinary cases that otherwise would
be disposed of by a private informal admonition or a
private reprimand are eligible for diversion to practice
and professionalism enhancement programs.
30.3. Limitation on Diversion. A respondent who
has been the subject of a prior diversion within five (5)
years shall not be eligible for diversion.
30.4. Approval of Diversion. The Board of
Professional Responsibility shall not offer a
respondent the opportunity to divert a disciplinary
case to a practice and professionalism enhancement
program unless the Board or a combination of
Disciplinary Counsel and a district committee
member concur.

App. 217

30.5. Contents of Diversion Recommendation. If
a diversion recommendation is approved as provided
in Section 30.4, the recommendation shall state the
practice
and
professionalism
enhancement
program(s) to which the respondent shall be diverted,
shall state the general purpose for the diversion, and
that the costs thereof shall be paid by the respondent.
30.6. Service of Recommendation on and Review
by Respondent. If a diversion recommendation is
approved as provided in Section 30.4, the
recommendation shall be served on the respondent
who may accept or reject a diversion recommendation
in the same manner as provided for in Section 8 of
Rule 9. The respondent shall not have the right to
reject any specific requirement of a practice and
professionalism enhancement program.
30.7. Effect of Rejection of Recommendation by
Respondent. In the event that a respondent rejects a
diversion recommendation the matter shall be
returned for further proceedings under these rules.
30.8. Authority of Hearing Panel to Refer a
Matter to a Practice and Professionalism
Enhancement Program. Nothing in this rule shall
preclude a hearing panel from referring a disciplinary
matter to a practice and professionalism enhancement
program as a part of a disciplinary sanction.
30.9.
Effect
of
Diversion.
When
the
recommendation of diversion becomes final, the
respondent
shall
enter
the
practice
and
professionalism enhancement program(s) and
complete
the
requirements
thereof.
Upon
respondent's completion of the practice and
professionalism enhancement program(s), the Board

App. 218

of Professional Responsibility shall terminate its
investigation into the matter and its disciplinary files
shall be closed indicating the diversion unless the
diversion is ordered in addition to other discipline.
Diversion into the practice and professionalism
enhancement program shall not constitute a
disciplinary sanction and shall remain confidential.
30.10. Effect of Failure to Complete the Practice
and Professionalism Enhancement Program. If
a respondent fails to fully complete all requirements
of the practice and professionalism enhancement
program(s) to which the respondent was diverted,
including the payment of costs thereof, the Board of
Professional
Responsibility
may
reopen
its
disciplinary file and conduct further proceedings
under these rules. Failure to complete the practice
and professionalism enhancement program shall be
considered as a matter of aggravation when imposing
a disciplinary sanction.
Section 31. Attorneys Adjudged to have Willfully
Refused to Comply with a Court Order
31.1. A certified copy of a court order adjudicating,
upon notice and hearing, that a lawyer has willfully
refused to comply with a court order, entered in a case
in which the lawyer is a party, may be filed forthwith
with the clerk of the Supreme Court by the clerk or
judge of the court in which the order was entered, or
by any party to the case in which the order was
entered, or by any other party having an interest in
the case, or by Disciplinary Counsel of the Board of
Professional Responsibility. Upon the filing of such
order, the Supreme Court will enter an order
immediately suspending the lawyer from the practice
of law. Such suspension shall remain in effect until

App. 219

such time as this Court may determine that the
lawyer has complied with the terms of the original
order or until such time prior to compliance as the
interest of justice may require. The lawyer may at any
time make application for relief.
31.2. Summary suspension pursuant to Section 32.1
shall be in addition to any other proceeding and any
other sanction or punishment imposed pursuant to
law.
31.3. An order suspending a lawyer from the practice
of law pursuant to this Section 32 shall not constitute
a suspension of the lawyer for the purpose of Section
18 unless this Court shall so order.
[Amended by order filed April 25, 2006. Effective July
1, 2006, and by order filed December 20, 2006.]
Section 32. Attorneys Failing to Comply with
Tenn. Code Ann. §§ 67-4-1701 - 1710 (Privilege
Tax Applicable to Persons Licensed to Practice
Law)
Tenn. Code Ann. § 67-4-1702 levies a tax on the
privilege of engaging in certain vocations, professions,
businesses and occupations, including "persons
licensed as attorneys by the supreme court of
Tennessee." Tenn. Code Ann. § 67-4-1704 provides
that failure to pay the privilege tax can result in
suspension or revocation of "any license or
registration by the appropriate licensing board" and
goes on to state that "the supreme court of Tennessee
is encouraged to establish guidelines to suspend the
license of an attorney who fails to comply with the
requirements of this part." The Supreme Court hereby
establishes the following procedures to promote
compliance with Tenn. Code Ann. §§ 67-4-1701 - 1710,

App. 220

as those sections apply to attorneys licensed by the
Court.
32.1. The Court designates the Chief Disciplinary
Counsel of the Board of Professional Responsibility
("Board") as the official to whom the Department of
Revenue shall annually send a list of attorneys
licensed by this Court who have failed, for two or more
consecutive years, to pay the privilege tax imposed by
Tenn. Code Ann. § 67-4-1702.
32.2. Upon receipt of the list of attorneys transmitted
by the Department of Revenue, the Chief Disciplinary
Counsel shall serve each attorney listed thereon with
a Privilege Tax Delinquency Notice, stating that the
Department of Revenue has informed the Board that
the attorney has failed, for two or more consecutive
years, to pay the privilege tax imposed by section § 674-1702 and that the attorney's license is therefore
subject to suspension. The Notice shall be served upon
the attorney by registered or certified mail, return
receipt requested, at the address shown in the most
recent registration statement filed by the attorney
pursuant to Supreme Court Rule 9, Section 20.5 or
other last known address.
32.3. Each attorney to whom a Privilege Tax
Delinquency Notice is issued shall file with the Board,
within sixty (60) days of the date of issuance of the
Notice, an affidavit supported by documentary
evidence showing that the attorney has paid the
delinquent privilege taxes and any interest and
penalties assessed by the Department of Revenue. In
the event the attorney fails to submit such evidence to
the Board, Disciplinary Counsel shall proceed
according to the following provisions.

App. 221

32.4. Within thirty (30) days of the expiration of the
period for attorneys to respond, as required in section
32.3, to the Privilege Tax Delinquency Notices mailed
to the attorneys listed by the Department of Revenue,
the Chief Disciplinary Counsel shall prepare a
proposed Suspension Order listing all attorneys who
were issued Privilege Tax Delinquency Notices and
who either failed to satisfactorily demonstrate to the
Board that they had paid their delinquent taxes (and
any interest and penalties) or failed to respond to the
Notice. The proposed Suspension Order shall provide
that the license to practice law issued to each listed
attorney shall be suspended upon the Court's filing of
the order and pending the attorney's payment of the
delinquent privilege taxes and any interest and
penalties.
32.5. Upon the Court's review and approval of the
order, the Court will file the order summarily
suspending the license to practice law of each attorney
listed in the order. The suspended attorneys shall
comply with the applicable provisions of section 18 of
this rule. The suspension shall remain in effect until
the attorney pays the delinquent privilege taxes and
any interest and penalties, as well as any fees imposed
by this rule, and he or she is reinstated pursuant to
section 32.7.
32.6. Each attorney who is issued a Privilege Tax
Delinquency Notice shall pay to the Board a fee in the
amount of $100 to defray the Board's costs in issuing
the Notice. Each attorney whose license to practice
law is suspended by the Court pursuant to this rule
shall pay to the Board a reinstatement fee in the
amount of $200 as a condition of reinstatement of his
or her law license after paying the delinquent

App. 222

privilege taxes and any interest and penalties. The
reinstatement fee shall be paid in addition to the fee
for issuance of the Notice.
32.7. An attorney suspended by the Court pursuant to
this rule may file with the Board an application for
reinstatement demonstrating that he or she has paid
all delinquent privilege taxes and any interest and
penalties. If the application is satisfactory to the
Board, if the attorney is otherwise eligible for
reinstatement, and if the attorney has paid in full all
fees due under this rule, the attorney shall be
reinstated without further order.
[adopted by Order filed September 11, 2009.]
Section 33. Multijurisdictional Practice.
33.1. Any attorney practicing in this State under the
authority of RPC 5.5(c) or (d) or otherwise subject to
this Court's disciplinary jurisdiction under RPC 8.5 is
subject to the disciplinary jurisdiction prescribed in
Section 1.1 of this Rule 9 and the procedures for
exercise of such jurisdiction prescribed in this Rule 9.
33.2. The authorization for practice granted in RPC
5.5(c) or (d) may be terminated or suspended. The
grounds and processes for such termination shall be
those provided in this Rule 9 for disbarment; and the
grounds and processes for such suspension shall be
those provided in this Rule 9 for suspension.
33.3. If an attorney is practicing in this State under
authority of RPC 5.5(c), or if an attorney is practicing
in this State under authority of RPC 5.5(d) and does
not maintain an office in this State, hearing pmel
proceedings shall occur in the disciplinary district,
circuit or chancery court proceedings for review of
Board action prescribed in this Rule 9 shall occur in

App. 223

the county or disciplinary district, and unappealed
final trial court judgments terminating or suspending
the authorization for practice shall be forwarded to
the office of the clerk of the Supreme Court for the
grand division, where the conduct that forms the basis
of the complaint against the attorney occurred.
33.4. The procedures and remedies for reciprocal
discipline prescribed in Section 17 of this Rule shall
apply to attorneys practicing in this State under
authority of RPC 5.5(d)(1). Upon receipt of a certified
copy of an order demonstrating that such an attorney
has been disciplined in another jurisdiction, the Court
shall employ the procedures prescribed in subsections
17.2 through 17.5.
33.5. The information filing, fee payment and other
requirements and regulations prescribed in Section 20
of this Rule shall apply to attorneys practicing in this
State under authority of RPC 5.5(6)(1).
[Amended by Order filed October 23, 2009; and
amended by order filed May 2, 2011]

App. 224

_______________
APPENDIX G
_______________
Tennessee Supreme Court Rule 8
(Pertinent Text)
RULE 1.5: FEES
(a) A lawyer shall not make an agreement for, charge,
or collect an unreasonable fee or an unreasonable
amount for expenses. The factors to be considered in
determining the reasonableness of a fee include the
following:
(1) the time and labor required, the novelty and
difficulty of the questions involved, and the skill
requisite to perform the legal service properly;
(2) the likelihood, if apparent to the client, that the
acceptance of the particular employment will preclude
other employment by the lawyer;
(3) the fee customarily charged in the locality for
similar legal services;
(4) the amount involved and the results obtained;
(5) the time limitations imposed by the client or by the
circumstances;
(6) the nature and length of the professional
relationship with the client;
(7) the experience, reputation, and ability of the
lawyer or lawyers performing the services;
(8) whether the fee is fixed or contingent;

App. 225

(9) prior advertisements or statements by the lawyer
with respect to the fees the lawyer charges; and
(10) whether the fee agreement is in writing.
(b) The scope of the representation and the basis or
rate of the fee and expenses for which the client will
be responsible shall be communicated to the client,
preferably in writing, before or within a reasonable
time after commencing the representation, except
when the lawyer will charge a regularly represented
client on the same basis or rate. Any changes in the
basis or rate of the fee or expenses shall also be
communicated to the client.
(c) A fee may be contingent on the outcome of the
matter for which the service is rendered, except in a
matter in which a contingent fee is prohibited by
paragraph (d) or other law. A contingent fee
agreement shall be in a writing signed by the client
and shall state the method by which the fee is to be
determined, including the percentage or percentages
that shall accrue to the lawyer in the event of
settlement, trial, or appeal; litigation and other
expenses to be deducted from the recovery; and
whether such expenses are to be deducted before or
after the contingent fee is calculated. The agreement
must clearly notify the client of any expenses for
which the client will be liable whether or not the client
is the prevailing party. Upon conclusion of a
contingent fee matter, the lawyer shall provide the
client with a written statement stating the outcome of
the matter and, if there is a recovery, showing the
remittance to the client and the method of its
determination.

App. 226

(d) A lawyer shall not enter into an arrangement for,
charge, or collect:
(1) any fee in a domestic relations matter, the
payment or amount of which is contingent upon the
securing of a divorce or the award of custodial rights,
or upon the amount of alimony or support, or the value
of a property division or settlement, unless the matter
relates solely to the collection of arrearages in alimony
or child support or the enforcement of an order
dividing the marital estate and the fee arrangement
is disclosed to the court; or
(2) a contingent fee for representing a defendant in a
criminal case.
(e) A division of a fee between lawyers who are not in
the same firm may be made only if:
(1) the division is in proportion to the services
performed by each lawyer or each lawyer assumes
joint responsibility for the representation;
(2) the client agrees to the arrangement, and the
agreement is confirmed in writing; and
(3) the total fee is reasonable.
(f) A fee that is nonrefundable in whole or in part shall
be agreed to in a writing, signed by the client, that
explains the intent of the parties as to the nature and
amount of the nonrefundable fee.
Comment
Reasonableness of Fee and Expenses
[1] Paragraph (a) requires that lawyers charge fees
that are reasonable under the circumstances. The
factors specified in (1) through (10) are not exclusive.
Nor will each factor be relevant in each instance.

App. 227

Paragraph (a) also requires that expenses for which
the client will be charged must be reasonable. A
lawyer may seek reimbursement for the cost of
services performed in-house, such as copying, or for
other expenses incurred in-house, such as telephone
charges, either by charging a reasonable amount to
which the client has agreed in advance or by charging
an amount that reasonably reflects the cost incurred
by the lawyer.
Basis or Rate of Fee
[2] When the lawyer has regularly represented a
client, they ordinarily will have evolved an
understanding concerning the basis or rate of the fee
and the expenses for which the client will be
responsible. In a new client-lawyer relationship,
however, an understanding as to fees and expenses
must be promptly established. Generally, it is desirable
to furnish the client with at least a simple memorandum
or copy of the lawyer's customary fee arrangements
that states the general nature of the legal services to
be provided, the basis, rate or total amount of the fee
and whether and to what extent the client will be
responsible for any costs, expenses, or disbursements
in the course of the representation. A written statement
concerning the terms of the engagement reduces the
possibility of misunderstanding. With respect to whether
a writing is required when a lawyer seeks to change
the terms of a fee agreement with a client, see RPC
1.8, Comment [1].
[3] Contingent fees, like any other fees, are subject to
the reasonableness standard of paragraph (a) of this
Rule. In determining whether a particular contingent
fee is reasonable, or whether it is reasonable to charge
any form of contingent fee, a lawyer must consider the

App. 228

factors that are relevant under the circumstances.
Applicable law may impose limitations on contingent
fees, such as a ceiling on the percentage allowable, or
may require a lawyer to offer clients an alternative
basis for the fee. Applicable law also may apply to
situations other than a contingent fee, for example,
government regulations regarding fees in certain tax
matters.
Terms of Payment
[4] A lawyer may require advance payment of a fee,
but
is
obliged
to
return
any
unearned
portion. See RPC 1.16(d). The obligation to return
any portion of a fee does not apply, however, if the
lawyer charges a reasonable nonrefundable fee.
[4a] A nonrefundable fee is one that is paid in advance
and earned by the lawyer when paid. Nonrefundable
fees, like any other fees, are subject to the
reasonableness standard of paragraph (a) of this Rule.
In determining whether a particular nonrefundable
fee is reasonable, or whether it is reasonable to charge
a nonrefundable fee at all, a lawyer must consider the
factors that are relevant to the circumstances.
Recognized examples of appropriate nonrefundable
fees include a nonrefundable retainer paid to
compensate the lawyer for being available to
represent the client in one or more matters or where
the client agrees to pay to the lawyer at the outset of
the representation a reasonable fixed fee for the
representation. Such fees are earned fees so long as
the lawyer remains available to provide the services
called for by the retainer or for which the fixed fee was
charged. RPC 1.5(f) requires a writing signed by the
client to make certain that lawyers take special care

App. 229

to assure that clients understand the implications of
agreeing to pay a nonrefundable fee.
[4b] A lawyer may accept property in payment for
services, such as an ownership interest in an
enterprise, providing this does not involve acquisition
of a proprietary interest in the cause of action or
subject matter of the litigation contrary to RPC 1.8(i).
However, a fee paid in property instead of money may
be subject to the requirements of RPC 1.8(a) because
such fees often have the essential qualities of a
business transaction with the client.
[5] An agreement may not be made whose terms might
induce the lawyer improperly to curtail services for
the client or perform them in a way contrary to the
client's interest. For example, a lawyer should not
enter into an agreement whereby services are to be
provided only up to a stated amount when it is
foreseeable that more extensive services probably will
be required, unless the situation is adequately
explained to the client. Otherwise, the client might
have to bargain for further assistance in the midst of
a proceeding or transaction. However, it is proper to
define the extent of services in light of the client's
ability to pay. A lawyer should not exploit a fee
arrangement based primarily on hourly charges by
using wasteful procedures. When there is doubt
whether a contingent fee is consistent with the client's
best interest, the lawyer should discuss with the client
alternative bases for the fee and explain their
implications.
Prohibited Contingent Fees
[5a] In some circumstances, applicable law may
impose limitations on contingent fees, such as a

App. 230

ceiling on the percentage. For example, Tennessee law
regulates contingent fees in medical malpractice
cases. See Tenn. Code Ann. § 29-26-120. In these
circumstances, charging unlawful fees or expenses
may be considered unreasonable under paragraph (a)
of this Rule and may violate RPC 8.4 or other
rules. See RPC 8.4(d) (prohibiting conduct prejudicial
to the administration of justice).
[6] Paragraph (d) prohibits a lawyer from charging a
contingent fee in a domestic relations matter when
payment is contingent upon the securing of a divorce
or an award of custody or upon the amount of alimony
or support or property settlement to be obtained. This
provision permits a contingent fee for legal
representation in connection with the recovery of postjudgment balances due under support, alimony, or
other financial orders provided that the fee
arrangement is disclosed to the court.
Division of Fee
[7] A division of fee is a single billing to a client
covering the fee of two or more lawyers who are not in
the same firm. A division of fee facilitates association
of more than one lawyer in a matter in which neither
alone could serve the client as well, and most often is
used when the fee is contingent and the division is
between a referring lawyer and a trial specialist.
Paragraph (e) permits the lawyers to divide a fee
either on the basis of the proportion of services they
render or if each lawyer assumes responsibility for the
representation as a whole. In addition, the client must
agree to the arrangement, and the agreement must be
confirmed in writing. It does not require disclosure to
the client of the share that each lawyer is to receive.
Contingent fee agreements must be in a writing

App. 231

signed by the client and must otherwise comply with
paragraph (c) of this Rule. Joint responsibility for the
representation entails the obligations stated in RPC
5.1 for purposes of the matter involved. A lawyer
should only refer a matter to a lawyer whom the
referring lawyer reasonably believes is competent to
handle the matter. See RPC 1.1.
[8] Paragraph (e) does not prohibit or regulate division
of fees to be received in the future for work done when
lawyers were previously associated in a law firm.
Disputes over Fees
[9] If a procedure has been established for resolution
of fee disputes, such as an arbitration or mediation
procedure established by the bar, the lawyer must
comply with the procedure when it is mandatory, and,
even when it is voluntary, the lawyer should
conscientiously consider submitting to it. Law may
prescribe a procedure for determining a lawyer's fee,
for example, in representation of an executor or
administrator, a class or a person entitled to a
reasonable fee as part of the measure of damages. The
lawyer entitled to such a fee and a lawyer
representing another party concerned with the fee
should comply with the prescribed procedure.
RULE 3.3: CANDOR TOWARD THE TRIBUNAL
(a) A lawyer shall not knowingly:
(1) make a false statement of fact or law to a tribunal;
or
(2) fail to disclose to the tribunal legal authority in the
controlling jurisdiction known to the lawyer to be
directly adverse to the position of the client and not
disclosed by opposing counsel; or

App. 232

(3) in an ex parte proceeding, fail to inform the
tribunal of all material facts known to the lawyer that
will enable the tribunal to make an informed decision,
whether or not the facts are adverse.
(b) A lawyer shall not offer evidence the lawyer knows
to be false, except that a lawyer who represents a
defendant in a criminal proceeding, and who has been
denied permission to withdraw from the defendant's
representation after compliance with paragraph (f),
may allow the client to testify by way of an undirected
narrative or take such other action as is necessary to
honor the defendant's constitutional rights in
connection with the proceeding.
(c) A lawyer shall not affirm the validity of, or
otherwise use, any evidence the lawyer knows to be
false.
(d) A lawyer may refuse to offer or use evidence, other
than the testimony of a client who is a defendant in a
criminal matter, that the lawyer reasonably believes
is false, misleading, fraudulent or illegally obtained.
(e) If a lawyer knows that the lawyer's client intends
to perpetrate a fraud upon the tribunal or otherwise
commit an offense against the administration of
justice in connection with the proceeding, including
improper conduct toward a juror or a member of the
jury pool, or comes to know, prior to the conclusion of
the proceeding, that the client has, during the course
of the lawyer's representation, perpetrated such a
crime or fraud, the lawyer shall advise the client to
refrain from, or to disclose or otherwise rectify, the
crime or fraud and shall discuss with the client the
consequences of the client's failure to do so.

App. 233

(f) If a lawyer, after discussion with the client as
required by paragraph (e), knows that the client still
intends to perpetrate the crime or fraud, or refuses or
is unable to disclose or otherwise rectify the crime or
fraud, the lawyer shall seek permission of the tribunal
to withdraw from the representation of the client and
shall inform the tribunal, without further disclosure
of information protected by RPC 1.6, that the lawyer's
request to withdraw is required by the Rules of
Professional Conduct.
(g) A lawyer who, prior to conclusion of the proceeding,
comes to know that the lawyer has offered false
tangible or documentary evidence shall withdraw or
disaffirm such evidence without further disclosure of
information protected by RPC 1.6.
(h) A lawyer who, prior to the conclusion of the
proceeding, comes to know that a person other than
the client has perpetrated a fraud upon the tribunal
or otherwise committed an offense against the
administration of justice in connection with the
proceeding, and in which the lawyer's client was not
implicated, shall promptly report the improper
conduct to the tribunal, even if so doing requires the
disclosure of information otherwise protected by RPC
1.6.
(i) A lawyer who, prior to conclusion of the proceeding,
comes to know of improper conduct by or toward a
juror or a member of the jury pool shall report the
improper conduct to the tribunal, even if so doing
requires the disclosure of information otherwise
protected by RPC 1.6.
(j) If, in response to a lawyer's request to withdraw
from the representation of the client or the lawyer's

App. 234

report of a perjury, fraud, or offense against the
administration of justice by a person other than the
lawyer's client, a tribunal requests additional
information that the lawyer can only provide by
disclosing information protected by RPC 1.6 or 1.9(c),
the lawyer shall comply with the request, but only if
finally ordered to do so by the tribunal after the
lawyer has asserted on behalf of the client all nonfrivolous claims that the information sought by the
tribunal is protected by the attorney-client privilege.
Comment
[1] This Rule governs the conduct of a lawyer who is
representing a client in connection with the
proceedings of a tribunal, such as a court or an
administrative agency acting in an adjudicative
capacity. It applies not only when the lawyer appears
before the tribunal, but also when the lawyer
participates in activities conducted pursuant to the
tribunal's authority, such as pre-trial discovery in a
civil matter.
[2] The advocate's task is to present the client's case
with persuasive force. Performance of that duty while
maintaining confidences of the client is qualified by
the advocate's duty to refrain from assisting a client
to perpetrate a fraud upon the tribunal. However, an
advocate does not vouch for the evidence submitted in
a cause; the tribunal is responsible for assessing its
probative value.
Representations by a Lawyer
[3] An advocate is responsible for pleadings and other
documents prepared for litigation, but is usually not
required to have personal knowledge of matters
asserted therein, for litigation documents ordinarily

App. 235

present assertions by the client, or by someone on the
client's behalf, and not assertions by the lawyer.
Compare RPC 3.1. However, an assertion purporting
to be on the lawyer's own knowledge, as in an affidavit
by the lawyer or in a statement in open court, may
properly be made only when the lawyer knows the
assertion is true or believes it to be true on the basis
of a reasonably diligent inquiry. There are
circumstances where failure to make a disclosure is
the equivalent of an affirmative misrepresentation.
The obligation prescribed in RPC 1.2(d) not to counsel
a client to commit, or assist the client in committing a
fraud, applies in litigation. Regarding compliance
with RPC 1.2(d), see the Comment to that Rule and
also Comments [1] and [7] to RPC 8.4.
Misleading Legal Argument
[4] Legal argument based on a knowingly false
representation of law constitutes dishonesty toward
the tribunal. A lawyer is not required to make a
disinterested exposition of the law, but must recognize
the existence of pertinent legal authorities.
Furthermore, as stated in paragraph (a)(2), an
advocate has a duty to disclose directly adverse
authority in the controlling jurisdiction that has not
been disclosed by the opposing party. The underlying
concept is that legal argument is a discussion seeking
to determine the legal premises properly applicable to
the case.
Ex Parte Proceedings
[5] Ordinarily, an advocate has the limited
responsibility of presenting one side of the matters
that a tribunal should consider in reaching a decision;
the conflicting position is expected to be presented by

App. 236

the opposing party. However, in an ex parte
proceeding, such as an application for a temporary
restraining order or one conducted pursuant to RPC
1.7(c), there is no balance of presentation by opposing
advocates. The object of an ex parte proceeding is
nevertheless to yield a substantially just result. The
judge has an affirmative responsibility to accord the
absent party just consideration. As provided in
paragraph (a)(3), the lawyer for the represented party
has the correlative duty to make disclosures of
material facts known to the lawyer and that the
lawyer reasonably believes are necessary to an
informed decision.
Refusing to Offer or Use False Evidence
[6] When evidence that a lawyer knows to be false is
provided by a person who is not the client, the lawyer
must refuse to offer it regardless of the client's wishes.
The lawyer must similarly refuse to offer a client's
testimony that the lawyer knows to be false, except
that paragraph (b) permits the lawyer to allow a
criminal defendant to testify by way of narrative if the
lawyer's request to withdraw, as required by
paragraph (f), is denied. Paragraph (c) precludes a
lawyer from affirming the validity of, or otherwise
using, any evidence the lawyer knows to be false,
including the narrative testimony of a criminal
defendant.
[7] As provided in paragraph (d), a lawyer has
authority to refuse to offer or use testimony or other
proof that the lawyer believes is untrustworthy.
Offering such proof may reflect adversely on the
lawyer's ability to discriminate in the quality of
evidence and thus impair the lawyer's effectiveness as
an advocate. Because of the special protections

App. 237

historically provided criminal defendants, however,
this Rule does not permit a lawyer to refuse to offer or
use the testimony of such a client because the lawyer
reasonably believes the testimony to be false. Unless
the lawyer knows the testimony will be false, the
lawyer must honor the client's decision to testify.
Wrongdoing in Adjudicative Proceedings by
Clients and Others
[8] A lawyer who is representing a client in an
adjudicative proceeding and comes to know prior to
the completion of the proceeding that the client has
perpetrated a fraud or committed perjury or another
offense against the administration of justice, or
intends to do so before the end of the proceeding, is in
a difficult position in which the lawyer must strike a
professionally responsible balance between the
lawyer's duties of loyalty and confidentiality owed to
the client and the equally important duty of the
lawyer to avoid assisting the client with the
consummation of the fraud or perjury. In all such
cases, paragraph (e) requires the lawyer to advise the
client to desist from or to rectify the crime or fraud
and inform the client of the consequences of a failure
to do so. The hard questions come in those rare cases
in which the client refuses to reveal the misconduct
and prohibits the lawyer from doing so.
[9] Paragraph (f) sets forth the lawyer's
responsibilities in situations in which the lawyer's
client is implicated in the misconduct. In these
situations, the Rules do not permit the lawyer to
report the client's offense. Confidentiality under RPC
1.6 prevails over the lawyer's duty of candor to the
tribunal. Only if the client is implicated in misconduct
by or toward a juror or a member of the jury pool does

App. 238

the lawyer's duty of candor to the tribunal prevail over
confidentiality. See paragraph (i).
[10] Although the lawyer may not reveal the client's
misconduct, the lawyer must not voluntarily continue
to represent the client, for to do so without disclosure
of the misconduct would assist the client to
consummate the offense. The Rule, therefore, requires
the lawyer to seek permission of the tribunal to
withdraw from the representation of the client. To
increase the likelihood that the tribunal will permit
the lawyer to withdraw, the lawyer is also required to
inform the tribunal that the request for permission to
withdraw is required by the Rules of Professional
Conduct. This statement also serves to advise the
tribunal that something is amiss without providing
the tribunal with any of the information related to the
representation that is protected by RPC 1.6. These
Rules, therefore, are intended to preserve
confidentiality while requiring the lawyer to act so as
not to assist the client with the consummation of the
fraud. This reflects a judgment that the legal system
will be best served by rules that encourage clients to
confide in their lawyers, who in turn will advise them
to rectify the fraud. Many, if not most, clients will
abide by their lawyer's advice, particularly if the
lawyer spells out the consequences of failing to do so.
At the same time, our legal system and profession
cannot permit lawyers to assist clients who refuse to
follow their advice and insist on consummating an
ongoing fraud.
[11] Once the lawyer has made a request for
permission to withdraw, the tribunal may grant or
deny the request to withdraw without further inquiry
or may seek more information from the lawyer about

App. 239

the reasons for the lawyer's request. If the judge seeks
more information, the lawyer must resist disclosure of
information protected by RPC 1.6, but only to the
extent that the lawyer may do so in compliance with
RPC 3.1. If the lawyer cannot make a non-frivolous
argument that the information sought by the tribunal
is protected by the attorney-client privilege, the
lawyer must respond truthfully to the inquiry. If,
however, there is a non-frivolous argument that the
information sought is privileged, paragraph (h)
requires the lawyer to invoke the privilege. Whether
to seek an interlocutory appeal from an adverse
decision with respect to the claim of privilege is
governed by RPCs 1.2 and 3.1.
[12] If a lawyer is required to seek permission from a
tribunal to withdraw from the representation of a
client in either a civil or criminal proceeding because
the client has refused to rectify a perjury or fraud, it
is ultimately the responsibility of the tribunal to
determine whether the lawyer will be permitted to
withdraw from the representation. In a criminal
proceeding, however, a decision to permit the lawyer's
withdrawal may implicate the constitutional rights of
the accused and may even have the effect of
precluding further prosecution of the client.
Notwithstanding this possibility, the lawyer must
seek permission to withdraw, leaving it to the
prosecutor to object to the request and to the tribunal
to ultimately determine whether withdrawal is
permitted. If permission to withdraw is not granted,
the lawyer must continue to represent the client, but
cannot assist the client in consummating the fraud or
perjury by directly or indirectly using the perjured
testimony or false evidence during the current or any
subsequent stage of the proceeding. A defense lawyer

App. 240

who complies with these rules acts professionally
without regard to the effect of the lawyer's compliance
on the outcome of the proceeding.
False Documentary or Tangible Evidence
[13] If a lawyer comes to know that tangible items or
documents that the lawyer has previously offered into
evidence have been altered or falsified, paragraph (g)
requires that the lawyer withdraw or disaffirm the
evidence, but does not otherwise permit disclosure of
information protected by RPC 1.6. Because
disaffirmance, like withdrawal, can be accomplished
without disclosure of information protected by RPC
1.6, it is required when necessary for the lawyer to
avoid assisting a fraud on the tribunal.
Crimes or Frauds by Persons Other than the
Client
[14] Paragraph (h) applies if the lawyer comes to know
that a person other than the client has engaged in
misconduct in connection with the proceeding. Upon
learning prior to the completion of the proceeding that
such misconduct has occurred, the lawyer is required
by paragraph (e) to promptly reveal the offense to the
tribunal. The client's interest in protecting the
wrongdoer is not sufficiently important as to override
the lawyer's duty of candor to the court and to take
affirmative steps to prevent the administration of
justice from being tainted by perjury, fraud, or other
improper conduct.
Misconduct By or Toward Jurors or Members of
Jury Pool
[15] Because jury tampering undermines the
institutional mechanism that our adversary system of
justice uses to determine the truth or falsity of

App. 241

testimony or evidence, paragraph (i) requires a lawyer
who learns prior to the completion of the proceeding
that there has been misconduct by or directed toward
a juror or prospective juror must reveal the
misconduct and the identity of the perpetrator to the
tribunal, even if so doing requires disclosure of
information protected by RPC 1.6. Paragraph (i) does
not require that the lawyer seek permission to
withdraw from the further representation of the client
in the proceeding, but in cases in which the client is
implicated in the jury tampering, the lawyer's
continued representation of the client may violate
RPC 1.7. RPC 1.16(a)(1) would then require the
lawyer to seek permission to withdraw from the case.
Crime or Fraud Discovered After Conclusion of
Proceeding
[16] In cases in which the lawyer learns of the client's
misconduct after the termination of the proceeding in
which the misconduct occurred, the lawyer is
prohibited from reporting the client's misconduct to
the tribunal. Even though the lawyer may have
innocently assisted the client to perpetrate the
offense, the lawyer should treat this information as
the lawyer would treat information with respect to
any past crime a client might have committed. The
client's offense will be deemed completed as of the
conclusion of the proceeding. An offense that occurs at
an earlier stage in the proceeding will be deemed an
ongoing offense until the final stage of the proceeding
is completed. A proceeding has concluded within the
meaning of this Rule when a final judgment in the
proceeding has been affirmed on appeal or the time for
an appeal has passed.
Constitutional Requirements

App. 242

[17] These Rules apply to defense counsel in criminal
cases, as well as in other instances. However, the
definition of the lawyer's ethical duty in such a
situation may be qualified by constitutional
provisions for due process and the right to counsel in
criminal cases. The obligation of the advocate under
these Rules is subordinate to any such constitutional
requirement.
RULE 3.4: FAIRNESS TO OPPOSING PARTY
AND COUNSEL
A lawyer shall not:
(a) unlawfully obstruct another party's access to
evidence or unlawfully alter, destroy, or conceal a
document or other material having potential
evidentiary value. A lawyer shall not counsel or assist
another person to do any such act; or
(b) falsify evidence, counsel or assist a witness to offer
false or misleading testimony; or
(c) knowingly disobey an obligation under the rules of
a tribunal, except for an open refusal based on an
assertion that no valid obligation exists; or
(d) in pretrial procedure, make a frivolous discovery
request or fail to make a reasonably diligent effort to
comply with a legally proper discovery request by an
opposing party; or
(e) in trial,
(1) allude to any matter that the lawyer does not
reasonably believe is relevant or that will not be
supported by admissible evidence; or
(2) assert personal knowledge of facts in issue except
when testifying as a witness; or

App. 243

(3) state a personal opinion as to the justness of a
cause, the credibility of a witness, the culpability of a
civil litigant or the guilt or innocence of an accused; or
(f) request a person other than a client to refrain from
voluntarily giving relevant information to another
party unless:
(1) the person is a relative or an employee or other
agent of a client; and
(2) the lawyer reasonably believes that the person's
interests will not be adversely affected by refraining
from giving such information; or
(g) request or assist any person to take action that will
render the person unavailable to appear as a witness
by way of deposition or at trial; or
(h) offer an inducement to a witness that is prohibited
by law; or pay, offer to pay, or acquiesce in the
payment of compensation to a witness contingent on
the content of his or her testimony or the outcome of
the case. A lawyer may advance, guarantee, or
acquiesce in the payment of:
(1) expenses reasonably incurred by a witness in
attending or testifying;
(2) reasonable compensation to a witness for that
witness's loss of time in attending or testifying; or
(3) a reasonable fee for the professional services of an
expert witness.
Comment
[1] The procedure of the adversary system
contemplates that the evidence in a case is to be
marshaled competitively by the contending parties.
Fair competition in the adversary system is secured

App. 244

by prohibitions against destruction or concealment of
evidence,
improperly
influencing
witnesses,
obstructive tactics in discovery procedure, and the
like.
[2] Documents and other items of evidence are often
essential to establish a claim or defense. Subject to
evidentiary privileges, the right of an opposing party,
including the government, to obtain evidence through
discovery or subpoena is an important procedural
right. The exercise of that right can be frustrated if
relevant material is altered, concealed, or destroyed.
Applicable law in many jurisdictions makes it an
offense to destroy material for the purpose of
impairing its availability in a pending proceeding or
one whose commencement can be foreseen. Falsifying
evidence is also generally a criminal offense.
Paragraph (a) applies to evidentiary material generally,
including computerized information. Applicable law
may permit a lawyer to take temporary possession of
physical evidence of client crimes for the purpose of
conducting a limited examination that will not alter
or destroy material characteristics of the evidence. In
such a case, applicable law may require the lawyer to
turn the evidence over to the police or other prosecuting
authority, depending on the circumstances.
[3] Although paragraph (f) broadly prohibits lawyers
from taking extrajudicial action to impede informal
fact-gathering, it does permit the lawyer to request
that the lawyer's client, and relatives, employees, or
agents of the client, refrain from voluntarily giving
information to another party. This principle follows
because such relatives and employees will normally
identify their interests with those of the client. See
also RPC 4.2.

App. 245

[4] With regard to paragraph (h), it is not improper to
pay a witness's expenses or to compensate an expert
witness on terms permitted by law. The common law
rule in most jurisdictions is that it is improper to pay
an occurrence witness any fee for testifying and that
it is improper to pay an expert witness a contingent
fee.
RULE 8.4: MISCONDUCT
It is professional misconduct for a lawyer to:
(a) violate or attempt to violate the Rules of
Professional Conduct, knowingly assist or induce
another to do so, or do so through the acts of another;
(b) commit a criminal act that reflects adversely on the
lawyer's honesty, trustworthiness, or fitness as a
lawyer in other respects;
(c) engage in conduct involving dishonesty, fraud,
deceit, or misrepresentation;
(d) engage in conduct that is prejudicial to the
administration of justice;
(e) state or imply an ability to influence a tribunal or
a governmental agency or official on grounds unrelated
to the merits of, or the procedures governing, the
matter under consideration;
(f) knowingly assist a judge or judicial officer in
conduct that is a violation of applicable rules of
judicial conduct or other law; or
(g) knowingly fail to comply with a final court order
entered in a proceeding in which the lawyer is a party,
unless the lawyer is unable to comply with the order
or is seeking in good faith to determine the validity,

App. 246

scope, meaning, or application of the law upon which
the order is based.
Comment
[1] Lawyers are subject to discipline when they violate
or attempt to violate the Rules of Professional
Conduct, knowingly assist or induce another to do so,
or do so through the acts of another, as when they
request or instruct an agent to do so on the lawyer's
behalf. Paragraph (a), however, does not prohibit a
lawyer from advising a client concerning action the
client is legally entitled to take.
[2] Many kinds of illegal conduct reflect adversely on
fitness to practice law, such as offenses involving
fraud and the offense of willful failure to file an
income tax return. However, some kinds of offenses
carry no such implication. Traditionally, the
distinction was drawn in terms of offenses involving
"moral turpitude." That concept can be construed to
include offenses concerning some matters of personal
morality, such as adultery and comparable offenses,
that have no specific connection to fitness for the
practice of law. Although a lawyer is personally
answerable to the entire criminal law, a lawyer should
be professionally answerable only for offenses that
indicate lack of those characteristics relevant to law
practice. Offenses involving violence, dishonesty,
breach of trust, or serious interference with the
administration of justice are in that category.
Although under certain circumstances a single offense
reflecting adversely on a lawyer's fitness to practice –
such as a minor assault – may not be sufficiently
serious to warrant discipline, a pattern of repeated
offenses, even ones that are of minor significance

App. 247

when considered separately, can indicate indifference
to legal obligation.
[3] A lawyer who, in the course of representing a
client, knowingly manifests, by words or conduct, bias
or prejudice based on race, sex, religion, national
origin, disability, age, sexual orientation, or socioeconomic status violates paragraph (d) when such
actions are prejudicial to the administration of justice.
Legitimate advocacy respecting the foregoing factors
does not violate paragraph (d).
[4] A lawyer may refuse to comply with an obligation
imposed by law upon a good faith belief that no valid
obligation exists. The provisions of RPC 1.2(d)
concerning a good faith challenge to the validity,
scope, meaning, or application of the law apply to
challenges of legal regulation of the practice of law.
[5] Paragraph (c) prohibits lawyers from engaging in
conduct involving dishonesty, fraud, deceit, or
misrepresentation. Such conduct reflects adversely on
the lawyer's fitness to practice law. In some
circumstances, however, prosecutors are authorized
by law to use, or to direct investigative agents to use,
investigative techniques that might be regarded as
deceitful. This Rule does not prohibit such conduct.
[6] The lawful secret or surreptitious recording of a
conversation or the actions of another for the purpose
of obtaining or preserving evidence does not, by itself,
constitute conduct involving deceit or dishonesty. See RPC 4.4.
[7] Lawyers holding public office assume legal
responsibilities going beyond those of other citizens. A
lawyer's abuse of public office can suggest an inability
to fulfill the professional role of lawyers. The same is

App. 248

true of abuse of positions of private trust such as
trustee, executor, administrator, guardian, agent and
officer, director, or manager of a corporation or other
organization.
[8] Paragraph (f) precludes a lawyer from assisting a
judge or judicial officer in conduct that is a violation
of the rules of judicial conduct. A lawyer cannot, for
example, make a gift, bequest, favor, or loan to a
judge, or a member of the judge's family who resides
in the judge's household, unless the judge would be
permitted to accept, or acquiesce in the acceptance of
such a gift, favor, bequest, or loan in accordance with
RJC 3.13 of the Code of Judicial Conduct.
[9] In both their professional and personal activities,
lawyers have special obligations to demonstrate
respect for the law and legal institutions. Normally, a
lawyer who knowingly fails to obey a court order
demonstrates disrespect for the law that is prejudicial
to the administration of justice. Failure to comply
with a court order is not a disciplinary offense,
however, when it does not evidence disrespect for the
law either because the lawyer is unable to comply with
the order or the lawyer is seeking in good faith to
determine the validity, scope, meaning, or application
of the law upon which the order is based.

